<html>
<title> - NOMINATION OF HON. JOHN R. BOLTON TO BE U.S. REPRESENTATIVE TO THE UNITED NATIONS</title>
<body><pre>[Senate Hearing 109-935]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-935
 
  NOMINATION OF HON. JOHN R. BOLTON TO BE U.S. REPRESENTATIVE TO THE 
                             UNITED NATIONS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             SECOND SESSION



                               __________

                             JULY 27, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                     U.S. GOVERNMENT PRINTING OFFICE

36-452 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001











                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  









                            C O N T E N T S

                              ----------                              
                                                                   Page

Bolton, Hon. John R., Nominee to be U.S. Representative to the 
  United Nations.................................................     7
    Prepared statement...........................................    11
Dodd, Hon. Christopher, U.S. Senator from Connecticut............     4
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Warner, Hon. John A., U.S. Senator from Virginia.................     3

              Additional Material Submitted for the Record

Section 5 of the New York Review of Books, submitted by Hon. 
  Barbara Boxer, U.S. Senator from California....................    55

                                 (iii)

  


  NOMINATION OF HON. JOHN R. BOLTON TO BE U.S. REPRESENTATIVE TO THE 
                             UNITED NATIONS

                              ----------                              


                        THURSDAY, JULY 27, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee) presiding.
    Present: Senators Lugar, Chafee, Allen, Coleman, Voinovich, 
Alexander, Martinez, Biden, Sarbanes, Dodd, Kerry, Feingold, 
Boxer, Nelson, and Obama.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    The Chairman. The committee meets today to consider 
President Bush's nomination of John Bolton to be United States 
Ambassador to the United Nations.
    This is the third Senate Foreign Relations Committee 
hearing in which Ambassador Bolton has testified since his 
appointment less than a year ago. In addition, in February, he 
hosted a delegation of the Senate Foreign Relations Committee 
that traveled to the United Nations. I wish that all members of 
the committee had been able to make that journey to New York 
with us. On that occasion, Senator Coleman, Senator Voinovich, 
and I had opportunity to meet with a number of key individuals 
and groups involved in deliberations on United Nations reform. 
The visit was especially informative on the complexity of the 
reform debate in New York and on the challenges faced by the 
United States delegation.
    In the spring of 2005, our committee spent several weeks 
reviewing the nominee's qualifications for this post. Few 
executive branch nominees have ever received more scrutiny than 
Ambassador Bolton. By any measure, this was an exhaustive 
review, particularly for a nominee who has been acknowledged as 
highly experienced in the subject matter he would be overseeing 
and who has been confirmed five times previously by the United 
States Senate.
    In the end, despite two majority votes on the Senate floor, 
the nomination did not receive the 60 votes necessary to bring 
debate to a conclusion. President Bush subsequently exercised 
his authority to give the nominee a recess appointment.
    We have returned to the nomination because the President 
has resubmitted the nominee for our consideration. And, in 
doing so, he has expressed his view that Ambassador Bolton is 
important to the implementation of United States policies of 
the United Nations and of broader United States roles on the 
global stage.
    The President has made clear that this is not a casual 
appointment. He wants a specific person to do a specific job. 
We should recognize that the United Nations Ambassador always 
is closely associated with the President of the United States 
and the Secretary of State. They are responsible for what the 
ambassador says and does, and they can dismiss the ambassador 
who does not follow their directives. Consequently, there are 
few positions in Government in which the President should have 
more latitude in choosing his nominee.
    As we evaluate the nominee, we should not lose sight of the 
larger national security issues concerning U.N. reform and 
international diplomacy that are central to this nomination. 
Our Nation is confronted, as it was last year, by serious 
diplomatic challenges that will have a profound effect on U.S. 
national security.
    At the heart of our efforts to resolve these issues is a 
basic question. Can the United States build relationships and 
alliances around the world that will give us the tools we need 
to protect our national security? In almost every recent case, 
the Bush administration has embraced a multilateral dimension 
to problem solving that recognizes that we need allies.
    And as we attempt to reverse the weapons programs of North 
Korea, we are depending heavily on the Six-Party Talks that 
involve China, Japan, Russia, and South Korea. As we attempt to 
stop the Iranian nuclear program, we utilize negotiations 
carried out by Great Britain, France, and Germany, and we have 
sought the United Nations Security Council votes of Russia, 
China, and others. And throughout our experience in Iraq, we've 
requested the help of countries in Europe, Asia, the Middle 
East, and elsewhere to support the nascent Iraqi Government, to 
help train its army, and generally to contribute to stability 
in the region. As we search for ways to promote stability on 
the Israeli-Lebanese border, an international peacekeeping 
force is being considered as a possible solution. In 
Afghanistan, we have turned some U.S. military missions over to 
our NATO allies, who are increasing their contributions. In 
what may be the most important strategic diplomatic initiative 
undertaken by the Bush administration, the United States is 
seeking a groundbreaking partnership with India.
    In each of these cases, and many others, success depends on 
the reserve of support that we can tap with our allies and our 
friends. It depends on the willingness of other nations to 
expand the options and resources that can be applied to solving 
problems that threaten our security. The process of building 
international relationships cannot be reserved for times of 
crisis. It must be a constant preoccupation of any 
administration, and it must be a core diplomatic mission of our 
United Nations Ambassador.
    During the last year, Ambassador Bolton has shared with us 
his efforts at reforming the United Nations and his efforts to 
represent our Nation in that forum. We're pleased to have an 
opportunity today not only to examine his qualifications, but 
also to review the status of several crucial initiatives he is 
overseeing in New York.
    President Bush has selected John Bolton, a nominee of 
experience and accomplishment, to be his spokesman and 
representative at the United Nations. Given the importance of 
this position, it's vital we evaluate the nominee fairly and 
expeditiously. We look forward to learning how the nominee has 
worked on behalf of the President and the Secretary of State 
during the past year, and what he would do in coming years, if 
he is confirmed.
    Let me mention that the distinguished ranking member of our 
committee, Senator Biden, will be with us in the hearing in due 
course. He is at the White House presently attending an 
important signing ceremony on the extension of the Voting 
Rights Act. And when he returns obviously we'll recognize him 
for the opening statement he might have presented at this 
moment.
    We will proceed. Senator Warner is here. And I understand, 
Senator, you have come to introduce the nominee. And you're 
recognized. And we're delighted to have you.

    STATEMENT OF JOHN A. WARNER, U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well, thank you, Mr. Chairman.
    It is, indeed, a privilege for me to come. And I wish to 
point out I was on time. I think you started early. [Laughter.]
    And--but, nevertheless, I very much wanted to join, this 
morning. And I'll ask that my statement be placed into the 
record----
    The Chairman. It will be placed in full.
    Senator Warner [continuing]. Because it was fortunate for 
me to have the opportunity to listen to your carefully prepared 
and well-delivered, very comprehensive statement in support of 
this nominee.
    [The prepared statement of Senator Warner follows:]

 Prepared Statement of Senator John Warner, U.S. Senator from Virginia

    Chairman Lugar, Senator Biden, colleagues, I join you once again--
as I did on April 7, 2005--to introduce John Bolton, the President's 
nominee for U.S. Representative to the United Nations with the Rank of 
Ambassador.
    When the President nominated John Bolton to this position last 
year, the President and his Secretary of State, Condoleezza Rice, 
expressed their confidence that John Bolton had the experience and 
skills to represent the United States at the United Nations and to 
carry out the President's priorities to strengthen and reform the U.N.
    Ambassador Bolton has clearly demonstrated by his exceptional 
professional performance of his duties over the past 15 months that the 
confidence of the President and the Secretary was well-placed. While 
serving as U.S. Ambassador to the United Nations, Mr. Bolton was 
instrumental in:

  <bullet> Negotiating a formal Security Council statement calling on 
        Iran to suspend all uranium enrichment activities;
  <bullet> Encouraging adoption of resolutions to establish a mandate 
        to arrest Charles Taylor and bring him to justice; and to 
        ensure peaceful presidential elections in Liberia;
  <bullet> Leading the effort to have the Security Council take a firm 
        and clear stand against the recent North Korean missile 
        launches. This was effectively accomplished through the 
        adoption of Resolution 1695; and
  <bullet> Working with the Security Council to authorize contingency 
        planning for the transition of the African Union Mission in 
        Sudan to a U.N. operation, and to permit the entry of a joint 
        African Union-U.N. assessment team to Darfur.

    These are just a few examples of Ambassador Bolton's effectiveness 
at the U.N. I share the President's and the Secretary's confidence that 
John Bolton will continue to forcefully and diplomatically represent 
the United States and advance the President's goal of making the United 
Nations a stronger, more effective international organization.
    Given the many challenges that face the United Nations Security 
Council at this time, I believe continuity of U.S. representation there 
is critical. John Bolton is a key member of the President's national 
security team, and the President needs him in place as the U.S. 
Ambassador to the U.N. Speaking at the U.N. and before the 
international media on behalf of the President and the United States, 
Mr. Bolton should have the benefit of the credibility, confidence, and 
support that is conferred by Senate confirmation.

    Senator Warner. I would simply wish to add a personal note, 
Mr. Chairman. You and I came to the Senate about the same time, 
and we have often reminisced together about our--opportunities 
this country has given us to observe history in the making. And 
we both started in the tail end of World War II, went through 
Korea and Vietnam, and today. And I would say, without any 
hesitation, it is my observation that our President is faced 
with a more complex framework of challenges than any President 
before us in contemporary history.
    We're talking here today about the continuity of his 
representative to the United Nations. You very carefully and 
thoughtfully outlined he is the President's choice. The 
President, as well as all America and all the world, have had 
the opportunity to see this fine man exercise his professional 
and diplomatic skills in a very extraordinary way. And now, the 
sole thing that remains is that constitutional authority of the 
Senate to give its advice and consent.
    I do believe, without any reservation whatsoever, that the 
Senate will, and should, give that advice and consent to this 
nominee, because he becomes an integral member of the 
President's national security team at a time when our Nation is 
faced with these many complex issues.
    So, I wish you well, Mr. Chairman, as you guide this 
nomination. I say to my good friend, thank you for your public 
service, and that of your family, and your resolve to carry on. 
Good luck.
    The Chairman. Thank you, Senator Warner. We appreciate, as 
always, the wonderful cooperation our committee has with the 
Armed Services Committee that you chair. And you're most 
thoughtful to come over to make a statement on behalf of the 
nominee.
    Senator Warner. Thank you.
    The Chairman. I note the presence of Senator Dodd, and I 
mention Senator Dodd specifically, because, in the absence of 
Senator Biden, the Senator has asked that Senator Dodd might be 
permitted to make a statement at this time corresponding to the 
opening statement that I've made. And so, I'll recognize the 
Senator for that purpose, and then we will recognize the 
nominee.

     STATEMENT OF HON. CHRISTOPHER DODD, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Dodd. Thank you. Thank you very much, Mr. Chairman. 
And I apologize for being a couple of minutes late coming over 
to the hearing.
    And welcome to my good friend from Virginia, Senator 
Warner. Always a pleasure to have you come by. Both Senators 
from Virginia here, sitting together this morning at the dais.
    Senator Warner. I thank you, Senator Dodd. I note that this 
hearing started on time, which is somewhat unusual.
    Senator Dodd. That doesn't happen in the Armed Services 
Committee, does it?
    Senator Warner. No, no, not at all. [Laughter.]
    Senator Dodd. Thank you very much.
    Mr. Chairman, as you know, when the Senate considered this 
nomination last year, I strongly opposed the confirmation of 
Mr. Bolton to the position of United States Permanent 
Representative to the United Nations on both procedural and 
substantive grounds. Mr. Chairman, I remain opposed to this 
nominee, and I'd like to explain why.
    Before being nominated to this position in 2005, Mr. 
Bolton's own statements evidenced great skepticism and disdain 
for the United Nations and to multilateral diplomacy generally. 
Nothing he has said or done since assuming his current position 
in New York suggests he has altered his views on the United 
Nations or on multilateral diplomacy generally.
    Mr. Chairman, I'm not one who has made the determination 
that Mr. Bolton hasn't changed his spots, so to speak, when it 
comes to his views on the usefulness of diplomacy in advancing 
the United States interests. Some 30 of his colleagues at the 
United Nations with whom he serves have said as much. In a 
recent New York Times article, one colleague characterized him 
as intransigent. Another suggested that Mr. Bolton's high 
ambition are coverups for less noble aims and oriented not at 
improving the United Nations, but at belittling and weakening 
it. A third has essentially written off working with Mr. 
Bolton. I quote him. He said, ``He's lost me as an ally now, 
and that's what many other Ambassadors who considered 
themselves friends of the United States are saying.''
    Mr. Bolton clearly has an aversion, in my view, to being 
diplomatic or to building consensus for U.S. position, and that 
is deeply troubling to me, particularly as we witness chaos 
erupting in Iraq and the substantial commitment of American 
resources and manpower being consumed to prevent full-scale 
civil war there. And then I turned around to find a virtual 
explosion of other international crises around the globe, and 
the United States hamstrung by fewer resources and options for 
responding to those crises.
    When the committee considered Mr. Bolton's nomination last 
year, we heard unprecedented criticism from colleagues who 
served with him in the State Department. A number of them were 
appointees by the current President. Among other things, he was 
described by his colleagues as a bully and a bean counter. I 
said at the time that Mr. Bolton's personality really--isn't 
really the issue, as far as I'm concerned, at all. There are 
lots of bullies in this town, and, I suspect, New York, as 
well. My objection isn't that he's a bully, but that he's been 
an ineffective bully and can't win the day when it comes--when 
it really counts. For example, prior to a vote early this month 
on the United Nations Security Council resolution intended to 
sanction North Korea for its provocative 4th of July missile 
launches, Mr. Bolton publicly assured anyone who would listen 
that he could get support for a resolution with teeth for the 
so-called Chapter VII obligations. Turns out, of course, he 
couldn't. The resolution adopted by the U.N. Security Council 
fell well short of that.
    Last September, Mr. Bolton told the House International 
Relations Committee that the negotiation of an effective Human 
Rights Council was a key objective of the United States, and 
that it was a very high priority, and a personal priority of 
his. High priority? I don't think so. There were 30 negotiating 
sessions, a very critical issue, to hammer out the framework of 
this Human Rights Council, and Ambassador Bolton managed to 
attend only one or two of those sessions. In the end, the 
United States was one of four countries to vote against 
approval of the new U.N. Human Rights Council.
    When the score is tallied on the effectiveness of Mr. 
Bolton at the United Nations, I think he receives a failing 
grade.
    There is a procedural dimension, as well, to my concerns 
with the nominee, as well. Last year, the administration 
refused to provide this committee with documents relevant to 
its deliberations concerning Mr. Bolton's conduct while serving 
as Under Secretary of State for Arms Control and International 
Security Affairs. The Senate validated this committee's right 
and obligation to receive information it determined to be 
relevant by refusing to invoke closure on the nomination until 
the administration honored those requests. The administration 
chose not to do so, and instead made the decision to give Mr. 
Bolton a recess appointment.
    Specifically, documents were requested related to Mr. 
Bolton's use or misuse of NSA intercepts and his practice of 
advancing his own political agenda by overstating available 
intelligence. That information remains relevant, I think, Mr. 
Chairman, to this committee's consideration of this nominee. 
And, therefore, Mr. Chairman, I would publicly restate my 
earlier request for that material. We are told that we must not 
delay the nomination any longer. Forget about getting 
additional information that is clearly relevant. ``The Senate 
must confirm Mr. Bolton,'' his supporters argue, ``because of 
the ongoing crisis in Lebanon, and we need his strong voice in 
New York to deal with that crisis.'' I would first ask what Mr. 
Bolton has done in his 12 months to avert any crisis in the 
first place. What did he do to push for key provisions of U.N. 
Security Council Resolution 1559 to be implemented, 
specifically those related to the disarming of Hezbollah? 
Clearly, the answer is ``not enough,'' in my view. Had 1559 
been implemented in full, Israel would not have been attacked, 
and we wouldn't be waiting--or watching, rather--Lebanon being 
destroyed in order to deal with the still-armed Hezbollah.
    Mr. Chairman, I would then return to the point that I made 
earlier; namely, that Mr. Bolton has largely burned his bridges 
with his colleagues in New York, and isn't likely to be an 
effective diplomat when diplomacy is increasingly becoming the 
coin of the realm in protecting the advancing U.S. interests at 
this very unstable moment in our history.
    Mr. Chairman, the administration should put the Nation's 
interests first, in my view, and nominate an individual with 
strong diplomatic skills who believes in diplomacy rather than 
placing his conservative agenda by continuing to push for 
confirmation of an unsuitable nominee. Now, I doubt very much, 
Mr. Chairman, that today's hearing is going to change any 
minds, but I stand ready to listen to Mr. Bolton respond to the 
questions of our colleagues and hope that the committee would 
certainly give them serious attention.
    And I thank the committee.
    The Chairman. I thank the Senator.
    We will have a period of questions after the nominee's 
opening statement.
    And I call now upon the nominee, John Bolton. We are 
pleased to have you here, sir, and I ask you to proceed.

     STATEMENT OF HON. JOHN R. BOLTON, NOMINEE TO BE U.S. 
              REPRESENTATIVE TO THE UNITED NATIONS

    Ambassador Bolton. Thank you very much, Mr. Chairman.
    I have a prepared statement I'd ask be submitted to the 
record, and I just have a brief summary of that.
    The Chairman. Your statement will be published in full.
    Ambassador Bolton. I want to thank Senator Warner for his 
kind introduction this morning before he has to leave. I'm 
grateful, once again, Senator, for your introducing me to the 
committee.
    Senator Warner. Thank you very much.
    Ambassador Bolton. I'd also like to thank, Mr. Chairman, 
you and your colleagues for the support that you had given me 
over the course of the past year. Whether it is the attention 
this committee has focused on reforming the United Nations or 
the myriad of critical issues currently on the agenda of the 
Security Council, your work has helped to advance important 
policy goals of the United States. I thank you for your help 
and look forward to continuing and strengthening our close 
working relationship if I am confirmed.
    As I said earlier, I thank Senator Warner. I'd also like to 
thank Dr. Kissinger, who I had hoped would be here today. We do 
have a letter that he was able to submit that perhaps we'll be 
able to read at an appropriate point.
    I want to thank my wife, Gretchen, who's here again today, 
for her love and support. I want to thank my daughter, Jennifer 
Sarah, who's a junior at Yale this fall, who is pursuing her 
course on Grand Strategies by traveling through South America 
studying the colonial policies of King Philip II of Spain. So, 
she is unable to be here today.
    The need for a strong and effective U.N. remains as 
powerful today as ever. As President Bush has declared, ``Now 
more than ever, the U.N. must play a critical role as it 
strives to fulfill the dreams and hopes and aspirations of its 
original promise to save succeeding generations from the 
scourge of war, to reaffirm faith and fundamental human rights, 
and to promote social progress and better standards of life in 
larger freedom.''
    For close to a year now, I've had the privilege and honor 
to serve as the U.S. Permanent Representative to the United 
Nations. I've also had the privilege and honor to work with a 
fantastic team in our mission up in New York, and I cannot 
thank them enough. If confirmed, I look forward to continuing 
my close working relationship with them, in addition to doing 
my utmost to uphold the confidence that the President, 
Secretary Rice, and the Senate will have placed in me.
    In the time I have before you today, I would like to 
discuss several of the most critical issues confronting the 
U.N. and the Security Council.
    Mr. Chairman, we are all aware of the crisis and tragedy 
unfolding in the Middle East. The United States is exhausting 
all diplomatic efforts to resolve the situation. With her 
recent trip to the region, and then traveling to Rome to meet 
with the Lebanon core group, Secretary Rice has been very clear 
that our goal is to achieve a doable solution, one that 
strengthens the forces of peace and democracy in the region.
    This does not mean, however, that we are ignoring the 
humanitarian impact of the immediate crisis. Indeed, just 2 
days ago, Secretary Rice authorized $30 million in assistance 
to victims of the conflict in Lebanon. To meet the most urgent 
needs, the United States has also dispatched two large-scale 
medical deliveries.
    The Security Council is also actively seized of the matter. 
We are working closely with other members to ensure that 
appropriate action is taken by the Council. Any action we take 
must recognize that the current conflict is a direct result of 
the terrorist acts of Hezbollah and Hamas, and their state 
sponsors in Iran and Syria. Lopsided resolutions, such as the 
one the United States vetoed this month, would do nothing to 
promote a long-term solution, and would only prolong the 
suffering of innocent civilian populations in the region.
    As the Secretary has noted, we must defang Hezbollah. We 
appreciate the bold and courageous action of the Arab League in 
condemning Hezbollah for instigating this conflict. As I speak, 
though, Hezbollah continues to operate in southern Lebanon with 
impunity, defying the will of the Security Council as 
established in Resolution 1559. We are working hard with others 
to bring about its full implementation and the full extension 
of its authority by the Government of Lebanon over all Lebanese 
territory. If that were done, then Israel would be less subject 
to terrorist attacks, and the people of Lebanon would not be 
subject to the reign of terror that Hezbollah inflicts.
    We are actively considering a variety of methods on how 
best to secure the implementation of Resolution 1559. Some 
member states have called for an immediate and unconditional 
cease-fire between Israel and Hezbollah, but we must ask our 
colleagues, how do you negotiate and maintain a cease-fire with 
a terrorist organization, one which does not even recognize the 
right of Israel to exist? We're also considering the insertion 
of a stabilization force into the region, while considering 
important questions related to its scope and mandate.
    These are all important issues currently under discussion 
by the Secretary and in the Security Council. The question of 
Israel's response has come up, as well. Of course, it is a 
matter of the utmost concern to us, as President Bush has 
stressed, that civilian deaths are occurring. It is a tragedy, 
and I would not attempt to describe it any other way. We have 
urged the Government of Israel to exercise the greatest 
possible care in its use of force. The legitimate exercise of 
Israel's right of self-defense is not the moral equivalent of 
the terrorist acts of Hezbollah, but all of these civilian 
deaths are tragic.
    We hope that from this current crisis we can seize the 
opportunity to once and forever dismantle Hezbollah, restore 
democratic control by Lebanon over all of its territory, and 
lay the foundations that would allow Israel to live in peace 
with its neighbors.
    The Security Council is also actively seized with the 
proliferation threats posed by both Iran and North Korea. In 
the case of Iran, we are currently in the process of 
negotiating a resolution that will require Iran to end its 
pursuit of nuclear weapons. Firm and decisive action by the 
Council is necessary, because Iran has consistently rebuffed 
the diplomatic efforts pursued by our friends and allies in 
Europe.
    It is critical that we succeed in these efforts. Iran's 
unrelenting pursuit of nuclear weapons poses a grave and direct 
threat to international peace and security. This is 
particularly clear in light of the inflammatory rhetoric of 
Iran's leader, who recklessly calls for Israel to be wiped off 
the map, and who even questions the tragic events of the 
Holocaust.
    I am pleased to say that we have already taken firm action 
in the case of North Korea following their decision to violate 
several international commitments and launch seven ballistic 
missiles, including a long range Taepodong II, in the vicinity 
of Japan. On July 15, the Security Council unanimously adopted 
Resolution 1695, which demands that North Korea suspend all 
activities relating to its ballistic missile program, including 
a return to its moratorium on test launching. The resolution 
also requires member states to cease all trade in goods and 
technology which might contribute to North Korea's missile or 
other WMD-related programs. This resolution was the outcome of 
11 days of intensive negotiations. Bear in mind, when North 
Korea launched a ballistic missile over Japan's airspace in 
1998, the response of the Security Council was a weak press 
statement. This time, however, we were able to bring along 
China and Russia to support a very strong resolution, even 
though they initially supported issuing yet another press 
statement. The fact that both China and Russia supported the 
resolution, the first one on North Korea since 1993, cannot be 
lost on the North Korean leadership.
    Mr. Chairman, I know that the situation in Darfur is also 
of particular interest to the committee. We continue to push 
hard to bring relief to the citizens of Darfur, where over 
200,000 people have lost their lives and over 2 million have 
become displaced since 2003. The United States remains 
committed to establishing a new and expanded U.N. force in 
Darfur by year's end.
    Significant challenges, however, remain. Russia and China 
continue to voice opposition to a resolution with a binding 
Chapter VII mandate. There is also the issue of the Government 
of Sudan agreeing to a U.N. force in Darfur.
    Significant efforts are underway in New York and other 
venues to overcome these obstacles. The U.N. Technical 
Assessment Mission has returned from Sudan and is finalizing 
its report to the Security Council.
    In the interim, we are working with our NATO allies to 
support the current mission on the ground in the form of 
planning, logistics, intelligence support, and other help. As 
President Bush has said, ``America will not turn away from this 
tragedy. We will call genocide by its rightful name, and we 
will stand up for the innocent until the peace of Darfur is 
secured.''
    Mr. Chairman, let me now turn to the issue of U.N. reform. 
The assessment I gave you in testimony before the committee 2 
months ago broadly remains valid today. Some modest progress 
has been achieved since the world summit last September, 
including establishing a much-needed U.N. Ethics Office, 
strengthening financial disclosure requirements for U.N. staff 
members, protecting U.N. personnel from retaliation for 
reporting misconduct, and providing needed resources for 
oversight. While these reforms are important steps in the right 
direction, we had hoped for more. The goal now is to identify 
priority targets where progress can be made, and take the 
necessary steps to demonstrate that the U.N. and its member 
states are fully engaged in launching what Secretary of State 
Rice has termed ``a lasting revolution of reform,'' one that 
would transform the United Nations into an institution fully 
capable of addressing the complex array of challenges now 
confronting us all.
    To this end, the United States recently joined consensus on 
the adoption of several reforms relating to information and 
communication technology, budget implementation, financial 
management practices, and improved reporting mechanisms, 
including increased public access to U.N. records.
    These issues all speak to our attempts to change the 
``culture of inaction,'' the phrase used by Paul Volcker before 
this very committee when discussing the Oil-for-Food scandal. 
To change this culture, we are working to increase the 
transparency and accountability of the U.N., not just to shine 
a light on the agencies or bodies which may be in need of 
reform, but to allow those that do work effectively to better 
advertise and market their expertise in ways that might serve 
as a model for others. If confirmed, I pledge to continue 
working on this important issue.
    Mr. Chairman, allow me briefly to update you on where we 
stand with regard to the new Human Rights Council. We are still 
in the position of evaluating the Council's first session, 
which recently wrapped up in Geneva. As you know, the United 
States did not vote for this body this past spring, because, in 
our view, it did not go far enough to differentiate itself from 
its widely discredited predecessor. While we have not yet made 
a decision on whether or not to run for next year's council, it 
gives us considerable pause for concern that this newly 
reformed body managed to adopt only one country-specific 
resolution against one of the U.N.'s 192 members: Israel. That 
the HRC had to call a special session to do so is even more 
disturbing. This is, of course, highly disappointing, given the 
abuses being carried out in countries such as North Korea, 
Burma, Iran, and the Sudan, to name a few.
    As I noted last May, though, despite our disappointment 
that the new council is too similar to the old commission, the 
United States will continue to work with democratic delegations 
through our team in Geneva, which still attends its meetings to 
advance our goals. My colleague, Ambassador Tichenor, and his 
delegation have worked energetically to promote U.S. interests 
and values there, and will continue to do so.
    Mr. Chairman, in the interest of time, I want to just 
mention briefly the U.N. Democracy Fund, which was one of 
President Bush's initiatives. We have contributed $18 million 
of the $49 million so far in that fund. We're looking to this 
to develop new and different kinds of projects in the U.N.; not 
to follow the same patterns as before, but to be innovative and 
creative, working hard to that end.
    I also want to mention the work that we've done in 
connection with HIV/AIDS. We were very pleased, last month, 
that First Lady Laura Bush could address the conference, the 
special session on HIV/AIDS that the General Assembly had, and 
she was able to confirm that the President's Emergency Plan for 
AIDS Relief, or PEPFAR, which is a very innovative 5-year, $15 
billion plan, is well underway.
    Mr. Chairman, I have had the opportunity to hold direct 
discussions with almost every permanent representative from 
other member states at the U.N. on a one-on-one basis. During 
this period, I've done my best to work with others to advance 
our national interests. I do believe important advances have 
been made. In cases where we would like to have seen even 
further progress, we now have greater clarity on the 
differences that we must still work together to resolve. 
Whether through the remaining tenure of my appointment or 
longer, if confirmed, I pledge to continue working with this 
committee.
    Thank you for your consideration. I'm happy to answer any 
questions you our your colleagues may now have.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Bolton follows:]

   Prepared Statement of Hon. John R. Bolton, Nominee for Permanent 
  Representative of the United States of America to the United Nations

    Mr. Chairman, thank you for inviting me to appear before the 
committee today. I would also like to thank you and your colleagues for 
the support you have given me over the course of the past year. Whether 
it is the attention this committee has focused on reforming the United 
Nations, or the myriad of critical issues currently on the agenda of 
the Security Council, your work has helped to advance important policy 
goals of the United States. Forging a strong relationship between the 
United States and the United Nations, while advancing U.S. national 
interests, requires close cooperation and coordination between all 
branches of the U.S. Government, other member states, and the U.N. 
Secretariat. I thank you for your help and look forward to continuing 
and strengthening our close working relationship if confirmed.
    The need for a strong and effective U.N. remains as powerful today 
as ever. As President Bush has declared, ``Now, more than ever, the 
U.N. must play a critical role as it strives to fulfill the dreams and 
hopes and aspirations of its original promise to save succeeding 
generations from the scourge of war, to reaffirm faith and fundamental 
human rights, and to promote social progress and better standards of 
life in larger freedom.''
    Mr. Chairman, for close to a year now, I have had the privilege and 
honor to serve as the U.S. Permanent Representative to the United 
Nations. I have also had the privilege and honor to work with a 
fantastic team at our mission up in New York. The dedication and 
commitment of the staff at the U.S. mission has been instrumental in 
advancing our policy goals, and I cannot thank them enough. If 
confirmed, I look forward to continuing my close working relationship 
with them, in addition to doing my utmost to uphold the confidence that 
the President, Secretary Rice, and the Senate will have placed in me.
    In the time I have before you today, I would like to divide my 
remarks into three broad categories. First, I would like to discuss the 
important work we have been engaged in on the Security Council, which 
is currently handling one of its busiest schedules ever in light of 
recent developments in the world, notably the situation in the Middle 
East. Second, I would like to provide an update on where we stand on 
reforming the United Nations, discussing both the challenges and the 
opportunities that lie ahead of us. Third, I would like to mention some 
of the work we are doing in cooperation with the U.N. to achieve our 
long-term objectives on critical policy goals like economic development 
and eradicating HIV/AIDS. Following that, I would be happy to answer 
any questions you or your colleagues may have on these or other 
subjects.
                     security council agenda items
    Mr. Chairman, many have remarked, and I agree, that this has been 
one of the busiest times for the Security Council. Sadly, world events 
do not pause for summer. Emergency meetings have become the norm. After 
months of working side-by-side with other members on the council, I 
believe I have established a good working relationship with them, and 
if confirmed, I pledge to continue deepening those relationships, while 
still advancing our national interests. Let me now turn to a few 
specific subjects.
The situation in the Middle East
    Mr. Chairman, we are all aware of the crisis and tragedy unfolding 
in the Middle East. The United States is exhausting all diplomatic 
efforts to resolve the situation. The situation is so fluid that it is 
inherently difficult for me to go into specifics, given that the 
Lebanon Core Group, including foreign ministers, just met in Rome. 
Secretary Rice was unequivocal, though, in making clear that the United 
States seeks a ``durable solution . . . one that strengthens the forces 
of peace and democracy in the region.'' A truly democratic Middle East 
is our best long-term hope to ensure that we achieve a lasting, 
permanent peace.
    While policy discussions are underway in Rome to devise a solution, 
important steps are already underway to alleviate the suffering of 
civilians. Just 2 days ago, Secretary of State Rice authorized $30 
million in immediate humanitarian assistance to victims of the conflict 
in Lebanon. To meet the most urgent needs, the United States has 
dispatched two large-scale medical deliveries. Each of these deliveries 
contains enough medicine and supplies to meet the basic medical needs 
of 10,000 people for a 3-month period. The United States will also 
begin delivering other direct U.S. assistance to Lebanon, including 
plastic sheeting and blankets.
    The Security Council is also actively seized of the matter. We are 
working closely with other members of the council to ensure that 
appropriate, I stress appropriate, action is taken by the council. It 
would be a disservice and only bring increased hardship to the peoples 
of Israel and Lebanon if the Security Council adopted stopgap measures, 
which would do nothing to address the root causes of the violence. It 
was with this in mind that the United States felt it necessary to veto 
a lopsided resolution, 2 weeks ago, on this matter, the first time we 
had to do so in almost 2 years.
    We are actively engaged in New York to identify lasting solutions 
to bring about a permanent peace in the Middle East. To do so, however, 
requires that we have a shared understanding of the problem. The United 
States has held the firm view that the root cause of the problem is 
terrorism--and that this terrorism is solely and directly responsible 
for the situation we find ourselves in today. This terrorism manifests 
itself, not only in the form of Hezbollah and Hamas, but also in their 
state sponsors in Tehran and Damascus. We should all take note, 
particularly Iran and Syria, of the important statement from the Arab 
League for its courage and conviction in condemning Hezbollah for its 
role in instigating this latest round of violence.
    As we speak, Hezbollah continues to operate in southern Lebanon 
with impunity, defying the will of the Security Council as established 
in Resolution 1559. We are working hard with others to bring about the 
full implementation of Resolution 1559 and the full extension of its 
authority by the Government of Lebanon over all of Lebanese territory. 
If that were done, then Israel would be less subject to terrorist 
attacks, and the people of Lebanon would not be subject to the reign of 
terror that Hezbollah inflicts.
    We are actively considering the variety of proposals on the table 
on how best to secure the implementation of Resolution 1559, including 
the insertion of an international stabilization force. I would value 
any thoughts you or your colleagues may have on this matter. For our 
part, our view is that we must always keep at the forefront that the 
key goal should be to disarm and ``defang'' Hezbollah, to quote 
Secretary Rice.
    We take note that some member states have called for an immediate 
and unconditional cease-fire between Israel and Hezbollah--but we must 
ask our colleagues, how do you negotiate and maintain a cease-fire with 
a terrorist organization, one which does not even recognize the right 
of Israel to exist? The United States has no confidence that Hezbollah 
would honor an unconditional cease-fire. History shows us that it would 
only allow them time to regroup and plan their next wave of kidnappings 
and attacks against Israel. The United States seeks an end to the 
violence that afflicts innocent civilians, and for that very reason we 
are working for the conditions that will make a real cease-fire 
possible and permanent. Our aim is to address the underlying causes of 
the violence in southern Lebanon--namely terrorism.
    In considering any stabilization force, we need to consider several 
questions. Would the new force be empowered to deal with the real 
problem, namely Hezbollah? How would such a force deal with Hezbollah 
armed components, and would it be empowered to deal with arms shipments 
from countries like Syria and Iran that support Hezbollah? How would 
the new force relate to the existing U.N. Interim Force in Lebanon, or 
LTNIFIL, which already has been there for 28 years? Finally, would such 
a force contribute to the institutional strength to the Lebanese Armed 
Forces (LAF) to help fully implement Resolution 1559?
    These are all important questions currently under discussion by the 
Secretary in Rome and the Security Council. The question of Israel's 
response has come up as well. Of course it is a matter of great concern 
to us, as President Bush has stressed, that civilian deaths are 
occurring. It is a tragedy, and I would not attempt to describe it any 
other way. We have urged the Government of Israel to exercise the 
greatest possible care in its use of force.
    Mr. Chairman, the United States remains firmly committed to working 
through the Security Council, indeed through all diplomatic channels, 
to finding a lasting end to the violence. We hope that from this 
current crisis we can seize the opportunity to once and forever 
dismantle Hezbollah, restore democratic control by Lebanon over all of 
its territory, and lay the foundations that would allow Israel to live 
in peace with its neighbors.
Iran
    While the crisis in the Middle East is, of course, a priority at 
the moment, we are effectively dealing with other major issues as well. 
We are currently involved in intense negotiations on the subject of 
Iran's pursuit of nuclear weapons. We have expended considerable 
diplomatic efforts through a variety of venues to try to persuade Iran 
that its pursuit of nuclear weapons makes it less, not more, secure. 
Iran has consistently rebuffed those efforts, most recently just last 
week in Paris, which led to the collective decision of the P-5 Foreign 
Ministers, plus Germany, that it is now time for the Security Council 
to take action.
    It is critical that we succeed in these efforts. Iran's unrelenting 
pursuit of nuclear weapons poses a grave and direct threat to 
international peace and security. In tandem with their pursuit of even 
longer-range ballistic missiles, we must treat the threat they pose to 
our friends and allies in the region and beyond with the utmost 
gravity. This is particularly clear in light of the inflammatory 
rhetoric of Iran's leader, who is recklessly calling for Israel to be 
``wiped off the map'' and even questions the tragic events of the 
Holocaust.
    The discussions are still ongoing, but I am hopeful that the 
council will recognize the threat Iran's program poses to international 
peace and security and take appropriate action. We are doing a full 
court press, both in New York and in capitals around the world, to seek 
a diplomatic resolution to this matter, and we are confident that a 
strong resolution from the council will be instrumental in this regard.
North Korea
    Allow me to update you on where we stand on North Korea since they 
launched seven ballistic missiles, including a long-range Taepo-dong 2, 
in the vicinity of Japan. On July 15, the Security Council unanimously 
adopted Resolution 1695, which demands that North Korea suspend all 
activities related to its ballistic missile program, including a return 
to its moratorium on test launching. It also requires member states to 
cease all trade in goods and technology which might contribute to North 
Korea's missile or other WMD-related programs.
    The administration is very pleased the council was able to take 
such firm and decisive action. This resolution was the outcome of 11 
days of intensive negotiations, often lasting late into the night 
between the five permanent members of the council and Japan. Bear in 
mind, when North Korea launched a ballistic missile over Japan's 
airspace in 1998, the response of the council was a weak and feckless 
press statement. This time, however, we were able to bring along China 
and Russia to support a very strong resolution, even though they 
initially supported issuing yet another press statement. The outcome of 
our diplomatic efforts has been to send a clear, unambiguous, and 
unanimous signal to North Korea that their provocative behavior is 
unacceptable. The fact that both China and Russia supported a 
resolution, the first one on North Korea since 1993, cannot be lost on 
the North Korean leadership.
    As called for in Resolution 1695, North Korea remains very much on 
the council's agenda. This is particularly important in light of North 
Korea's rejection of the resolution some 45 minutes after its passing, 
where they also vowed to continue testing missiles. We believe that 
Resolution 1695 highlights the important role the Security Council can 
play to help buttress other diplomatic efforts, such as the Six-Party 
Talks. We call upon North Korea not only to return to Six-Party Talks, 
but to implement the joint statement it agreed to in September 2005. If 
North Korea chooses a different path, however, it should know that the 
Security Council stands ready and willing to consider further steps.
Sudan and Darfur
    Mr. Chairman, I know that the situation in Darfur is of particular 
interest to you. We continue to push hard to bring relief to the 
citizens of Darfur, Sudan where over 200,000 people have lost their 
lives and over 2 million have become displaced since 2003. This past 
May, the Government of Sudan and one of the rebel groups took a large 
step forward by signing the Darfur Peace Agreement (DPA). The DPA, if 
fully enacted, establishes critical security, wealth sharing, and 
power-sharing arrangements that address the long-standing 
marginalization of Darfur. We believe that the DPA, along with the 
deployment of a strong U.N. force, provides real hope and a way ahead 
for the people in Darfur.
    While we do see a way forward, significant challenges remain. We 
are working within the Security Council to craft a robust resolution 
under Chapter VII of the U.N. Charter that will afford any U.N. force 
the capability and the mandate to defend itself and the civilians in 
Darfur. Russia and China continue to voice opposition to a Chapter VII 
mandate. However, in May, the Security Council unanimously passed 
Resolution 1679, designed to facilitate planning for the future 
deployment of a U.N. peacekeeping operation in the Darfur region. We 
believe this to be a viable precedent for upcoming Darfur resolutions. 
There is also the issue of the Government of Sudan agreeing to a U.N. 
force in Darfur. Significant efforts are ongoing bilaterally and 
multilaterally to achieve this. While this plays out, we continue to do 
our part toward adopting a resolution, determining force requirements 
and identifying troop contributing countries so that we are fully 
prepared to go in and complete the mission.
    The U.N. Technical Assessment Mission has returned from Sudan and 
is finalizing its report to the Security Council, however preliminary 
indications are that Department of Peacekeeping Operations will 
recommend a U.N. force package in Darfur of approximately 15,000 to 
17,000 troops to be operational on or about January 1, 2007. We prefer 
to have a credible force there sooner than that and are concerned about 
the interim. Therefore, while we continue to do all we can to hasten 
the deployment of a new force, we are also working with our allies and 
the U.N. to provide support to the existing African Union force 
presently on the ground in Darfur, known as ``AMIS.'' AMIS has done all 
it can to keep order by patrolling an area nearly the size of Texas 
with about 7,000 troops, but they have reached the limits of their 
capabilities. So until we have a U.N. force on the ground, we are 
working with our NATO allies to support AMIS with immediate assistance 
in the form of planning, logistics, intelligence support, and other 
help.
    As President Bush has said, ``America will not turn away from this 
tragedy. We will call genocide by its rightful name, and we will stand 
up for the innocent until the peace of Darfur is secured.'' We are 
working tirelessly in New York to bring this to fruition.
Burma
    Despite some initial reluctance on the part of some council 
members, the United States has led the drive to make certain that the 
issue of Burma does not fade from the council's attention. We are still 
discussing with other members the best way for the council to address 
the deteriorating situation in Burma, and how best to secure the 
release of Aung San Suu Kyi. Her imprisonment remains a stain on the 
current leadership. We will be working closely with our colleagues in 
the Security Council to find a way to back up Under Secretary General 
Gambari's efforts to obtain the release of political detainees, 
including Aung San Suu Kyi. And, we intend to promote an inclusive and 
genuine political dialog in Burma that empowers Burma's people to 
decide their own future.
 reforming the united nations: a status report and plan for the future
Increasing transparency: An important first step
    Mr. Chairman, it has been close to 1 year since the World Summit 
Outcome Document was signed by some 150 world leaders last September in 
New York on the 60th anniversary meeting of the U.N.'s General 
Assembly. The assessment I gave you 2 months ago, broadly speaking, 
remains valid today. Some modest progress has been achieved since the 
World Summit, including establishing a much-needed U.N. Ethics Office; 
strengthening financial disclosure requirements for U.N. staff members; 
protecting U.N. personnel from retaliation for reporting misconduct; 
and providing needed resources for oversight.
    While these reforms are important steps in the right direction, we 
had hoped for more. It was with this in mind that that the United 
States supported the approval of only a 6-month interim budget last 
December. That was the right decision to focus the attention of member 
states not only on how badly needed are reforms, but on the seriousness 
of purpose with which we approach the subject. Now that the cap has 
been lifted, we will continue to work with other member states and the 
secretariat to achieve our mutually shared objectives.
    The goal now is to identify priority target areas where progress 
can be made and take the necessary steps to demonstrate that the U.N. 
and its member states are fully engaged in launching what Secretary of 
State Rice has termed a ``lasting revolution of reform''--one that will 
transform the United Nations into an institution fully capable of 
addressing the complex array of challenges now confronting the global 
community. To this end, the United States recently joined consensus on 
the adoption of several reforms related to information and 
communication technology; budget implementation; financial management 
practices; and improved reporting mechanisms, including increased 
public access to U.N. records. The key now, of course, is to seek 
effective implementation.
    These issues all speak to our attempts to change the ``culture of 
inaction'' described by Paul Volcker before this very committee when 
discussing the Oil-for-Food scandal. To change this culture, we are 
working to increase the transparency and accountability of the U.N., 
not just to shine a light on the agencies or bodies which may be in 
need of reform, but to allow those that do work effectively to better 
advertise and market their expertise in ways that might serve as a 
model for others.
    While the steps mentioned above take us in the right direction, 
implementation remains a key priority. Last month I had the opportunity 
to meet with the leaders of the U.N. Staff Union. They expressed some 
concern that while the reforms enacted to date are a step in the right 
direction, they do not go far enough, for example, to protect U.N. 
staffers who actually do ``blow the whistle'' on undesirable U.N. 
activities. We are working now to help ensure that these reforms are 
not only enacted, but implemented as well. Interestingly, the Union 
also raised the issue of transparency--an issue that we have stressed 
as well on a wide-range of subjects. We concur with the U.N. Staff 
Union that an open and transparent decision making process is integral 
to the success of management reform, regardless of the specific reforms 
adopted.
    The last point about public access is part of an innovative new 
approach to increasing accountability and transparency at the United 
Nations, something we think will benefit everyone. Under the auspices 
of a new program called ``The Transparency Initiative,'' the U.S. 
mission at the United Nations is making reports published by the Office 
of Internal Oversight Services (OIOS) available to the public via our 
Web site.
    We believe making OIOS reports more readily available will 
strengthen the hand of OIOS within the U.N. system. You may recall that 
last May before this very committee, I raised concerns about OIOS 
independence and autonomy, citing a report issued by the U.S. 
Government Accountability Office. Their conclusions supported our own 
determination that OIOS is potentially beholden to those it is 
responsible for investigating, thereby creating an inherent conflict of 
interest. This situation is untenable and only abets those who may seek 
to defraud or abuse the system. But this is all the more reason to open 
up OIOS reports to public scrutiny. OIOS can serve as a valuable tool 
for member states to take action or push through reforms that are 
sorely needed. To this end, we will also push hard to make sure that 
the Independent Audit Advisory Committee is fully established to 
validate OIOS' working methods and ensure OIOS' operational 
independence from the U.N. Secretariat.
    Fostering awareness of the strengths and weaknesses of various U.N. 
agencies is a necessary and critical, though we acknowledge not solely 
sufficient, first step to deepening the reform process currently 
underway. If confirmed, I pledge to continue working on this important 
issue.
Management reform
    In terms of specific reform issues, let me begin with the one that 
remains a priority for this administration--management reform. Frankly, 
Mr. Chairman, we must acknowledge some difficulties ahead--difficulties 
which, if confirmed, I would continue to work to overcome. Since I last 
spoke to you, we have continued to see sharply divided positions 
emerging on some key issues. Many members of the Group of 77, or G-77 
as it is known, are resisting efforts by the secretariat to reform and 
streamline basic managerial structures and practices. Bear in mind, the 
reforms they are now blocking were not put forward by member states, 
but by the Secretary-General himself. It bears repeating my earlier 
citation of the report issued by Secretary-General Kofi Annan from last 
March, where he noted, ``The earlier reforms addressed the symptoms, 
more than the causes, of our shortcomings. It is now time to reach for 
deeper, more fundamental change. What is needed, and what we now have a 
precious opportunity to undertake, is a radical overhaul of the entire 
secretariat--its rules, its structure, its systems--to bring it more in 
line with today's realities, and enable it to perform the new kinds of 
operations that member states now ask and expect of it. . . . Such a 
radically expanded range of activities calls for a radical overhaul of 
the United Nations Secretariat--its rules, structure, systems and 
culture. Up to now, that has not happened.''
    This remarkably frank assessment included a number of specific 
proposals to reform the U.N. system to increase efficiency. Recently, 
the Fifth Committee, which is the member state body in the U.N. system 
that handles budgetary and management-related issues, voted against 
many measures that would have increased the ability of the secretariat 
to implement a number of significant and genuine reforms. To be sure, 
we did not agree with every single reform proposed by the Secretary-
General, but we certainly agree with his diagnosis of the problem and 
support his efforts.
    What was particularly interesting about the recent Fifth Committee 
vote on some of the Secretary-General's proposed reforms was the way 
the vote split. On one side was a group of 50 nations, including the 
United States, who were pushing an ambitious reform agenda, whose 
combined contributions totaled 86.7 percent of the U.N. budget. On the 
other side were over 120 nations who contributed 12 percent of the 
budget and chose to block these reforms. Clearly there is work that 
needs to be done to bridge this divide.
    Despite that vote, there has been some recent progress, including 
adoption of international accounting standards and the creation of a 
Chief Technology Officer for the U.N. We must acknowledge, though, it 
will be an uphill battle, with a majority of member states expressing 
their opposition to some of the most basic and important management 
reform measures, such as giving the Secretary-General more discretion 
on budget and personnel matters.
    It has become apparent that some members of the General Assembly 
are trying to hinder the Secretary-General from serving in his Charter 
capacity as the Chief Administrative Officer of the U.N. due to their 
desire not to cede any authority from the General Assembly. We agree 
that the member states should have the bulk of the authority, but 
believe that the Fifth Committee's micromanagement hampers the 
secretariat from effectively achieving goals of member states. And when 
the G-77 calls for an ``accountable'' secretariat, we hope its members 
will be more concerned about ethics, oversight, and transparency, than 
with preserving micromanagerial prerogatives over personnel and other 
administrative matters.
Mandate review
    The review of program mandates adopted by either the General 
Assembly or the Security Council is another area where we are working 
closely with other like-
minded nations to push ahead our reform agenda. We must acknowledge, 
though, our concern about the lack of progress to date in mandate 
review and express our hope that we can now begin to make more 
sustained progress on this vital task, consistent with decisions of our 
leaders and the Outcome Document.
    We have been hard at work in this regard. Since the establishment 
of the General Assembly Informal Plenary on Mandate Review at the end 
of last year there have been some 20 meetings of the plenary, including 
12 previous informal consultations. During these meetings, member 
states tabled some 100 proposals, 40 of which were tabled by the United 
States. In addition, the cochairs also circulated a paper prepared by 
the secretariat, at the request of the member states, identifying a 
significant number of other proposals relating to the consolidation or 
reduction of reports.
    Unfortunately, we are still bogged down in the ``process'' of how 
to review the mandates as opposed to conducting the actual review of 
live, substantive mandates. There has been a refusal by some states 
since the signing of the Outcome Document to consider a review of 
mandates 5 years and older which had been renewed unless certain 
conditions were met. This effectively eliminates 96 percent of the 
total existing mandates and is inconsistent with both the spirit and 
clear decision by leaders who signed the World Summit Outcome Document 
last September. We are not giving up, however, and still hope that we 
can move forward to complete our review by the end of this year 
provided in the Outcome Document.
Human Rights Council
    Mr. Chairman, allow me briefly to update you on where we stand with 
regard to the new Human Rights Council. We are still in the position of 
evaluating the first special session convened with the new council, 
which recently wrapped up in Geneva. As you know, the United States did 
not vote for this body this past spring because in our view it did not 
go far enough to differentiate itself from its widely discredited 
predecessor.
    While we have not yet made a decision on whether or not to run for 
next year's council, it gives us considerable pause for concern that 
this newly reformed body managed to adopt only one country-specific 
resolution against one of the U.N.'s 192 members--Israel. That they had 
to call a special session to do so is even more disturbing. This is, of 
course, highly disappointing given the abuses being carried out in 
countries such as North Korea, Burma, Iran, and the Sudan to name a 
few. That this newly formed body would launch their work through this 
kind of selective adoption of resolutions can only undermine the 
council's credibility to address human rights violations.
    As I noted last May, though, despite our disappointment that the 
new council is too similar to the old commission, the United States 
will continue to work with democratic delegations through our team in 
Geneva, which will still attend its meetings to advance our goals. My 
colleague, Ambassador Tichenor, has worked energetically to promote 
U.S. interests and values there and will continue to do so.
                    humanitarian issues development
    Mr. Chairman, some of the most important issues on which the United 
Nations focuses do not often make headlines, but remain vitally 
important. The United States has consistently made clear that we feel 
there is an important and integral link between democracy and 
development. President Bush, since his inaugural address, has declared 
that America will stand with those who stand up for their own freedom. 
This was the reason he launched the U.N. Democracy Fund. We are pleased 
that the fund has grown to $49 million, with close to $18 million being 
provided by the United States. As the President noted, ``the advance of 
liberty is the path to both a safer and better world.''
    We are also working to achieve greater economic openness and 
liberalization in trade and investment flows so that all may share 
fully in growing global prosperity. To help those most in need, we have 
almost tripled Official Development Assistance since 2000, to $27.5 
billion last year. We are pleased that after months of intense 
negotiations, the U.N. General Assembly passed a resolution on 
development that emphasizes not only the rights of countries, but their 
responsibilities as well.
    Of course, we all recognize that for the poor in developing 
countries, the greatest need is not development assistance: it is a 
job--meaningful, productive employment, ``decent work.'' It is the 
experience of the United States that job creation cannot be separated 
from economic growth and enhanced productivity. Other countries will 
face different challenges, but fostering an environment that promotes 
entrepreneurship and provides legal protection and regulatory stability 
for the private sector is a necessary if not sufficient condition for 
success.
    The United States is working to help nations through the U.S. 
Millennium Challenge Corporation, which allocates its assistance based 
on criteria such as rule of law, investment in health and education, 
and economic freedom. The United States also believes that job creation 
must go hand-in-hand with respect for fundamental principles and rights 
at work, namely, freedom of association and the effective recognition 
of the right to bargain collectively, the elimination of all forms of 
forced or compulsory labor, the effective abolition of child labor, and 
the elimination of discrimination in respect to employment and 
occupation. The United States supports the International Labor 
Organization's (ILO) Decent Work Country Programs as a valuable 
contribution to broader development frameworks.
    There are some types of employment we don't support, such as 
exploitative child labor and forced labor. Children need to be in 
school mastering the skills and knowledge they will need to be the 
workforce of the future. That is why the United States has contributed 
more than $295 million to the ILO since 1995 to fight the worst forms 
of child labor.
HIV/AIDS
    Mr. Chairman, last month the United Nations convened its special 
sessions on HIV/AIDS. We were honored to have the U.S. delegation 
headed by First Lady Laura Bush, who outlined the steps the United 
States is taking to combat the scourge of HIV/AIDS. She was able to 
confirm that the President's Emergency Plan for AIDS Relief (PEPFAR) is 
on track. This remarkable plan is a 5-year, $15 billion initiative to 
combat AIDS in 120 countries around the world.
    The Emergency Plan works in partnership with the hardest-hit 
countries--and that partnership is saving lives. When President Bush 
announced PEPFAR at the beginning of 2003, only 50,000 people in sub-
Saharan Africa were thought to be receiving antiretroviral treatment. 
Now, in PEPFAR's 15 focus nations, the United States has helped provide 
treatment for more than 560,000 people. Even more are being reached 
through America's contributions to the Global Fund, demonstrating the 
variety of venues and forums the United States is working through to 
help vulnerable populations. This direct medical care keeps people in 
good health. It also focuses on education, not only in terms of 
prevention, but in how to cope with the infection if you are living--I 
emphasize living--with HIV/AIDS. That emphasis is necessary because now 
millions are learning to live with HIV/AIDS--instead of waiting to die 
from it.
    While much work, of course, remains to be done, there are some rays 
of hope where we can point to models of success. In parts of sub-
Saharan Africa, new data show Africa's ABC model of AIDS prevention has 
led to dramatic declines in HIV-infection rates in young men and women. 
Pregnant mothers with HIV are now being taught that their unborn 
children do not have to inherit their disease.
    The challenge ahead is to see that more people know how HIV is 
transmitted--and every country has an obligation to educate its 
citizens. As the First Lady so eloquently noted, ``This is why every 
country must also improve literacy, especially for women and girls, so 
they can learn to make wise choices that will keep them healthy and 
safe.''
                               conclusion
    Mr. Chairman, it has been almost exactly 1 year that I have had the 
privilege and honor to serve as the Permanent Representative of the 
United States to the United Nations. I have had the opportunity to hold 
direct discussions with almost every Permanent Representative from 
other member states at the U.N. on a one-on-one basis. During this 
period, I have done my best to work with others to advance our national 
interests. I do believe important advances have been made. In cases 
where we would have liked to have seen further progress, we now have 
greater clarity on the differences that we all must still work together 
to resolve.
    Whether through the remaining tenure of my appointment or longer if 
confirmed, I pledge to continue working with this committee. Your work 
on has been instrumental in helping us achieve our objectives in New 
York. Both the U.N. Secretariat and delegations of other member states 
have a much greater appreciation of the importance the Congress--
mirroring the American people--attach to the subject of U.N. reform. As 
the U.N.'s largest financial contributor, totaling some 22 percent of 
the regular assessed budget, the United States has a vital stake in 
ensuring that the U.N. succeeds. On issues before the Security Council, 
I can not emphasize enough the positive and constructive role members 
of this committee have played in helping us to advance important goals, 
whether in Iran, the Sudan, or in other troubled regions of the world.
    I thank you for you consideration and am happy to answer any 
questions you or your colleagues may have.

    The Chairman. Thank you very much, Ambassador Bolton.
    We'll begin our round of questions with 10 minutes for each 
member, and I'll begin the questioning.
    I want to mention that a----
    The committee will be in order. The committee will be in 
order. The committee will stand in recess until police can 
restore order.
    [Recess.]
    The Chairman. The committee will continue the hearing.
    Let me just mention that Assistant Secretary for 
International Organizations, Kristen Silverberg, is with us 
today, and I wanted to acknowledge her presence. We appreciate 
that.
    I want to take a few moments of my time to read the letter 
that former Secretary of State Henry Kissinger has written on 
behalf of the nominee. He said, ``Mr. Chairman, when John 
Bolton's nomination for the position of Ambassador to the 
United Nations was before the committee, I wrote a letter, 
together with a number of other former Secretaries of State, 
urging confirmation. I did so, because I believe that the 
President should be given wide discretion in selecting his 
advisors. Since then, I've had the opportunity to observe 
Ambassador Bolton perform his duties under a recess appointment 
skillfully and with dedication. He has had to deal with a wide 
range of issues, from Darfur to the recent resolution 
concerning North Korea's missile tests. He has handled these 
assignments effectively and with great articulateness. I've 
observed him at a number of official functions. This enabled me 
to note that his relationship with his colleagues has been 
professional and mutually respectful. It would be unfortunate 
if he were to be prevented from continuing these tasks, 
especially as a new General Assembly is about to begin and a 
number of crises, such as the Middle East crisis and the 
Iranian nuclear weapons crisis, are on the verge of coming 
before the United Nations. For these reasons, I respectfully 
urge the committee to deal favorably with the President's 
recommendation to confirm John Bolton.'' And signed, ``Warm 
regards, Henry Kissinger.''
    The committee will be in order. The committee will be in 
order.
    The committee will stand in recess until police can restore 
order.
    [Recess.]
    The Chairman. The committee will resume the hearing.
    Ambassador Bolton, in your written testimony, you note that 
in 1998, when North Korea conducted a missile launch over 
Japan's airspace, the Security Council issued what you called a 
``weak and feckless press statement.'' Now, following North 
Korea's most recent provocative missile launches, the Council 
was able to work together to adopt a resolution, No. 1695, 
which condemns North Korea, calls upon it to stop all tests. 
How significant is this resolution? And what can you tell us 
about Russian and Chinese cooperation on the matter, and how 
you obtained that?
    Ambassador Bolton. Mr. Chairman, I think this is a 
significant resolution, the first since 1993 to deal with North 
Korea. And when we started discussions in the Security Council, 
on July 5, the first business day after the launches, it was 
the initial position of Russia and China that they wanted to 
deal with this, again, with a press statement. And as I know 
you know, and the committee knows, in the hierarchy of things 
that the Security Council can do, the lowest is a press 
statement; intermediate is what we call a presidential 
statement that the president of the Council reads, reflecting 
the views of the Council members; and then the most important, 
of course, is a resolution of the Security Council.
    During the course of the discussions, I think we and many 
other members of the Council made it plain that circumstances 
of these missile launches put us in a very different position, 
that we wanted a strong and binding resolution. So, the 
Russians and the Chinese moved away from the press statement 
idea and agreed that they could consider a presidential 
statement. Nonetheless, we persevered, because we thought it 
was important that North Korea know unequivocally how isolated 
it was internationally. We continued to work in these 
negotiations with other members of the Council and concerned 
governments in the region. And ultimately, on July 15, we did 
get a unanimous Security Council resolution that, in our 
judgment, is fully binding on North Korea. It demands--that's 
the word the Council used--demands that North Korea suspend all 
activity relating to its ballistic missile program, and it 
requires--that's the word the Council uses--requires member 
governments not to trade with, to supply to, or to procure from 
any of North Korea's weapons of mass destruction programs any 
materials that could be useful to them.
    I think that this is a strong signal to the North Koreans. 
We have been hoping and working to try and get them back into 
the Six-Party Talks. Secretary Rice is in Kuala Lumpur now, 
also trying to advance that region in meetings that she's 
holding, and we'll know better, I think, after those 
discussions, what the next step will be.
    The Chairman. Well, I thank you for that comment. I think 
it was a significant statement, and one which, obviously, as 
you've reflected, I think, modestly in your statement, has had 
an impact upon North Koreans. Now, how things will progress, we 
shall see. But, in terms of the United Nations aspect of this, 
why, this clearly was progress over anything we have seen with 
regard to the North Korean problem.
    And I would just reflect anecdotally, because I know that 
Senator Coleman and Senator Voinovich and I want to acknowledge 
our appreciation to you for your having us at the United 
Nations in February, the month that the United States presided 
over the Security Council. I was honored, because you asked me 
to speak to the Council, and even more honored that the Council 
was all there. And I think that is in respect for you, as the 
president of the Council, and in respect for our country and 
for your coordination with that group. It was a pretty large 
audience for the Security Council. And then you made it 
possible for us to see the leaders of the so-called Group of 
77, the people handling the business arrangements, which are 
very infinitely complex for the U.N., vis-a-vis New York and 
the real estate and all the nitty-gritty which is behind the 
scenes. It is a part of your responsibility, as our Ambassador 
to the U.N., but, likewise, as an American citizen working with 
people in New York.
    And so, I mention all of these situations, because we have 
had at least some eyewitness experience in working with you 
there.
    Now, let me ask about Iran for a moment. Iran's influence 
in the Middle East and the support for Hezbollah is 
unquestionable, as we have seen in recent days. Its use of 
Syria as a conduit and puppet master for Hamas is also not in 
doubt. Yet we're hearing that Iran's neighbors and fellow 
Muslim states are growing nervous with each Iranian attempt to 
strengthen its role in the region through Hezbollah or through 
whatever means. How are such concerns playing out, in your 
judgment, at the United Nations as you take a look at the 
membership of the Security Council that may be called upon to 
take action in regard to Iran?
    Ambassador Bolton. I think, Mr. Chairman, as I mentioned in 
my statement, the Arab League meeting, about 10 days ago, 
issued a very important statement on the activity of Hezbollah 
and the aggression that it conducted against the civilians in 
Israel. And there is, I think, larger and larger understanding 
of the fact that Hezbollah really is a surrogate for Iran, due 
to its financing of perhaps up to $100 million a year or more, 
and that the notion that Iran and this extensive terrorist 
network it supports, together with its activity designed to 
acquire nuclear weapons capability, in our judgment, and to 
increase the range and accuracy of its ballistic missile force, 
shows that Iran is a growing threat in the region. And this 
plays out in various complex ways, but I think it has helped 
us, in a number of respects, as we have considered how to deal 
with Hamas and the occupied territories, and Hezbollah, how to 
deal with the implementation of not only Resolution 1559, which 
calls for the removal of all external influence from Lebanon, 
from the arming of the Lebanese and non-Lebanese militias to 
trying to extend the control of the democratic Government of 
Lebanon over the entire territory, to implementation of 
Resolution 1595, investigating the assassination of former 
Lebanese Prime Minister Rafik Hariri, that many of these things 
are tied together, that the growing closeness of Syria and Iran 
is a problem for the region, the coordination that those two 
governments have in their support for Hezbollah and Hamas, is a 
problem that goes much more broadly than a problem in the 
context of the Arab/Israeli concern.
    The Chairman. You've touched upon the U.N. reform efforts 
in which you have been heavily involved and on which you've 
spoken frequently. Where is the reform business likely to go, 
at this point? And what sort of timetable can you envision for 
at least another significant or substantive debate to occur on 
reform issues?
    Ambassador Bolton. We're expecting the--what we call the 
``mandate review'' that was required by the outcome document of 
last September--last September's summit, adopted by over 150 
heads of government, to continue this fall. There's a very 
significant amount of work that needs to be done. The work that 
has been done so far has not brought us very far. Despite many, 
many meetings, there's not been one single mandate out of 9,000 
mandates identified by the Secretariat that have been imposed 
on the Secretariat over the years. Of these 9,000 mandates, not 
one has been eliminated, not one has been consolidated. We've 
run into considerable obstacles. But this is a high priority 
for us, for a number of other countries, the group we call 
JUSCANZ--not probably the best name for it, but it's Japan, 
United States, South Korea, Canada, Australia, New Zealand, 
which, if you string all that out, gives you the acronym 
JUSCANZ--European Union and other countries. But it's been slow 
going, and I think it's a measure of that culture of inaction 
that former Fed Chairman Paul Volcker spoke about. But we're 
continuing to press it. We will, through the remainder of this 
year.
    The Chairman. Just having visited with the Group of 77 
leaders, as I've mentioned--during our visit in February--it 
appears that at stake here for many nations, maybe as many as 
100 nations, is the fact that they contribute very, very small 
amounts of money, in terms of dues, to the U.N. But the current 
organization offers what we would call, in local politics, 
patronage--that is, jobs. At least there was an attempt made, I 
suppose, to apportion these jobs around broadly. Likewise, 
these mandates, they're much like congressionally mandated 
reports that go on and on forever. And someone at the State 
Department keeps churning out hours and hours each year, 
because we can't quite ever bring it to an end. But in the case 
of 9,000 of these, this, to say the least, encumbers, 
considerably, the bureaucracy, efficient or inefficient as it 
may be. Now, this is a monumental task. I'm wondering, is the 
task not perceived in the same way by some other nations, in 
addition to the United States? In other words, is there 
tolerance, really, for this kind of gross manipulation of the 
system to continue forever, or is that the price of having, oh, 
150-plus nations aboard?
    Ambassador Bolton. Well, I hope it's not the price. And I 
think this brings us to the question we're going to have to 
continue to pursue, given the disjunction between voting power 
in the General Assembly and contributions. I think when I 
testified a couple of months ago, I recounted the vote that we 
had first in the General Assembly's Fifth Committee, and then 
in the General Assembly itself, in connection with a package of 
reforms suggested by the Secretary General. These were reforms 
coming out of a report he submitted, called ``Investing in the 
United Nations.'' We didn't support each and every one of the 
reforms, but we did support the thrust of them. The Secretary 
General said, in his words, that what we needed was a ``radical 
restructuring of the entire Secretariat.'' And some of the key 
elements of the Secretary General's reforms, many of which we 
considered to be first steps--important, but first steps--were 
put to a vote, and, overwhelmingly, the G-77 outvoted the major 
contributors. The vote, I think, was in the Fifth Committee of 
the General Assembly, about 122 to 50. The 120-plus countries 
that voted against the Secretary General's reforms contributed 
something like 12 percent of the total assessed budget. The 50 
countries, which included the United States, which voted in 
favor of the reforms contributed 87 percent of the budget. So, 
that was a--that was a pretty significant indication of the 
opposition to the reform agenda.
    The Chairman. I thank you very much, Ambassador.
    I want to recognize, now, the distinguished ranking member, 
Senator Biden. And let me just mention, Joe, I recognized 
Senator Dodd to make his statement.
    Senator Biden. I will----
    The Chairman. But, nevertheless, I don't want, in any way, 
to inhibit your participation. If you want to proceed with your 
statement, please do so, and then with the question period.
    Senator Biden. I understand--I read Senator Dodd's 
statement. I happen to agree with it. And my statement's not 
substantially different, so I'll not take the time to do that, 
but I thank you.
    And, by way of explanation to my colleagues and to the 
Ambassador, I was at the signing of the Voting Rights Act. It's 
been the only constant in my entire political career. That's 
what got me involved in politics. And, quite frankly, I didn't 
see how I couldn't be there. And I apologize for the tardiness.
    My concerns continue to relate to substance and not so much 
style, Mr. Ambassador. One of your predecessors, Mr. Holbrooke, 
was no wallflower at the United Nations, but he was very 
effective. He pulled off what seemed at the time a fairly near 
impossible feat, and that is, while we were in arrears about a 
billion dollars, he got a reduction in dues for the United 
States, and helped settle that. And my overriding concern that 
will overlay the questions I have relate to my continued 
conviction that you--and I must admit, your boss, the President 
and the Vice president, I don't think they, in this, quote, 
``Year of Diplomacy,'' really think diplomacy is all that 
consequential. My concern is that, at the moment of the 
greatest need for diplomacy in our recent history, we are not 
particularly effective at it. And it seems to me that there is 
a fundamental--I was going to say lack of understanding 
that's--that would be presumptuous--fundamental disagreement on 
the role and necessity of diplomacy. I thought there was a 
great line that Tom Friedman had in one of his articles. I 
think it was the end of last week in the Times. He said, ``We 
must understand that American power is most effective when it's 
legitimated by global consensus and embedded in global 
coalitions.'' And so, I'd like to pursue my questions in the 
spirit of whether or not the value that you place in 
diplomacy--you're going to be--you're playing in the biggest 
diplomatic field we have; maybe not the single most important, 
but you're a major, major player in this--in diplomacy. And 
sometimes it seems to me that what you say and do are at odds 
with even what the Secretary is saying. Let me speak to that, 
quickly.
    In the Financial Times last month in London, you gave an 
interview, and it was asserted in the Times that you stated 
that, quote, ``I'm not much of a carrots man.'' You went on to 
say, ``It would be a mistake to think these negotiations,'' 
referring to Iran, ``are the first step toward some kind of 
grand bargain.'' You went on to say, ``Our experience has been, 
when there's dramatic change in the life of the country, that's 
the most likely point at which they'd give up nuclear 
weapons.'' Just 10 days earlier, the Secretary of State 
announced that the United States was going to encourage Iran to 
take a positive path, and benefits of this path would go beyond 
civil nuclear energy and can include progressively greater 
economic cooperation.
    And so, my question is, did your statements--were they 
cleared by the White House, your comments about negotiations 
with Iran? Or were they as much of interest to the White House 
as they were to me?
    Ambassador Bolton. I think they were consistent with our 
policy. I might say, I had--that was at a breakfast I had with 
three reporters. And if you read the stories written by the 
other two reporters, you'll see, I think, a somewhat different 
take on the context in which those comments were made. What I 
said was, in the context of the grand bargain, exactly what 
Secretary Rice has been saying, and I said, we were offering--
we were making the offer that Javier Solana presented to the 
Iranian negotiator on June 6, and that they had two roads ahead 
of them, the Iranians did. One would be to accept this very, 
very generous offer, in which case they could find themselves 
in an entirely different relationship with the United States, 
or they could reject that offer, in which case they would find 
themselves increasingly on the road to international isolation. 
And you can see, based on the recent meeting in Paris--again, 
between Solana and Larijani--but the Iranians have simply 
declined to give a clear answer. Despite every effort at 
persuasion that our European allies were able to make with 
them, that led to a meeting of the foreign ministers of the 
five permanent members of the Security Council and Germany in 
Paris the next day, recognizing that, in substance, Iran had 
rejected the offer and authorizing us, in the Security Council, 
to go forward with the resolution I discussed in my statement, 
that would require Iran to suspend all of its uranium 
enrichment and plutonium reprocessing activity. That's the 
pattern that Iran has followed for over 3 years now, of 
purporting to enter into negotiations, and then rejecting them. 
And, you know, there was a very telling comment made by Hassan 
Rohani, the former chief negotiator for Iran in the nuclear 
field. He said--and this was reported, I guess, about 3 months 
ago now, that Iran had used the cover of its negotiations--his 
word--the cover of the negotiations with the EU-3 to perfect 
their uranium conversion technology at their Isfahan plant, and 
that that's why the--Secretary Rice and the other foreign 
minister, in effect, said that they weren't going to allow the 
Iranians to extend this discussion forever, that they wanted an 
answer in weeks, not months. And when the answer came back as a 
nonanswer, we were authorized to proceed in the Security 
Council.
    Senator Biden. Did we make a mistake joining the three 
European countries in pursuing these negotiations?
    Ambassador Bolton. No, this was a decision, clearly 
designed to eliminate tactical differences that had existed 
between us and the Europeans, that Secretary Rice authorized 
right at the beginning of her tenure as Secretary of State, and 
it was intended, by closing those tactical differences, in 
particular, to bring about their support, if required, for 
action in the Security Council. And that judgment has proven 
correct.
    Senator Biden. So, you think that their support is 
necessary for us to be able to effectively respond to Iran's 
intransigence.
    Ambassador Bolton. Well, I think that's what's proven to be 
the case. And I think we've seen, in the negotiations on the 
resolution, which I regret to say we have not yet concluded, 
that we have stuck very close with what we call the EU-3--
Germany, France, and Britain.
    Senator Biden. But I guess my point is, do you think 
sticking close to the EU-3 so we are not divided, we are not 
the odd man out--do you think that is an important diplomatic 
objective?
    Ambassador Bolton. I think it always has been. And I think, 
as I mentioned earlier, we had tactical differences with the 
EU-3 previously. There were never any strategic divisions among 
us on the overall objective of preventing Iran from getting a 
nuclear weapons capability. There had been differences as to 
how to achieve that, that's correct, and I think Secretary 
Rice, over a year and a half ago now, moved to bridge those 
tactical differences, and has succeeded.
    Senator Biden. How important is it, on many of the things 
that are on your plate now that are going to get--I think the 
plate's going to get more full--how important is it that 
particularly our European allies and the United States are on 
the same page? Is it----
    Ambassador Bolton. Well, I think it can----
    Senator Biden [continuing]. Consequential?
    Ambassador Bolton [continuing]. I think it can be very 
important, and something we work hard to achieve. In the 
context, for example, of Lebanon, in 1559, we've worked not 
only generally closely with our European allies, but 
particularly closely with France, where we have, I think, 
accomplished a number of things in the Security Council, not 
just on 1559, but 1595, as well, that have put pressure on the 
Government of Syria to fully withdraw from Lebanon, not just 
its military forces, but its intelligence services, as well, 
put pressure on Syria to truly recognize that Lebanon is an 
independent state, to exchange ambassadors, and to move to 
demarcate the border and take other steps. These are part of 
the assignments that I have on a daily basis in New York.
    Senator Biden. Well, one of those assignments was 1559. You 
didn't negotiate it, but you inherited it. And during your 
tenure heading up the Council, what steps did you take to put 
on the agenda the two parts of 1559 that seemed to be totally 
ignored? That is, the disbanding and disarmament of all 
Lebanese and non-Lebanese militias and the extension of the 
Lebanese army into the region along the border. Did you put 
those up on the agenda?
    Ambassador Bolton. Yeah, there were, I think, at least two 
presidential statements by the Council, one of which actually, 
for the first time, mentioned Hezbollah by name as one of the 
militias that was being supported by Syria and by Iran, and 
also the adoption of a resolution that called on Syria to fully 
exchange--to exchange full diplomatic missions with the 
Government of Lebanon and, as I said, to demarcate the border. 
These were several of the things we've done to carry through. 
Now, a lot of what we need to do is done not just in the 
Security Council. I wouldn't pretend that that's the only forum 
for applying pressure to Syria and Iran, or for mobilizing 
support to--in--to help the democratic government----
    Senator Biden. But they didn't call for disarming of 
Hezbollah. They didn't--and I may be mistaken. My understanding 
is, they did not call for actual implementation of the second 
two critical pieces of 1559. I mean----
    Ambassador Bolton. Well, I think in each case, we 
reaffirmed 1559, and that's part of pressuring Syria, I think, 
in connection with 1595 on the Hariri assassination, as well, 
to continue the diplomatic efforts that we're able to do. 
There's no U.N. force that's going to make Syria do any of 
those things.
    Senator Biden. No, but there is the ability, if we had, 
let's say--a year ago--let's say we had pushed and worked 
closely with the permanent five on the Security Council to 
bring in a force to help--an international force like we're 
trying to do right now. I mean, what we're doing right now is 
what 1559 was supposed to do. 1559 was supposed to have three 
parts--one, when the Syrian army left, everyone--you, I, all of 
us knew that there would be a serious vacuum created. That's 
why the next two pieces were critical. We knew that vacuum 
would be filled by Hezbollah if someone didn't move in. We knew 
the Lebanese army didn't have the capability to move in, and we 
didn't do a thing. We just sat around with our thumb in our ear 
like we thought something was going to happen, other than a--
this vacuum being filled by Hezbollah.
    My question is, was there any action taken to generate the 
same kind of consensus and support for bringing in what you're 
trying to do right now? We're trying to get a consensus to 
bring in an international force that can shoot straight, that 
can sit along the Israeli border. And, I assume part of what 
we're doing--I hope the heck we're doing--is coming up with 
initiatives as to how we are going to help, either through the 
French, through NATO, or through other means, to train up a 
Lebanese army that can actually ultimately supplant that force. 
So, you've got Israelis there; we want Israelis out. The 
Israelis want out. There's going to have to be an international 
force in its place. And there's going to have to be a Lebanese 
army in the place of that. What has been done along any of 
those three lines, which are being done now, the last year?
    Ambassador Bolton. Well, I think much of the work that has 
to be done to strengthen Lebanese institutions is being done on 
a bilateral basis directly between the United States and 
Lebanon, between the European Union and Lebanon, in order that 
a variety of components of the Lebanese Government will be 
stronger. I think, for example, we've done a significant 
amount, both in New York and bilaterally, to strengthen 
institutions of the Lebanese justice system, which are very 
important in extending authority, but it was--there are a 
variety of things that were done in New York specifically at 
the suggestion of the Lebanese Government that were 
communicated to us and France and others, that we followed 
through on, that I do think have had a significant impact.
    Senator Biden. Well, maybe we can come back to that. I'm 
over my time. I just was suggesting--I don't want to hold you 
accountable for the administration's non-U.N.-related 
activities. My understanding is--and we checked--is that, for 
example, the Iranians put five times as much money into Lebanon 
as we did during this period. I saw precious little action 
taken in any concerted way to deal with their judicial system. 
But I'll come back to that later.
    But I thank you very much for your time, and I apologize 
for going on.
    The Chairman. Thank you, Senator Biden.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. Welcome, 
Ambassador.
    As you said, we have a crisis and tragedy unfolding in the 
Middle East. And, without a doubt, this is an extremely 
important area in the world--energy-rich, all the religious 
areas that are important. And in addressing that, you said 
that, ``We are actively engaged, in New York, in identifying 
lasting solutions to bring about a permanent peace in the 
Middle East. To do so, however, requires that we have a shared 
understanding of the problem. The United States has a firm view 
that the root cause of the problem is terrorism. And this 
terrorism is solely and directly responsible for the situation 
we find ourselves in today.''
    You're a brilliant man. That statement doesn't make any 
sense. Terrorism is a device. There's got to be something 
deeper for the root cause. Can you go a little deeper?
    Ambassador Bolton. Well, I think the statement really 
refers to the conflict in Lebanon now. I think the real root 
cause is the absence of a fundamental basis for peace in the 
region. And I think that that--that striving to get to that 
point is the objective of our diplomacy now--not to simply 
acquiesce in a return to the status quo ante, but to see if 
there's not a way to turn the hostilities that are now going 
into shifting the basis on which we really deal in the region. 
And that's why we have resisted calls for an immediate cease-
fire, which has the risk of simply returning to the status quo 
ante.
    Nobody is under any illusions about the complexity of the 
problem, but I think that we need to use the current 
circumstance as a fulcrum to try and move toward a longer-term 
solution. And that does require, I think, addressing very 
directly, and not sweeping under the rug, the support that 
regimes like Syria and Iran give to terrorist groups like Hamas 
and Hezbollah.
    Senator Chafee. Can't you get any deeper? It's just 
terrorism?
    Ambassador Bolton. Well, I think----
    Senator Chafee. How about a little history of terrorism in 
the region?
    Ambassador Bolton [continuing]. Yeah, I think----
    Senator Chafee. Where does it go back?
    Ambassador Bolton [continuing]. I think that that's why the 
effort we want to make in Lebanon, as Senator Biden and I were 
discussing, through 1559, that that--the full implementation of 
1559, which is to have a democratic Government of Lebanon in 
full control of its territory and to get Hezbollah, that says 
it wants to act like a political party in Lebanese politics, in 
fact, to do that and give up the course it's been following, 
which is to have one foot in as a political party and one foot 
in as a terrorist group. If Hezbollah really carried through on 
the things that it said publicly about being a legitimate 
political party in Lebanon and not being an armed state within 
a state, then I think you'd see a very different situation 
there.
    That, alone, is not the solution. I don't pretend that it 
is. I think you've got, in the case of Syria, an authoritarian 
country----
    Senator Chafee. Mr. Ambassador, this is a very complex 
problem, and it's a conflagration right now. And you said the 
root cause of the problem, ``we have to get to it''--that's 
what you said--in order to have a permanent peace. Is there 
anything deeper than ``it's just terrorism'' to the root cause 
of the problem in the Middle East? These are your words.
    Ambassador Bolton. Yeah. Well, I think, in addition is the 
fact that some elements have still not acknowledged the right 
of the state of Israel to exist. That's why the peace process 
that's been going on for 30 years now is still incomplete. 
There's still--Israel still has not been able to achieve full 
peace agreements with many of its neighbors. And in the case of 
Iran you have a government that continues to threaten to wipe 
Israel off the map. That's one reason why Secretary Rice, in 
the meeting in Rome, was trying to get this broader basis, to 
have this wider discussion, to address the possibility of 
something more comprehensive. But, as you said, these 
animosities are complex. They go back a long way.
    The question for us, the diplomatic question for us, is, 
can we take the current circumstances, in southern Lebanon, in 
particular, and not simply say, ``Let's have a cease-fire that 
goes back to the situation before a month ago,'' but can we now 
use this--can the other Arab states that have joined in, in 
their declaration in the Arab League, expressing concern about 
what Hezbollah did--can we now move this process dramatically 
forward? That's why this is an opportunity, at the moment.
    Senator Chafee. When we had the Ambassador to Iraq--our 
Ambassador, Ambassador Khalilzad--before the committee, he said 
that shaping the Middle East is the defining challenge of our 
time. Do you agree with that?
    Ambassador Bolton. I think it's certainly one of the most 
important challenges of our time. I think--reflecting my own 
background; we all have a background--the proliferation of 
weapons of mass destruction remains another challenge. And--but 
it's the--really, the tying in of those two challenges in the 
Middle East, if you look particularly at Iran, and the risk 
that Iran itself poses, and the risk that failing to deal with 
Iran adequately would have as an incentive for other 
governments to turn to pursuit of weapons of mass destruction, 
that would make that region even more volatile than it is now.
    Senator Chafee. And does that shape of the Middle East 
include a viable contiguous Palestinian state living side by 
side in peace with Israel?
    Ambassador Bolton. Absolutely. I think that is--you know, 
we're focused now on the problem of Lebanon, but just before 
that we had--there were difficulties in the occupied 
territories, as well, and that's precipitated by the role of 
Hamas, which is--itself remains a terrorist group that doesn't 
recognize the state of Israel. So, that is something that I 
think we hope, the administration hopes, that, as part of a--of 
an effort for resolving the larger issues, we're certainly not 
going to lose sight of, is very much on Secretary Rice's mind 
as she traveled to the region, met with Abu Mazen, even in a 
very brief trip, and was discussed in Rome, as well.
    Senator Chafee. And you notice I said ``contiguous.'' What 
has the United States done about that vision of a contiguous 
Palestinian state?
    Ambassador Bolton. Well, I think a lot of--a lot of our 
emphasis has been--before the election of Hamas, was to try and 
get--to pursue the direct negotiations between Israel and the 
Palestinian Authority. They're all going to have to live with 
whatever outcome they come up with, and there are a variety of 
different proposals to deal with the fact that Gaza Strip is in 
one place and the West Bank is in another. But I think our 
interest is in not one particular way of resolving that 
conflict, but of trying to help the parties find something that 
would be mutually satisfactory. That has all, as with many 
other things, been enormously complicated by Hamas.
    Senator Chafee. I suppose--would you agree with me?--that 
many of our allies, who you work with daily, would say that--
back to the root cause of our--of the problems in the Middle 
East are associated with our failure to have any progress on 
this viable contiguous Palestinian state living side by side in 
peace with Israel?
    Ambassador Bolton. Well, I think--I think--yeah, I think 
they would, and I think--I think we would say essentially the 
same thing. There's been no--there's been no lack of interest 
in the United States Government, for 60 years now, in trying to 
resolve this problem, but it is--it's obviously difficult. 
That's why, even as the hostilities continue to--in south 
Lebanon, this is a time that we need to look at broader 
solutions that could well make progress on the Palestinian 
front, as well. I think that's something we should very much 
have in mind. I know the Secretary does as she works on the 
diplomacy in the region.
    We obviously have it in mind in New York, where discussions 
about Lebanon occur simultaneously with discussions about the 
occupied territories.
    Senator Chafee. All right. I might disagree with you the 
effort put behind the rhetoric to that end. But, back to the 
shape. If I take you at your word it includes this concept of a 
viable, contiguous Palestinian state living side by side in 
peace with Israel. What else does the shape of the Middle East 
look like? I mean, this is a very proactive pronouncement. 
Shaping the Middle East----
    Ambassador Bolton. Well, I----
    Senator Chafee [continuing]. Is the defining challenge of 
our time. I'm curious, what's it look like?
    Ambassador Bolton [continuing]. I think it's very important 
for the governments in the region fully to renounce support for 
terrorism and to find a way to persuade them to stop pursuing 
weapons of mass destruction. I think it's complicated by sales 
of technology from places like North Korea and China into the 
region. And I think that's one reason why the notion of 
convening the core group in Rome the way the Secretary did is 
very important. There are a lot of elements at play here. And 
unless we're willing to look at some of these causes that lie 
behind the immediate violence, we won't--the--a cessation of 
hostilities here will simply postpone another violent reckoning 
to a few months or so down the road. I don't think we should 
accept that. I think we have to look at the possibility of the 
kind of arrangement in the region that will lead to longer-term 
stability instead of just fixing the immediate problem.
    Senator Chafee. Well, it--once again, it's a little 
frustrating trying to get an idea of what this shape looks 
like. It started with a regime change in Iraq, and we've seen 
our challenges associated with that, and then the failure of 
the road map, and now the conflagration, as I said, in southern 
Lebanon. But it's difficult to get an idea of what the 
administration has in mind, and you're our witness, so I'm 
asking you if you could give me some idea of what unfolds from 
here.
    Ambassador Bolton. Right. Well, I do think it's important, 
if you look at the case of Lebanon, that, if you had--if the 
steps that have been taken toward the implementation of a full, 
viable democracy in Lebanon were to continue--if, for example, 
in addition to having not just the free and fair election of a 
Lebanese parliament, but the free and fair election of a 
Lebanese President, if you had the security institutions, the 
police, the prosecutors, and the courts, able to function 
independently of external influence, if you had the government 
exert its authority over the full reach of Lebanese territory, 
I think that would be a significant step forward that would be 
visible to others in the region. We know, from conversations, 
that the efforts to establish a viable democracy in Iraq, and 
the efforts in Lebanon, have an influence in places like Syria, 
which has a literate and educated and aware populations, and 
where people not just in the diaspora, but in Syria itself, are 
saying, ``Well, if they can vote in Lebanon, and they can vote 
in Iraq, why can't we vote in Syria, too?'' That's a powerful 
influence, over time. And it's something that we should 
continue to foster.
    Senator Chafee. I know my time's up. One quick question. 
You said that the Chinese and North Koreans are selling arms 
into the Middle East. Do we have evidence of that? Chinese, in 
particular?
    Ambassador Bolton. Yeah, this is--and especially 
disturbingly in the area of ballistic missile technology, 
which, in a volatile region, obviously makes things much worse.
    The Chairman. Thank you, Senator Chafee.
    Senator Sarbanes.
    Senator Sarbanes. Well, thank you very much, Mr. Chairman.
    Ambassador, how high a priority do you place on getting a 
peacekeeping force up and running in Darfur?
    Ambassador Bolton. Very high priority.
    Senator Sarbanes. This is going to be a U.N. force, is that 
right? You're quoted as saying, ``We think the sooner the U.N. 
takes control of the mission in Darfur, the better.''
    Ambassador Bolton. That's correct.
    Senator Sarbanes. Now, the United States is very 
substantially in arrears with respect to peacekeeping dues at 
the United Nations, is that correct?
    Ambassador Bolton. I wouldn't say ``very substantially in 
arrears.'' I think that part of this comes from the--part of 
the calculation comes from the way in which our budget cycle 
operates, where we will pay the bulk of our assessments for--in 
what's called the CIPA account, Contribution to the 
International Peacekeeping Activities, at the end of this year, 
because of the congressional and administration budget cycles, 
so that as the U.N. defines arrearages, which become arrearages 
30 days after the bill is paid, there are outstanding balances 
which hopefully will be--when Congress is able to act on the 
appropriations bill, which I'm sure they will--will be paid 
before the end of this calendar year.
    Senator Sarbanes. Well, I have figures that indicate there 
we're almost a trillion dollars in arrears on peacekeeping 
operations at the United Nations.
    Ambassador Bolton. I can't believe that's right.
    Senator Sarbanes. A billion, I'm sorry.
    Ambassador Bolton. Right.
    Senator Sarbanes. Yeah, 966 million.
    Ambassador Bolton. Right. I think that's, in part, due to 
the nature of the budget process, as I've just described it.
    Senator Sarbanes. What part of it is due to that, in your 
thinking?
    Ambassador Bolton. We project that at the end of fiscal 
year 2006, we will have $119 million in arrears, not counting 
the longstanding pre-Helms-Biden arrears of approximately $450 
million. Of the $119 million, $54 million will be paid in the 
first quarter of fiscal year 2007, and the remaining $64 
million paid when Congress lifts the 25 percent cap on payments 
to the U.N.
    Senator Sarbanes. How can we go in and push for the U.N. to 
assume new peacekeeping operations when we're not paid up for 
our peacekeeping assessments?
    Ambassador Bolton. Well, I think the--we are attempting to 
pay up for our peacekeeping assessments. The nature of the way 
the assessments come in, the way the budget cycle works in the 
United States, don't mesh. That's a problem with other 
countries, as well. But I think the--and I don't think--I would 
have to say, in my experience, that our situation with the 
arrearages in the peacekeeping account has not been a factor in 
the discussions in New York on rehatting the force currently in 
Darfur and making it a U.N. peacekeeping mission. I think 
everybody's aware of the arrearages, but I don't think that's a 
factor in any of the negotiations; at least I have not 
encountered it myself, and I'm not aware that anybody else has 
raised it.
    Senator Sarbanes. It's not just peacekeeping; we're also 
behind on the regular budget, as I understand it.
    Ambassador Bolton. That's correct.
    Senator Sarbanes. And you don't think that sort of inhibits 
your ability to function?
    Ambassador Bolton. I'd have to say, quite honestly, I do 
not.
    Senator Sarbanes. So, you don't regard it as a matter of 
high importance----
    Ambassador Bolton. I didn't say that.
    Senator Sarbanes [continuing]. To get it corrected?
    Ambassador Bolton. No, I didn't say that. You asked me if I 
regard--if I--if it inhibited my activity, and I----
    Senator Sarbanes. Right.
    Ambassador Bolton [continuing]. Said it did not. But we do 
regard it as a matter of high importance. That's why the 
President's budget requests full funding of our assessments, 
and why we consider it a priority.
    Senator Sarbanes. On July 24, there was a piece on National 
Public Radios Morning Edition during which the reporter, 
Michele Kelemen said, ``The idea of regional rotation is not 
one that U.S. Ambassador John Bolton is buying.'' Would you say 
that is an accurate characterization of your position?
    Ambassador Bolton. That sounds like something I've said.
    Senator Sarbanes. The President, on July 11, was quoted as 
saying, ``We're really looking in the Far East right now to be 
the Secretary General.'' What's the U.S. policy on this issue?
    Ambassador Bolton. Well, I think the President, at that 
time, was speaking in response to a question about the 
potential candidacy of Jordanian Prince Zeid, their permanent 
representative in New York. And he was essentially saying, 
that's where the bulk of the activity is. But there--that--it 
reflected no change in our position that we want the best-
qualified person, wherever that person may come from. It is the 
case, as was indicated in the straw poll that we took in New 
York on Monday for Secretary General in the Security Council. 
So far, there are only four candidates announced, endorsed by a 
member government, and they are all from Asia.
    Senator Sarbanes. So, you feel your statements are 
consistent with the President's?
    Ambassador Bolton. Yes, I do.
    Senator Sarbanes. When the President is interpreted, at 
least in the Financial Times, as saying, ``Asia's claim 
appeared to be increasingly firm after George W. Bush, the U.S. 
President, last Tuesday, appeared to concede the principle of 
regional rotation.''
    Ambassador Bolton. Well, that's the----
    Senator Sarbanes. ``We're really''----
    Ambassador Bolton [continuing]. Financial Times'----
    Senator Sarbanes [continuing]. ``Looking in the Far 
East''----
    Ambassador Bolton [continuing]. Characterization.
    Senator Sarbanes [continuing]. ``Right now to be the 
Secretary General.''
    Ambassador Bolton. That was the Financial Times' 
characterization. And the White House has developed and issued 
press guidance that makes it clear that--what I just said, that 
the President was responding to a question about Jordanian 
Prince Zeid, and that our policy remained that we wanted the 
best-qualified person, and that the statements are consistent.
    Senator Sarbanes. When you first went up to the U.N., you 
sought to delete the references to the Millennium Development 
Goals from the outcome document, is that correct?
    Ambassador Bolton. What I sought was to eliminate an 
ambiguity that had developed over the course of years about 
that term, which I'd be happy to explain here at greater 
length, if you'd like.
    Senator Sarbanes. When the President went to speak at the 
U.N., he specifically endorsed the Millennium Development 
Goals, is that not right?
    Ambassador Bolton. That's exactly right. And the ambiguity 
that we corrected, in fact, in the course of negotiating the 
outcome document, was as follows: The Millennium Development 
Goals, as they're frequently called, were originally written in 
the Millennium Declaration, which was the outcome document that 
came out of the 2000 Summit in New York. Those goals were 
endorsed by the United States and by all the member 
governments, and--that was during the Clinton administration--
and were endorsed by the Bush administration shortly after it 
came into office, as well.
    Subsequent to the adoption of the Millennium Declaration, 
the U.N. Development Program and other U.N. agencies took those 
goals and attempted to put them in quantifiable terms. Those 
efforts at quantification were not endorsed by all member 
governments, and specifically not by the United States. And 
yet, over time there developed an ambiguity as to what one 
meant when one used the phrase ``Millennium Development 
Goals.''
    In the negotiation of the outcome document, we made several 
efforts to eliminate the ambiguity, and, ultimately, all of the 
member governments accepted a definition in the outcome 
document for ``Millennium Development Goals'' that said, 
``These are the goals adopted in the Millennium Declaration of 
2000.'' So, obviously, that was something we had accepted, and 
that President Bush had previously endorsed, even before his 
speech in New York last September.
    Senator Sarbanes. I want to address this budget-cap issue 
at the U.N., which I understand you pressed very hard for. In a 
column recently in the Washington Post, Sebastian Mallaby 
wrote, ``Not many reformers at the United Nations believe that 
the budget threat achieved anything. To the contrary, Bolton 
has so poisoned the atmosphere that the cause of management 
renewal is viewed by many developing countries as an American 
plot.'' In fact, the cap's now been lifted, has it not?
    Ambassador Bolton. That's correct.
    Senator Sarbanes. You told the committee, in May of last 
year----
    Ambassador Bolton. May of this year, probably.
    Senator Sarbanes [continuing]. I'm sorry, May of this 
year--``I think the worst option is that the G-77 comes in, let 
us say, in the next week, and adopts a resolution that says the 
spending cap is hereby lifted, period.'' Isn't that pretty much 
what eventually happened?
    Ambassador Bolton. The spending cap was lifted without 
substantial reform being achieved, that's correct. I might say, 
the spending cap was developed as an idea originally that--
something that could be put in place for about 3 months because 
of our hope that there would be such progress on mandate review 
that that would be reflected in sufficient changes in the 
budget that we wouldn't want to adopt a 1-year budget for 2006 
and not have the option to change it. And that obviously didn't 
work out.
    Senator Sarbanes. You, of course, have seen the New York 
Times article, just a few days ago, ``Praise at Home for Envoy, 
But Scorn at U.N.'' That article says, and I quote it now, 
``Over the past month, more than 30 ambassadors consulted in 
the preparation of this article, all of whom share the United 
States' goal of changing United Nations management practices, 
expressed misgivings over Mr. Bolton's leadership.'' The 
article quotes Peter Maurer, the Ambassador of Switzerland, who 
characterized the American approach as ``intransigent and 
maximalist,'' and an unnamed ambassador who is said to have 
close ties to the Bush administration, remarked, ``My initial 
feeling was, let's see if we can work with him, and I have done 
some things to push for consensus on issues that were not easy 
for my country, but all he gives us in return is, `It doesn't 
matter, whatever you do is insufficient.' He's lost me as an 
ally now, and that's what many other ambassadors who considered 
themselves friends of the United States are saying.''
    What's your response to that?
    Ambassador Bolton. Well, look, I am honored to work with 
the other ambassadors in New York. I think we have effective 
professional relationships. I think people are motivated by 
their national interests and policies. And a number of 
ambassadors came up to me after that article and said they 
thought it was unfortunate, because it certainly didn't reflect 
their views, and they hadn't been contacted. But, look, I don't 
think it's useful to respond to stories that quote anonymous 
people. In my daily relationships with the ambassadors, I treat 
them with respect, they treat me with respect. I think we get 
the job done.
    Senator Sarbanes. Well, you didn't get the reforms done, 
did you?
    Ambassador Bolton. We faced substantial opposition to the 
reforms. I think I've described some of the reasons why. I 
think we have to continue our efforts. There's no question 
about that.
    Senator Sarbanes. After you appeared before this committee 
and made statements about forming the JUSCANZ group and working 
with them, were there any objections or protests lodged with 
the State Department regarding your statements about the 
JUSCANZ group for its proposal on mandate review?
    Ambassador Bolton. I think that a number of countries that 
we discussed--that were discussed--didn't realize that there 
would be as much attention to it as we had gotten, but I--as I 
said to all of them later, in making amends, that what happens 
in the United States is, you go into hearings in Congress, and 
a lot of these things come out.
    Senator Sarbanes. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sarbanes.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman, for holding this 
hearing. Ambassador Bolton, thank you for your service and your 
willingness to run the gauntlet again through this hearing 
process. I am hopeful, at the end of this hearing process, that 
we'll be able to exercise our advice and consent and actually 
have a vote up or down on your nomination. And I think that 
sort of fairness has not been accorded to us, or to you. And 
I'd hope, at the end of this, we will have an up or down vote 
on the Senate floor rather than obstruction.
    You have been successful in many areas in your tenure as 
Ambassador to the United Nations. Rather than blame the United 
States for North Korea launching missiles, I would blame, 
first, North Korea, and, second, the country that has the most 
influence in sustaining North Korea, and that is the People's 
Republic of China. You have, and we have, worked with our 
friends and allies, the Japanese, to get as strong a resolution 
as we could get through without China vetoing.
    Insofar as Syria is concerned, you have led an effort, 
after the assassination of Prime Minister Hariri, to work with 
other countries; with France taking the lead, to get the 
Syrians out of Lebanon. The United Nations had their 
resolution, which we sponsored with the French, 1559, which 
still needs to be enforced.
    As far as the reform of the United Nations, you tried to 
get the United Nations, particularly the Human Rights Council, 
to be reformed. But here we have China and Cuba on the Human 
Rights Council until the year 2009. That is the sort of lack of 
credibility this organization has to have such countries 
actually on the U.N. Human Rights Council. And I know you tried 
as best you could, and you're going to continue, and the United 
States will continue in that regard.
    Now, insofar as our mission in the United Nations with 
regard to the current conflict in southern Lebanon and 
Resolution 1559 from the Security Council, could you share with 
us the challenges that you face, we face, that Israel faces, 
and the realistic expectation of getting real action, action 
that will have an impact on this situation in enforcing 
Security Council Resolution 1559?
    Ambassador Bolton. Okay. Well, there are many aspects to 
it, but it seems to me the fundamental aspect is that as long 
as Hezbollah continues to maintain its capacity as a state 
within a state, that 1559 cannot be implemented. It's just--
it's not realistic to think that you can have an effective 
government where there's a--an armed group operating within the 
state functioning as if it's its own government, controlling 
its own territory, using its own weapons, and functioning at 
the behest, in many cases, of foreign governments. Given that 
Iran, by at least some reliable estimates, contributes $100 
million a year to Hezbollah, they're the paymasters, and 
they're calling the tune.
    And I think this is--the continued existence of Hezbollah 
as an armed force, contrary to the authority of the Government 
of Lebanon, is something that's a risk, obviously, not only to 
our interests and Israel's, but it's just fundamentally 
contrary to the interests of the Lebanese people. I said 
earlier, I think, in partial response to one of Senator 
Chafee's questions, that Hezbollah has a choice to make here. 
If they want to be a legitimate political party, they can 
operate like a legitimate political party. They--but they can't 
be in a situation, as they are now, where they have ministers 
in the Lebanese Government, but maintain a military capacity, 
up to and including anti-ship cruise missiles, separate from 
the Lebanese Government.
    So, the responsibility to implement 1559 fundamentally has 
to address this fact.
    There are many other aspects, as I mentioned earlier. 
Getting Syria to internalize the fact that Lebanon is going to 
be an independent country, but it has to exchange ambassadors 
with Lebanon, which you only do between two independent 
countries. It has to demarcate the border and get its people--
its intelligence services out of trying to run parts of the 
Lebanese Government. That is what the fact that we're in 
hostilities now in southern Lebanon may give us the opportunity 
to do, because of Hezbollah's terrorist attacks on Israel. We 
need to seize the advantage of this opportunity. And one 
fundamental change that has to come--one of the road maps we 
have to follow is to get 1559 implemented.
    Senator Allen. Right. We can look at all the details of 
exchanging ambassadors between Syria and Lebanon. This recent 
statement, though--I think everyone has to have some sense of 
the global picture, the realism of this war that we're engaged 
in against these radical Islamic terrorists. Al-Qaeda issues 
this statement, and it shows that al-Qaeda's joining in with 
Hezbollah and Hamas, and they're all joined in, with statements 
that, ``This jihad will last until our religion prevails from 
Spain to Iraq.'' Of course, they've also hit in Indonesia and 
the Philippines, as well. He said that, ``The regimes, some 
Arab regimes in the region''--referring, undoubtedly, to Egypt, 
Saudi Arabia, and Jordan--``are accomplices to Israel.'' And 
that they're trying to get these martyrs to fight all our 
enemies. This is a global war.
    Now, you take Hezbollah, with these thousands and thousands 
of rockets--you mentioned the phrase, ``Iran is their payment--
or their paymasters, and they're calling the tune.'' Hezbollah 
is armed by Iran. Is that correct?
    Ambassador Bolton. And by Syria, yes.
    Senator Allen. And Syria. All right. Where does Iran get 
these rockets? Do they manufacture or build them themselves, or 
do they get them from some other country?
    Ambassador Bolton. Some are their own; some, these--the C-
802 anti-ship cruise missiles are purchased from China.
    Senator Allen. Do we know when the most recent purchases 
from China were?
    Ambassador Bolton. I don't know, myself. We may.
    Senator Allen. Do you know if China or any other country is 
presently selling rockets to Iran, or missiles?
    Ambassador Bolton. Well, there's no doubt of very extensive 
Chinese cooperation with the Iranian ballistic missile program. 
That is one reason why, repeatedly, year after year, numerous 
Chinese entities are sanctioned by the U.S. Government for 
violating the provisions of our law that deal with the 
transmittal of materials and technology involved with weapons 
of mass destruction and ballistic missiles to terrorist states.
    Senator Allen. Well, as we're dealing with Iran, in the 
nuclear capabilities of Iran--clearly, China, and then, 
particularly, Russia, are very important, Iran is important, as 
they are the funders, the supporters, the directors of 
Hezbollah. Without Iran, Hezbollah would not have the 
resources, nor the armaments, to be firing these rockets, in 
however many thousands they have, into Israel. Do you see them 
being of--potentially of use, or more of an impediment to a 
unified United Nations and unified world, precluding Iran from 
potentially getting nuclear weapons?
    Ambassador Bolton. Well, I think this is--this is something 
we're trying to work with, with China on now; in particular, in 
the context of the Perm-5 agreement that said that if Iran 
failed to take up the offer, the very generous offer that was 
made to them, that we would move to sanctions in the Security 
Council. And we have not yet achieved the first step in that 
resolution. But I think it's critical that China, over--as soon 
as possible, frankly, internalize the same nonproliferation 
objectives that we and most other developed countries have, not 
because we're trying to impose sanctions on China, not because 
we're trying to deny them commercial sales, but because they 
need to appreciate, as we have come to appreciate, that the 
sales of these kinds of technologies and weapons ultimately are 
threatening to them as a destabilizing force in the world, as a 
whole.
    Senator Allen. Well, the reality is, these sales of--
whether it's from China or any country to Iran, as I--and Iran 
funding Hezbollah--to some extent, other--potentially, other 
terrorist organizations in the world. And then you have the 
Secretary General, in May of this year, Secretary Annan, issued 
a recommendation for a global counterterrorism strategy to be 
considered by the General Assembly. Now, this should be 
something that the entire world, from Spain to East Asia and 
everywhere else in the world, ought to be concerned about, with 
the statements that we get from Hezbollah, from Iran, 
statements you hear from al-Qaeda, with the deadly intent to 
carry out these martyr/radical Islamic attacks, killing 
innocent men, women, and children everywhere.
    Now, what is the status of these consultations on this 
strategy to have a global counterterrorism approach?
    Ambassador Bolton. The short answer is, consultations 
continue, but the--one of the principal difficulties we have is 
that we can't reach agreement on a definition of terrorism, 
which makes it hard to develop a strategy. We have made many 
efforts, both at the time of the summit in September and since 
then, and the problem is, there are still a number of 
governments that think that some kinds of terrorism are 
acceptable under certain circumstances, versus our view that no 
form of terrorism is ever acceptable.
    Senator Allen. Thank you. My time is up, and I look forward 
to, hopefully, voting for you on the Senate floor. And thank 
you for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Allen.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. And, 
Ambassador Bolton, welcome to the committee.
    Mr. Ambassador, as most of my colleagues here will tell 
you, I've been on this committee for 25 years, and my normal 
operating procedures is to be supportive of nominees who come 
before this committee. I didn't go over the numbers here, but 
I'm of a mind that Presidents, as a general matter, ought to be 
able to have their choices to serve in high government 
positions. That's been my view. In fact, to the extent I've 
ever been criticized by votes I've cast in those matters, it's 
usually been because I've supported nominees that many people 
on my side of the dais here have disagreed with. But I firmly 
believe that generally that's the case. And I take no great 
pleasure at all in disagreeing with this nomination. It's not 
something that I enjoy engaging in normally, but I feel as 
though I must. And I regret that it seems to me the issues that 
provoked the opposition I raised a year ago are still with us 
today, to some degree, and I want to go over some of them, if I 
can, with you in the time we have here. Some of them may seem 
like ancient history to some people, but I think they're still 
very important.
    There are four issues, basically. One has to go back with 
the NSA intercept issue. And I realize that's a matter that was 
raised a year ago. I realize it's not a matter entirely in your 
control, because it's a decision made by others, other than 
yourself. And I'm going to give you a chance to respond to 
that. The second set of issues has to do with the matter 
raised, again, a year or so ago, but has to do with the 
attempts to fire analysts at the CIA. The third issue has to do 
with decreasing support for the United States among our allies, 
which is a more current question, and the coordination efforts 
that you must maintain as an Ambassador to the United Nations 
with the Department of State. Some of these issues have been 
raised already by some.
    The first issue, the NSA intercept issue, why do I still 
bring that up? Well, I happen to believe that, as a matter of 
right, this coequal branch of government, through appropriate 
channels, should be able to see and make judgments about 
matters involving intelligence questions. I've never suggested 
that all members of this committee or all members of the United 
States Senate ought to have access to that information. We have 
appropriate committees and appropriate members, who ought to be 
able to see this information.
    Now, on 19--excuse me, 10 different occasions involving 19 
individuals, you requested to see the transcript of these 
intercepts. Nothing inappropriate about that at all, in your 
previous position, to see them. I respect that. What I 
disagreed with, that concerns me, is you also, I'm told--you 
can correct me if I'm wrong here--requested to know the names 
of the Americans who were part of those conversations. Now, 
while it's not extraordinary to request the information, it 
seems to me it was important to find that information out 
through the appropriate members of this body, as a coequal 
branch of government, with an Intelligence Committee, two 
chairmen, who should have access to it. We went through a 
lengthy process, myself, Senator Biden, and others, writing 
letters to Ambassador Negroponte, to Secretary Rice and others, 
trying to resolve this matter. In fact, to the point of even 
suggesting we'll provide the name and you just tell us whether 
or not these people were on the list or not.
    Now, first of all, let me ask you whether or not--because I 
think you've answered this to me, but I--but I want to be on 
the--I want it to be on the public record--as I recall, you 
have no objection--correct me if I'm wrong here--that the names 
of these 19 individuals, U.S. citizens, be revealed to the 
appropriate members of the United States Senate. Is that still 
your position?
    Ambassador Bolton. I have no objection. Can I just explain 
what the circumstances are there? I----
    Senator Dodd. Well, why don't you just answer that question 
first, so we can move on, and then I'll give you a chance to 
respond to it.
    Ambassador Bolton. Fine.
    Senator Dodd. You have no objection to those names being 
revealed?
    Ambassador Bolton. Personally, I do not, no.
    Senator Dodd. Well, then why don't you explain what--let me 
ask you this. Have you--what important--what was so important 
in that information that you needed to know the names of those 
individuals, in addition to the actual content of the 
conversations?
    Ambassador Bolton. Let me just say, as I said at the 
beginning of the hearings, 15 months ago, I guess they were, 
from my personal point of view, I'd have all of this in public, 
because, frankly, I think if all of these--of all of these 
things were out in the open, it would be a lot easier to 
explain. I feel a little constrained now, even talking about 
the intercept issue in public, but I will try and answer your 
question to the best I can.
    Senator Dodd. Well, I'm not going to ask you to reveal any 
names at all. I'm just----
    Ambassador Bolton. But let me----
    Senator Dodd [continuing]. Curious about the----
    Ambassador Bolton. No, I understand. I know you would not 
do that. But let me just explain how this works, and--every 
day, usually twice a day, sometimes more than that, I get 
packages of intelligence material--I did, in my previous job--
as do senior officials in State and Defense and the NSC. I'm a 
voracious consumer of intelligence. I read as much as I can. I 
make no bones about it. I and--in my previous job--and lots of 
other senior officials, see the results of intercepts. And 
they're written up in various different ways. But it is the 
policy of the NSA not to put in the intercepts the names of 
Americans.
    Senator Dodd. Correct.
    Ambassador Bolton. Okay? And that includes American 
entities.
    Senator Dodd. Correct.
    Ambassador Bolton. Companies, as well as individuals. They 
follow different patterns. And I couldn't begin to explain why. 
Sometimes it'll say that ``material's going on,'' and then it 
will say ``a named American person.'' Sometimes it says ``a 
named government official.'' Sometimes--and I've seen this for 
myself--it will say ``the U.S. Permanent Representative to the 
United Nations.'' Not hard to figure out who that is. But there 
are times when, as you're reading along the material trying to 
understand what it really means, it can be enhanced if you know 
the name of the American involved. So, what I did on 10 
occasions--you're quite right, 10 occasions--4 times in 2003, 3 
times in 2004, and 3 times in 2005--following procedures that 
are set up for precisely this purpose, made a request of the 
INR Bureau of the State Department to receive the names of 
the--what is called the ``minimized names.'' That's the whole 
process--this is called ``minimization.'' The INR, pursuant to 
procedures, passed that request along to NSA, which, pursuant 
to their procedures, I believe, in all 10 cases, agreed to 
provide the name.
    Now, all of this has been extensively written up in 
correspondence and statements by Senator Roberts, the chairman 
of the Intelligence Committee, but I think what I'm trying to 
make clear is, I didn't say, ``Send me all the information on 
Mr. Smith,'' or, ``I want Mr. Smith--I want information about 
Mr. Smith.'' You're sitting there at your desk, reading along, 
and suddenly you come upon ``a named American individual,'' and 
you say, ``Well, who is that? How--would that help me 
understand the intelligence better?'' And it's not just that I, 
or any other senior official, asks for it and we get it 
automatically; you have to state a reason, it goes through INR, 
it goes through NSA, and, as I say, in these cases, appears to 
have been approved. Other senior officials do the same thing.
    And I have to tell you, when I took this job, and I was 
coming in, and getting my intelligence briefings, I was 
briefed. The official giving me the briefing said, ``Now, let 
me explain to you how you request a name under minimization,'' 
and then laughed and said, ``Well, I guess you already know 
that, don't you?'' This is something that is--it's part of the 
legitimate needs of the jobs involved. It is subject to check. 
It's not at the individual's exclusive discretion----
    Senator Dodd. I appreciate----
    Ambassador Bolton [continuing]. By any stretch of the 
imagination.
    Senator Dodd [continuing]. I appreciate the answer. And 
you'll appreciate, as well, that, as a member of this body 
here--and, again, I'd reiterate for you here, not a request by 
all 100 members of the United States Senate, but the 
appropriate members of this body to be able to have access to 
that kind of information. It was an issue that was raised, 
obviously at a sensitive time. We have since discovered, of 
course, in December of last year, a wider-spread issue 
involving warrantless wiretaps that have provoked even further 
discussion. But for the two members of the committee to be told 
by the administration that they couldn't have access to that 
same information, which you, as a member of the administration, 
had, to determine--in fact, to corroborate, if you will--that 
which you've just said here, was the source of significant 
contention, considering your nomination. And----
    Ambassador Bolton. I remember.
    Senator Dodd. Of course you do. And I make the point here 
again, it's still an issue, in a sense. And I think my 
colleagues--while some may discount it, I think it's very 
important for the United States Senate, when matters arise like 
this--this matter could have been dealt with, I would point 
out, if it had--along the lines you just described, I think it 
might have become almost a minor issue, if in fact, your 
analysis and your description of this is as it is, then 
certainly it might have moved right along. The fact that there 
was such resistance to it provoked a lot of concerns among 
members on this side of the dais about the rationale for 
seeking those names, what happened to those names. That's all 
the point I wanted to make.
    Ambassador Bolton. Yeah, that's--I appreciate that. I just 
want to follow up on one point. As I said, if it were only my 
equities at stake, it would be fine with me, because I think it 
would eliminate this issue. There are other equities. It's not 
just my personal fortunes that are at issue here, having to do, 
in part, with the relationship between the intelligence 
community and Congress, and the relationship between the 
Intelligence Committees of the Senate and House and the other 
committees. But, as you know--you were kind enough--at one 
point, I asked Senator Biden, during those discussions, if I 
could come up and see him, and you joined that meeting. I 
thought we had a good discussion about it. I would--nobody 
would be more pleased if we could resolve the issue. But I do 
think these--there are other serious considerations. I'd 
certainly be willing to continue the discussions about the 
question. I'd have to talk to others in the administration. I 
have spoken to John Negroponte about it, and--you know, let's 
see what might happen.
    Senator Dodd. Well, I appreciate that.
    And, Mr. Chairman, I might make a request of you and 
Senator Biden that, in light of Mr. Bolton's--Ambassador 
Bolton's response here, that maybe a request of Ambassador 
Negroponte about this could be one way of trying to resolve 
this issue. Again, my request is not that all members of this 
committee, or even necessarily the chairman or the ranking 
member of this committee, but the appropriate members of the 
Intelligence Committee, have access to the information to 
determine whether or not it would warrant any further 
investigation by the committee. And if that's the case, it 
would certainly help alleviate this issue. I know you did once, 
already, a year ago, Mr. Chairman. I was very grateful to you 
at that time. But I might request that a similar request be 
made again to see if we can't resolve this matter. I'll leave 
it to your consideration.
    The Chairman. Let the chair respond that we will try to 
obtain this information. As the Senator remembers, there were 
long arguments between committees about jurisdiction, quite 
apart from the administration. And all of these powers that be 
may have changed their minds. But, nevertheless----
    Senator Dodd. I appreciate it.
    The Chairman. I acknowledge the request, I honor it, and I 
will try to make certain our record is as complete as possible.
    Senator Dodd. And I appreciate that. And I just--I realize 
this is going back in time, but the issue is still an important 
one, in my view, in terms of the relationship between the 
executive and legislative branch, in the conduct of this kind 
of business.
    Let me move, if I can, to another issue that came up at the 
time, and it has to do with my concern. And let me say, Mr. 
Ambassador, this is--of all the issues, I think this one, in my 
mind, is maybe the most significant one, and a problem that I 
just have, generally, and that is the issue of attempting to 
pressure analysts in our intelligence agencies to produce 
information that would conform to a particular point of view in 
the conduct of foreign policy. And I would want to say, over 
and over again here, whether this was a Democratic 
administration or a Republican administration, in my view, 
anyone--whoever attempts to do this, in my view, does not 
deserve to be confirmed--or confirmed for any high-ranking 
position. I'm just deeply concerned with this--the ability to 
have solid, reliable information. And I know that it may--I 
don't disagree with the arguments and disputes over this, but 
when attempts are made--and it was seven high-ranking Bush 
officials who strongly recommended to this committee, over a 
year ago, that you not be confirmed for this position, because 
of matters relating to this issue.
    And one of the matters that occurred--and I raise it with 
you here again today, because we didn't have a chance to raise 
it during your confirmation hearing--involved the case of a 
national intelligence officer for Latin America, who we'll call 
Mr. Smith here. When asked about your conversation with a 
senior official at the National Intelligence Council, Stuart 
Cohen, you said the following at the committee hearing, ``I 
also knew that in the weeks and months previous thereto dealing 
with this Mr. Smith, who was the Assistant Secretary for 
Western Hemisphere, had told me and others he had very grave 
concerns with Mr. Smith on a range of issues. And I think I 
said to Mr. Cohen, in the course of our conversation, that, 
based on what I had seen in my limited area, that I agreed with 
him. And that was it. I had one part of one conversation with 
one person, one time on Mr. Smith, and that was it. I let it 
go,'' end of quote.
    That was your testimony before this committee. The 
committee subsequently found documentary evidence to the 
contrary. For example, in late July of 2002, after your meeting 
with Mr. Cohen, your staff drafted letters to the CIA 
leadership seeking the removal of Mr. Smith and indicated in e-
mails that, quote, ``John doesn't want this to slip any 
further.'' Discussion between your office and Mr. Reich's 
office continued until October.
    I'd ask you whether or not you stand by your earlier 
testimony that your effort to seek the removal of Mr. Smith was 
one part of one conversation, one time.
    Ambassador Bolton. Well, let me say, as a general 
proposition, I have not had a chance to go back over all the 
materials generated last spring. I've been a little busy in New 
York, and my memory is now 15 months older than it was then. 
But I can tell you this, those letters were never sent, because 
I didn't want to do that.
    Senator Dodd. You didn't want to do what?
    Ambassador Bolton. I didn't want to seek Mr. Smith's 
removal. I had made the point that his conduct--not his 
intelligence analysis, but his conduct--saying to people that 
the famous Heritage speech on the ``beyond the axis of evil'' 
had not been cleared by the intelligence community, when it had 
been. And it disturbed me that people--that--it always disturbs 
me when people promulgate falsehoods, and that's what bothered 
me about his conduct. Otto Reich, you quite rightly say, the 
Assistant Secretary for Latin American Affairs, had much 
broader concern with Mr. Smith. I think I testified an opinion 
that he was--he felt strongly about because of his area of 
policy responsibility.
    Senator Dodd. Did you draft the letters, or did your staff 
draft the letters----
    Ambassador Bolton. The staff drafted the letters, and they 
were never sent.
    Senator Dodd. And did you review the letters? Did you agree 
with the drafts of the letters?
    Ambassador Bolton. Of course. That's why they were never 
sent.
    Senator Dodd. So, you disagreed with them.
    Ambassador Bolton. I did not want them sent, and they were 
not sent.
    Senator Dodd. All right. Thanks.
    Let me move on to the second----
    The Chairman. Senator Dodd, your----
    Senator Dodd. Time up? I apologize. Then I'll come back. 
Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    I was reflecting on the comments of Chairman Warner--it 
seems too long ago--when he talked about the complexity of the 
challenges facing the United States today and the importance of 
the continuity of representation. And I do want to say, up 
front, that that's important and that I think the decision 
facing us is whether we confirm the nomination--the 
renomination of this President. We have an acting ambassador 
who is there, he's doing the job--whether we walk in, in 
January, with the possibility of not having that continuity of 
representation, when the issues that face us are so great, in 
North Korea, in Lebanon, and in Israel, in Iran, and on and on 
and on. And so, I just hope my colleagues reflect upon that.
    Just a couple of questions. In the--when the G-77 rejected 
the--what I saw as the modest reforms set forth by the Attorney 
General, I think you said the vote was about 122 to 50. Is that 
correct?
    Ambassador Bolton. The General Assembly (plenary) vote 
resulted in 121 in favor, 50 opposed, and 2 abstentions.
    Senator Coleman. And in terms of the JUSCANZ group, did 
Japan vote with us on that?
    Ambassador Bolton. Yes, they did.
    Senator Coleman. And Canada, are they part of that group? 
Did they vote----
    Ambassador Bolton. Yes.
    Senator Coleman [continuing]. With us on that?
    Ambassador Bolton. Yes, they did.
    Senator Coleman. And New Zealand, did they vote with us on 
that?
    Ambassador Bolton. Yes, they did.
    Senator Coleman. And when one looks at the breakdown of the 
U.N.-member contributions to the assessed budget--we're first, 
Japan's second--what about Germany? Did they vote with us on 
that?
    Ambassador Bolton. Yes, all of the European Union countries 
voted with us.
    Senator Coleman. So--and I--one of my concerns here, as I 
listen, is, you're being held to account, or held to blame, for 
the G-77 trashing reform, when, in fact, our allies, and those 
who are contributing the money, were all with us. I mean, that 
coalition you held together, but the nature of the U.N. is, not 
everybody is with us.
    I--and it's interesting, I was just listening to the 
protesters, and I was reflecting on it, and I would bet that if 
you asked the two protectors that we had, to cite a single 
statement of John Bolton or a single action of John Bolton that 
they object to, I doubt that they could do it. Their opposition 
is to U.S. policy.
    And perhaps the most encouraging thing I heard this morning 
was from the ranking member, who said, ``I don't want to hold 
you accountable for the administration action or inaction.'' 
And if you really look at the opposition, at times, to this 
nomination, there are two things. It's--one, it's opposition to 
U.S. policy, which, by the way, even amongst us, on this side 
of the table, I think it's fair to say we don't always agree. 
We don't always agree with this administration. But I think 
what we do fundamentally agree with is the belief that the 
President has the right to have his voice and his 
representation, somebody he trusts, representing us at the 
United Nations. That's the--to me, the fundamental question 
here.
    And to look at the area of U.N. reform, and to say that 
somehow the failure of those nations that don't have an 
interest in--and, by the way, don't have the skin in the game, 
aren't funding the United Nations, that their resistance is 
somehow a reflection of your failure, I--just a little bit of 
history. The ranking member talked about--gave Ambassador 
Holbrooke great credit for--when we had the issue with our 
arrears. Was Helms-Biden in effect at that time?
    Ambassador Bolton. No, that was the--the negotiation that 
actually led to Helms-Biden.
    Senator Coleman. And tell me a little bit about Helms-
Biden.
    Ambassador Bolton. Well, it was a--an arrangement whereby 
the United States essentially paid back the arrearages that had 
been developed during the mid-1990s as a consequence of 
congressional withholdings because of dissatisfaction with the 
U.N., in exchange for lowering the United States' assessed 
share of contributions to the budget.
    Senator Coleman. But, in part, then, it was what I might 
label playing hardball, saying, ``Congress is saying we're 
going to hold back some dues,'' that led to a resolution of 
this matter.
    Ambassador Bolton. The hardest kind of hardball, holding 
the money back.
    Senator Coleman. And my question, then, would be, today, 
kind of, looking at U.N. reform and the failure of the G-77 to 
move forward, would it be fair to say that many folks at the 
United Nations do not believe that there's the political will 
in this body, in the Congress, to hold back, to do what we did 
with Helms-Biden, if that was necessary to achieve reform?
    Ambassador Bolton. I think many of them do have the 
attitude that, ``This, too, shall pass,'' and that life will go 
on. I really think Paul Volcker's insight, his characterization 
of the problem, that he came to after the enormous study of the 
Oil-for-Food Programme, of describing the problem at the U.N. 
as being the ``culture of inaction''----
    Senator Coleman. And I need--I actually asked him whether 
it was a ``culture of corruption.''
    Ambassador Bolton. Right.
    Senator Coleman. He wouldn't go that far, but he said--and, 
by the way, that ``culture of inaction,'' that was there before 
John Bolton was appointed Permanent--acting as Permanent 
Representative.
    Ambassador Bolton. It's been there for a long time. But 
it's a profound insight, because it indicates not simply 
opposition to moving this box or changing this line on an 
organizational diagram, it's a more--it's a more profound 
difficulty that we have, and why I think that real reform, to 
get to what Secretary Rice called ``the lasting revolution of 
reform,'' is going to--is a difficult task.
    Senator Coleman. So, help me understand. What's next for 
real reform? What--if there is--if there can be any sense of 
optimism, what's the next step, in terms of real reform? And is 
there anything that we, in Congress, can do to assist the 
efforts to achieve reform?
    Ambassador Bolton. Well, I think we're going to continue to 
pursue all three of the broad areas that we outlined: 
management reform, which was the subject of the unfortunate 
vote in the Fifth Committee, opposing many of the Secretary 
General's management reforms; the mandate review, which is 
the--I think, the principal requirement of the outcome document 
in the area of U.N. reform, to look at these 9,000 U.N. 
mandates and try to eliminate the ones that are outmoded, 
consolidate those that are duplicative, and reprioritize what 
the U.N. is--focus the priorities among other things--when you 
have that many mandates, it's hard to see how you have any 
priorities; and then, also, to work on continuing to strengthen 
things like whistle-blower reform and the Ethics Office.
    I might say, in that regard, I've met, some weeks back, 
with the head of the U.N. Staff Union. I think I may be the 
first U.S. Permanent Representative to meet with the head of 
the Staff Union. And they had had a study commissioned of the 
whistle-blower protection regulations and the Ethics Office, 
because they, in effect, represent the people who are going to 
be the whistle-blowers, and their conclusion was that the 
regulations were weak, and the office was weak, as well.
    So, that was a--that was a disturbing piece of news, but 
it's--these are important priorities. We're going to continue 
to work with them. I hope to have the chance to talk to the 
Staff Union again and learn some more from them. I wish I had 
done it earlier in my tenure, frankly, but I'm glad I did it 
when I did.
    Senator Coleman. But I'm still trying to understand--other 
than discussion, is there any kind of leverage that we have to 
actually make mandate review happen, actually to have a 
strengthened Office of Investigative Services? Is there any 
kind of leverage that you have, in dealing with G-77, who have 
made it clear that they don't have a--an interest in 
significant reform?
    Ambassador Bolton. Well, I think that it's very important 
that the--all the countries in New York know that Congress is 
acutely interested in the outcome of this reform, and that it's 
not just the administration, or certainly not just yours truly. 
And I think that Senator Lugar mentioned earlier that you and 
he and Senator Voinovich had come up, back in February, your 
colleagues on the other side of the Hill have come up, as well. 
I think it's important that those kinds of trips continue, and 
that Congress make its voice heard that these reforms are 
important to making the U.N. stronger and more effective, and 
that we're not in a position where we're going to wait forever 
for this to happen.
    Senator Coleman. Let me just get back to that historical 
point, because I think it has relevance for today. When we go 
back to the clearing up arrears, is it fair to say that Helms-
Biden and the threat of--or using our financial leverage was a 
critical factor in resolving that situation?
    Ambassador Bolton. I don't think there's any question about 
it. And I've had my own personal experiences with the use of 
the--of financial resources as leverage. And it's been 
effective.
    Senator Coleman. Just on a personal note, because I admire 
your commitment to service, Ambassador, and, kind of, going 
through what you've had to go through to even be here at this 
point. First, overall, your impression of the U.N. You had some 
strong feelings. You knew the organization. You were involved 
in it. Then, you were on the outside. Then you--now you're 
there. Is there--has your impression of the U.N. changed? Has 
there been anything that surprised you in the last year?
    Ambassador Bolton. Not really.
    Senator Coleman. I don't know whether that's good or bad, 
by the way, but----
    Ambassador Bolton. I think there's a lot of work to do. I 
thought it on July 31 of last year, the day before the 
President appointed me, and on July the 27th; today, I still 
think there's a lot of work to do.
    Senator Coleman. As you look to the future, understanding 
all the shortcomings, understand the culture of inaction, 
understand the difficulty of pulling together consensus on a 
Security Council, as we look, kind of, into the crystal ball--
and if I just pick a couple of areas--Lebanon: the time is not 
ripe now for negotiations, and I think you've made it clear, 
and the Secretary's made it clear, that we need a--some longer-
term--the possibility of longer-term stability there. But what 
role do you see the Security Council playing in dealing--
resolving the Lebanese situation at some point in the future?
    Ambassador Bolton. Well, I think the Council can have, and 
should have, a--an important role in continuing to push for 
full implementation of 1559 and 1680 and the other resolutions 
that flow from that. And I think 1559 is an interesting 
example, if I may point out. That resolution was adopted by a 
vote of 9 to 0, with 6 abstentions, including Russia and China. 
So, there was a case--and 9 being the absolute minimum number 
of votes under the U.N. charter by which the Council can adopt 
a resolution. So, that was a case where there was not unanimity 
on the Council, but where the plan laid out by 1559 has been, I 
think, critical in helping to shape the way ahead. There's more 
work the Council can do. I think there's more work in backing 
up the International Investigatory Commission that was set up 
under 1595 to investigate the Hariri assassination, where we've 
also granted it additional authority to cooperate with the 
Government of Lebanon in investigating some 14 other terrorist 
assassinations that were conducted there, hopefully to see if 
there are patterns that persist among those assassinations that 
may tell us more about who the perpetrators are. So, I think 
the Council has a lot of work to do in the Lebanon area, and I 
think it's a principal part of Secretary Rice's planning and 
her negotiations, that 1559 and the Taif Agreement provide the 
guiding principles.
    Senator Coleman. And thank you. But I just want to, 
Ambassador, in closing, I've been to the United Nations with 
the chairman and Senator Voinovich, I've watched you work, I've 
visited with your colleagues. I want you to know you have my 
unequivocal, unhesitating support that we need to confirm this 
nomination, and I hope we get a chance for an up or down vote.
    Ambassador Bolton. Thank you.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Coleman.
    Now, let me mention, before I recognize Senator Feingold, 
that I've asked Senator Coleman to chair the committee. The 
Chair will need to leave the hearing for a period of time, 
starting at about 11:45. I presume the hearing is going to go 
on for a while, and I'm grateful to Senator Coleman for his 
longstanding interest in the United Nations, as well as the 
Ambassador, for taking hold, at that point.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Ambassador Bolton, welcome. I obviously don't have to tell 
you how important the position of U.S. Ambassador to the U.N. 
is today. We're looking to the United Nations to help us 
respond to some of the biggest threats to international peace 
and security, including violence in the Middle East, escalating 
nuclear crises in Iran and North Korea, growing instability in 
Somalia, and ongoing genocide in Darfur. We need the U.N. to 
serve as a forum where we can work with other nations to 
address issues that directly affect our own national security, 
and to get real results. That does mean we need to reform the 
U.N. to make it more effective and more accountable, but real 
reform will require U.S. leadership, not just brinksmanship, 
bullying, or scorn.
    Ambassador Bolton, I opposed your nomination last year 
because of your hostility toward the United Nations. Concerns 
that you had pursued a personal policy agenda while holding 
public office that led me to question whether you were really 
the best person to advance U.S. interests at the U.N. And it 
gives me no pleasure to say that your record over the last year 
has not sufficiently put those concerns to rest. It's not just 
a question of being tough, it's a question of achieving U.S. 
objectives. We need that kind of leadership now more than ever. 
It is simply not enough to blame all of our failures at the 
U.N. over the last year on bureaucratic inefficiency or 
organization ineptitude. We need an Ambassador at the U.N. who 
can deliver results.
    And my first question, Ambassador, is, sort of, taking a 
look at the record over the last year at the United Nations, I 
tend to see, time and time again, a failure to build consensus 
on a number of important issues. Let me just mention a few, 
some of which my colleagues have already mentioned: A World 
Summit outcome document that failed to include a single 
reference to nuclear nonproliferation or a definition of 
``terrorism''; a flawed Human Rights Council; lack of 
significant progress on management reform; a divisive budget-
cap deadlock, slow progress toward an effective Security 
Council on Iran; a watered-down resolution on North Korea. Let 
me ask you why we should have confidence that you will have 
more success in the future, particularly as we're facing an 
almost perfect storm of international crises that we're looking 
to the U.N. to help us address.
    Ambassador Bolton. In part, Senator, I would take issue 
with your assessment of the outcomes in some of the areas that 
you've mentioned. I think the resolution on North Korea 
unanimously adopted by the Security Council as Resolution 1695 
was a significant step--first resolution in 13 years on North 
Korea. I think we are going to get the resolution on Iran, and 
I think it will be a significant step forward to make mandatory 
the requirement that Iran suspend its uranium enrichment and 
reprocessing activities. I think that the negotiations that we 
engaged in, in the outcome document, substantially improved 
that document, and the fact that there were no provisions in it 
on arms control and disarmament was due to some fundamental 
disagreements that existed, and it certainly takes more than 
one to disagree.
    There is a process of--that's required to get the reform 
that we want undertaken, and that does require a significant 
amount of effort. I think it's significant that, while the 
scandals of the Oil-for-Food Programme, for example, had a 
profound influence on this country, in Congress and in public 
opinion, that was difficult to get the attention of many people 
to the need for sweeping reform that was revealed by the Oil-
for-Food Programme.
    I think when we had examples of procurement fraud and U.N. 
peacekeeping activities, when we looked at the continuing 
extent of sexual exploitation and abuse by U.N. peacekeepers, 
we ran into opposition with even having the Security Council 
investigate those matters.
    So, I don't, believe me, take full credit for successes at 
the U.N. I'm fully aware that a lot of the work that goes into 
those successes takes place in Washington and through our 
embassies in other capitals. But neither is the case, I think, 
that it's accurate to say--when you have the accumulated 
inertia that we see at the U.N., and the need to overcome that 
culture of inaction, that whatever success, or lack, that we 
have to date is entirely attributable to me, one way or the 
other.
    Senator Feingold. Well, and I think that's fair. But the 
question is whether the approach and the emphasis and the tone 
that you take assists us in getting those resolutions, or does 
not. And that's my main concern.
    And, just as a point, the North Korea resolution, did--as 
you well know, did not include Chapter VII sanctions, something 
that you indicated was crucial.
    Ambassador Bolton. No, I--actually, I did not indicate 
that. What I indicated, and said to the press and said in all 
the negotiations, that we wanted a binding resolution on--a 
resolution that would bind North Korea. And it's our judgment 
that that's exactly what it does. There is a lengthy and, some 
would say, theological debate about how one does that in a 
Security Council resolution. I think the conclusion we reached 
is that you look at the entire language of the resolution, and 
that--our conclusion was--and the conclusion of our friends--
and I include, specifically there, Japan, which was, of all the 
Council members, in addition to the United States, most 
concerned that that resolution bind North Korea--that we 
concluded that it did.
    Senator Feingold. Well, that surprises me a little bit. I--
it sounds like a little bit of--like an after-the-fact 
characterization. But let me move on.
    Senator Coleman alluded to this. Lately you've been quoted 
in the press talking about the pressure building in Congress to 
withhold contributions from the U.N. At this time, when we're 
working with the U.N. on a number of global crises, do you 
think the United States should pay its obligations to the U.N.?
    Ambassador Bolton. It is unequivocally the position of the 
administration to pay our assessed contribution, but I've 
worked in and studied the U.N. for roughly 25 years now, and 
I've seen, in the mid-1980s, in the mid-1990s, the 
dissatisfaction levels in Congress grow to the point where our 
assessments were withheld. And I think there is enormous 
dissatisfaction. I think it's one of the reasons why we have 
tried to persuade others of the urgency of U.N. reform, so that 
we don't find ourselves in that situation again.
    Senator Feingold. But, having said that, do you think the 
United States should pay its obligations to the U.N.?
    Ambassador Bolton. As I said about 30 seconds ago, yes, I 
do.
    Senator Feingold. All right. Getting a U.N. peacekeeping 
mission into Darfur has been a high-level U.S. priority. And I 
just want to ask why you didn't travel with other Security 
Council members to Darfur when they went to Sudan earlier this 
year. Is this some indication of the importance of the issue to 
you? If you could say a bit about that.
    Ambassador Bolton. Yeah, I had, long before the timing of 
that mission was scheduled, made a personal commitment in the 
United Kingdom. A lot of people had gone to a lot of effort to 
put that in place, and I didn't feel that I could break the 
commitment, as a matter of my personal word. Instead, I sent 
the--our alternative representative to the Security Council, 
Ambassador Sanders, who was with the delegation through its 
entire trip in Ethiopia, Sudan, and Chad.
    Senator Feingold. You're saying it was a personal 
commitment of a business nature, not a----
    Ambassador Bolton. No, no, of--well----
    Senator Feingold [continuing]. It was not a personal 
commitment, in the sense of your own family.
    Ambassador Bolton. Right, that's correct.
    Senator Feingold. All right.
    On June 19 of this year, you told the press that you did 
not see the need for an expanded United Nations mission in East 
Timor, despite the severe breakdown of the new nation's 
security forces that took place in April and May. And the next 
day, the United States voted for a Security Council resolution 
requesting a report on the role for the United Nations in 
Timor, taking into account the current situation, the need for 
a strengthened presence of the United Nations.
    How would you characterize this apparent discrepancy 
between your statement to the press and the later official U.S. 
position?
    Ambassador Bolton. Well, the--I don't know what you're 
quoting from, but I know there was a--there were statements, at 
the time, that the U.N. had left East Timor prematurely. And 
I--in response to a question, I said I didn't think that the 
current difficulties in East Timor had anything to do with the 
reason for the earlier U.N. presence in East Timor, which was 
the independent struggle from Indonesia, and made the comment 
in response to that kind of question. So, I think it was 
addressing the historical circumstances, but was not--it was 
not related to the current situation, where we are actively 
consulting with Australia and other key countries to determine 
exactly what the appropriate U.N. response is to the outbreak 
of violence in East Timor.
    Senator Feingold. Well, other questions today have had to 
do with the importance that our Government be consistent in its 
message. So, this has--this issue about East Timor relates to 
that concern. And can I----
    Ambassador Bolton. If you could show me the quotation, 
Senator, I'd be happy to take a look at it again.
    Senator Feingold. Are you talking about your quotation?
    Ambassador Bolton. Yeah.
    Senator Feingold. I will be happy to get that for you.
    But, first, I want to do a follow-up question. I understand 
that East Timor will be a focus of the Security Council in 
August to discuss the report findings and determine the 
possible need for a larger U.N. presence. If the report calls 
for an expanded U.N. force, would you support it? And what do 
you consider to be the appropriate role for the international 
community in East Timor?
    Ambassador Bolton. Well, I'd have to--I'd have to look at 
the entire report and, obviously, consult within the 
Government. I don't make these decisions on my own. I follow 
instructions from Washington. As I said to you a moment ago, 
we've been in very close touch with the Australians, 
particularly their permanent representative, who is a former 
minister of defense of Australia, to be sure that our policy is 
closely coordinated with that government, given their troops on 
the ground. And I would expect that we would want to stay in 
very close touch with them and align our policies. And I would 
expect that's what will happen.
    Senator Feingold. Thank you, Mr. Chairman.
    Senator Coleman [presiding]. Thank you, Senator Feingold.
    Senator Voinovich.
    Senator Voinovich. First of all, welcome back to the 
committee. And I wanted to thank you for your service at the 
United Nations.
    You serve at one of the most challenging, critical, and 
fragile times in our Nation's history. I think our President 
has more on his international plate than maybe any President 
since FDR. We're confronting serious national security and 
humanitarian challenges in Iraq, Afghanistan. I think Senator 
Feingold did a good job of defining what we're confronted with. 
We're now in the midst of a crisis in the Middle East, where 
Israel is battling with Hamas and Hezbollah. A cease-fire is 
being contemplated, and all that goes along with it. And 
Israel's relations with Lebanon is at an all-time low.
    And, last but not least, I think that we need to understand 
that we have a war against Islamic extremists who have hijacked 
the Quran to make people believe the jihad against us and 
people that share our values is consistent with the Quran. And 
yesterday I was really pleased that Prime Minister Maliki made 
a point that suicide, killing of women and children, is not 
consistent with Quran, and that freedom, rule of law, human 
rights was consistent with the Quran.
    And I would think that all of us should be praying to the 
Holy Spirit that he enlightens our President and other world 
leaders at this time to make good and wise decisions.
    Mr. Chairman, my position regarding Mr. Bolton's 
stewardship at the U.N. is outlined in an opinion piece that 
appeared in the Washington Post last week. I would also be 
happy to speak to any of my colleagues about the time I've 
spent talking to John Bolton in person and on the phone, and 
also the telephone conversations that I have had with John 
Bolton's colleagues on his performance at the United Nations.
    And, I think, for members of this committee to rely on a 
recent article in the New York Times as the basis for judging 
his performance is not fair, and I would suggest that they pick 
up the phone and talk with his colleagues at the U.N., as I 
have.
    And, again, I'd be glad to share those conversations that I 
had with these people that work with you, Mr. Bolton, with the 
members of this committee.
    Now, you've served as Ambassador since August of last year. 
You've faced a very difficult atmosphere at the U.N. Anybody 
representing the United States at the U.N. has got a tough job. 
I congratulate you on the success that we had on the compromise 
resolution on North Korea, with Russia and China. I think it 
was significant. In fact, this committee had a wonderful 
presentation by Chris Hill--was it last week or the week 
before?--about how significant that resolution was in getting 
Russia and China to go along with it.
    My first question is, what is your opinion on the chance 
that the P-5 and Germany will be able to agree on a strong 
resolution that will deal with Iran's defiance of the 
International Atomic Energy, the International Arms Control 
Regime, and the United Nations?
    Ambassador Bolton. Senator, I'm optimistic we're going to 
reach agreement. I had hoped we would have reached agreement 
more quickly, but, in part because of the hostilities in 
southern Lebanon, it's been a busy time, and we've had to 
juggle a number of things. But this is a priority, because we 
contemplate in the resolution that when we make the suspension 
of uranium enrichment activities mandatory, we're going to give 
Iran a brief grace period within which--yet again, to give them 
another opportunity to accept that they're going to have to 
suspend their uranium enrichment activities--after which we 
will return, as our foreign ministers have already agreed, to 
the question of Security Council sanctions. So, we're eager to 
get this in place. There's yet time for the Iranians to respond 
affirmatively to the very generous offer we've put forward. 
But, in any event, it is important to get the uranium 
enrichment activities suspended, or at least order Iran to 
suspend those activities promptly.
    Senator Voinovich. I would suggest that that's a good 
example of the multilateral approach that we've been following 
in the United Nations, and one that you have been participating 
in. I think one of the concerns that everyone had was that you 
might go up there and do your own thing and didn't understand 
how important consensus was. And I think that you've been very, 
very active in working on consensus to get things done in the 
United Nations.
    The other question that I have is the--tell me about the 
status of reforms now. Senator Coleman made some reference to 
that. The budget cap has been lifted. And the cap was lifted by 
consensus in late June. We disassociated with consensus with 
Japan and Australia. And, specifically, what is the status of 
the management reforms that Kofi Annan proposed in his report 
entitled ``Investing in the United Nations''? And I think it's 
important for everyone to understand that what he recommended 
pretty much mirrored with what George Mitchell and Newt 
Gingrich suggested. It mirrored what Paul Volcker had suggested 
after he did his investigation into the Oil-for-Food scandal. 
The proposals were blocked by the G-77. And now that the budget 
cap's lifted, is there still hope that we can achieve the 
reforms in this proposal and streamline the organizations as 
its procurement policies--and its procurement policies?
    Now, 50 countries opposed the G-77's resolution to block 
the Annan management proposal. So, that's pretty significant, 
that they were--they wanted to see those proposals go forward. 
The question now is that--now the cap is lifted--what kind of 
cooperation are we going to get from these 50 people--
countries--to move forward with these reforms that are 
absolutely necessary if the United Nations is going to be 
successful?
    Ambassador Bolton. Well, I think for many of the 50 
countries that voted with us on the management reforms, there 
was a great deal of disappointment that when we came to the 
expiration date for the expenditure cap, June 30, that we did 
not have any progress, any real progress in the mandate review 
area, and that we were stymied on the management reform front. 
We all said--we had a meeting with the G-77 a few weeks before 
that date; Japan, the United States, and Austria, which was 
then president of the European Union--and we all said 
essentially the same thing to the G-77. We wanted to see the 
cap lifted, by consensus, but we wanted substantial progress in 
management reform by June 30, and we wanted a road map to the 
end of the year as to how we were going to finish the mandate 
review.
    And the state of play now is that the expenditure cap has, 
in fact, been lifted, but we do not have--we did not make 
substantial progress, and we're still going to have to work on 
the way ahead.
    I think it's very important that we continue to make a 
maximum effort, although the expenditure cap is lifted. When we 
were in the final days of deliberation, one ambassador from a 
Latin American country very close to the United States said, 
``You know, look, the expenditure cap was necessary. We need an 
incentive to push ourselves along here. But we're going to have 
to now try and do it without the expenditure cap.'' And I think 
the--you know, the question remains unanswered whether we'll be 
successful.
    Our commitment, and I think the commitment of the JUSCANZ 
countries and the European Union and the major contributors as 
a whole, is to continue this effort.
    Senator Voinovich. So that there is a strategy to continue 
to push this. I know that the European Union did not go along 
with disassociating, as you did, but----
    Ambassador Bolton. Right.
    Senator Voinovich [continuing]. I understand, from talking 
to some of them, that they are still very much in favor of 
reform.
    Ambassador Bolton. Yes, they are. And I think that 
commitment is even stronger now, in a sense, because when they 
did dissociate, there wasn't any coinciding success that they 
could point to. So, the importance of achieving some of these 
objectives remains very high for them, for exactly that reason.
    Senator Voinovich. Is there anything that this committee 
can do to be helpful to you? I know, once, we talked about the 
possibility of getting resolutions passed in various 
parliamentary groups indicating how concerned we all were about 
the fact that reforms have been stymied.
    Ambassador Bolton. I think that's the kind of idea that 
would still be worth pursuing, if members of the committee are 
interested in doing it. You know, I've had occasion, when 
parliamentarians from other countries visit, and the--their 
permanent reps invite me and others to come and speak to the 
visiting delegation. I've been impressed, with a number of 
these visiting delegations of parliamentarians, how strongly 
they feel about U.N. reform, too. And they're concerned about 
where their contributions are being--how they're being spent 
and whether they're being spent effectively.
    So, I think, at the level of people who are actually 
elected by citizens, this concern is quite widespread, and I 
think it would send an important signal. I'd welcome any 
activity that the committee might be willing to undertake, or 
individual members, in that regard.
    Senator Voinovich. I understand that Mark Wallace is doing 
a great job up there. I know we've met----
    Ambassador Bolton. He is, indeed.
    Senator Voinovich [continuing]. I met with Mark. I was 
impressed. And, in fact, I understand he has put on a lot of 
weight attending----
    Ambassador Bolton. Diplomatic lunches and dinners, 
absolutely. [Laughter.]
    Senator Voinovich. Yeah. And I just want to make it clear 
that, from what I understand, that you and your staff have made 
an attempt to do more outreach, which is one of my 
recommendations, to get out there and meet these folks. And I 
want to express my gratitude for these efforts. I'm very 
pleased to hear that there is more communication and outreach 
going on at the United Nations, and I really sincerely hope 
that it will continue.
    Last, but not least, mandate review. The G-77 has expressed 
its opposition to the review of almost 96 percent of the 
organization's mandates, and also seems to oppose any kind of 
deadline for conducting the review. I have personally spoken to 
the Canadians and the Pakistanis, who cochair the Committee on 
Mandate Review. I feel pretty bad that the Canadian is leaving. 
I was very impressed. I spent over a half an hour with him, a 
really top-notch person, and probably some setback that he's 
walking away and--will a Canadian take his place?
    Ambassador Bolton. It has been decided by the president of 
the General Assembly that he'll be replaced by the Irish 
permanent representative. And he has already begun his work.
    Senator Voinovich. Do you want to comment on those 
negotiations? And what chance do you think that--that we're 
going to make progress?
    Ambassador Bolton. Well, the point that you made is a good 
example of some of the difficulties that we've had. In the 
outcome document in September of last year, the language we 
negotiated said that the mandate review would examine all 
mandates older than 5 years, and--that's what it said, all 
mandates older than 5 years--on the theory that that was a 
manageable undertaking, not really realizing, then, it would 
encompass something like 9,000 mandates. But the G-77, after we 
agreed to that, interpreted that language as saying all 
mandates older than 5 years that have not been renewed within 
the last 5 years. And, because General Assembly resolutions 
tend to repeat themselves and reaffirm other resolutions, it 
turned out that 93 percent of the mandates older than 5 years 
had been reaffirmed within the last 5 years, which means, if 
you bought the G-77 interpretation, 150 heads of state----
    Senator Voinovich. Well, can I ask you something? Why is 
the G-77 doing what they're doing? Explain it to us.
    Ambassador Bolton. Well, I think it's--I wish I could give 
you an answer that covered it completely, but I think, in part, 
because the way--there's a level of satisfaction with the way 
things are going that says, ``We don't really have a problem 
here, we don't really need to change, we're satisfied with the 
way things are, we're a little worried about what the 
differences might be.'' We have made the argument to them that 
if we could make the U.N. stronger, more effective, more 
transparent, more efficient, that, in a way, it would be a 
strong inducement to the United States to turn to the U.N. more 
often for problem solving, but that the failure to make these 
reforms happen is an impediment to us doing that. So that, 
ironically, what we see is that many of the people--many of the 
governments most critical of the United States for not turning 
to the U.N. more often are exactly the governments that are 
standing in the way of reform.
    We've tried to make the point that reform is in everybody's 
interest. This is not just a U.S. priority. This should be a 
priority for everybody, as it was on the management side with 
the Secretary General. And it's--I think the point is correct, 
and I think we need to keep making it, because I'm hopeful 
we'll be persuasive.
    Senator Coleman. Senator Voinovich, your time is expired.
    Senator Boxer.
    Senator Boxer. Thank you very much.
    Thanks, Mr. Bolton, for being here--Mr. Ambassador.
    I just want to talk about this particular argument that 
we're having over this nominee and whether to confirm him, 
because I think it's important to note that Senator Voinovich 
has changed his views, but he didn't--he voted to bring this 
nomination to the floor, so it really hasn't changed, in terms 
of this committee's vote. I just--unless others have changed. 
And I really haven't talked to anybody else.
    And I also want to make a comment about this argument that 
Senator Coleman makes about continuity. And I have to say this 
as clearly as I can. I think this argument is reflective of a 
very weak and subservient Senate, because, regardless of who is 
the President, be it a Republican or a Democrat, what kind of 
message are we sending?
    Senator Dodd, in a very respectful and clear way, pointed 
out that the issues a lot of us had are still there. Now, maybe 
Mr. Bolton would help us get the information we need, but, as 
of this point, he's--maybe he's trying to; it's beyond his 
ability to deliver--but the fact is, this administration wants 
this particular candidate confirmed. We still haven't gotten 
the answers to our questions. The problems prevail. And now 
we're going to have another debate now. So, here's the message: 
continuity. Continuity. So, it sends to any future, and 
certainly to this administration--and, again, whether 
Democratic or Republican--``Simply pick whoever you want, and 
then come back in a few months and argue continuity.'' I mean, 
what does this say about the balance of powers and the 
separation of powers? So, it goes beyond Ambassador Bolton. 
He's just a particular person now that's caught up in this 
situation.
    I want to talk about Iraq, because I'm very troubled by so 
many things that are happening there, in addition to the 
problems on the ground.
    When you were asked by Senator Chafee, ``What's key to 
reshaping the Middle East?'' you--I thought you had a good 
answer. Your first response was, ``We need countries there that 
are with us in the war against terror. They have to renounce 
terrorism.'' And that goes, certainly, to what President Bush 
said right after 9/11, quote, he said, ``All nations, if they 
want to fight terror, must do something. A coalition partner 
must do more than just express sympathy, they must perform. 
You're either with us or against us in the fight against 
terror.'' Now, let's remember that, because it's a very clear 
statement and a very forceful statement.
    Now we have spent hundreds of billions of dollars in Iraq, 
sacrifices are enormous, more than 19,000 now wounded, many of 
them severely wounded, and past 2,500 dead. And we have as your 
stated goal that all our allies in the world with whom we're 
going to even have relationships, let alone give tens of 
billions of dollars, hundreds of billions of dollars to, have 
to renounce terror. And we have the prime minister saying about 
the situation in Lebanon today--he called actions of Israel 
against Hezbollah, quote, ``beyond a catastrophe. It violates 
everything the international community can be based on.'' And 
he said he couldn't find any justification for what Israel is 
doing. And, further, ``We call on the world to take quick 
stance to stop the Israeli aggression,'' which our President 
has said very clearly what Israel is doing--and we all, I 
think, agree; I haven't heard anyone disagree--taking on 
Hezbollah is defending yourself. And we all agree that 
Hezbollah is a force for terror.
    So, now we have this situation. And it's not as if this is 
just someone with whom we have relationships--this is someone 
who appears before a joint session and asks us for more and 
more money to rebuild, et cetera. The monthly cost of the war 
has gone up to 8 billion. The estimated number of insurgents 
has gone from 3,000 to 20,000. Insurgent attacks have gone from 
5 a day to 90 a day. Incidents of sectarian violence, which the 
prime minister never really referred to, have gone from 5 per 
month to 250 per month. And Iraqis optimistic about the future 
have gone down from 75 percent to 30 percent. And the prime 
minister can't use the word ``Hezbollah.'' Now, some members 
met with him in private, and I think, reading between the 
lines, he--he never said ``Hezbollah.''
    Now, Tony Snow, the President's spokesman, when asked about 
it, said something to the effect of, ``Well, he's not our 
puppet.'' That's true. But then, why do we have to give them 
tens of billions of dollars? Did the President's words mean 
anything when he said, ``You're either with us or against 
us''----
    And then it goes further than that. That's mild compared to 
the other part of the government, the speaker of the parliament 
over there in Iraq, who the President thought he had a nice 
relationship with. And I'll quote from an article in the Review 
of Books that I'll make part of the record, if I might, Mr. 
Chairman.
    Senator Coleman. Without objection.
    Senator Boxer. Thank you.
    [The information previously referred to follows:]

               Section 5 of the New York Review of Books

    While I was in Iraq in June, American forces killed Abu Musab al-
Zarqawi and, on the same day, Iraq formed its government of national 
unity. President Bush greeted these developments with unusual restraint 
and announced he was convening a two-day Camp David summit to review 
his Iraq strategy. Any hopes that there would be a serious rethinking 
of Iraq policy were dashed when it turned out that the summit was 
really a ruse so that Bush could fake out his own cabinet by appearing 
on a videoconference from Baghdad when they expected to see him at the 
presidential retreat for breakfast. The President was so impressed with 
his own stunt that he had the White House press office put out the word 
that Iraqi Prime Minister Nouri al-Maliki had only five minutes' notice 
of his arrival, not understanding that this undercut both Maliki and 
Bush.
    On his return, Bush held a press conference during which, it 
seemed, he could barely contain his enthusiasm. In response to a 
question about progress in providing electricity, producing oil, and 
controlling violence, he swerved into a discussion of his encounter 
with the speaker of Iraq's parliament, Mahmoud al-Mashhadani. The 
President didn't seem to recall his name but readily remembered his 
religion:
    The Sunni--I was impressed, by the way, by the Speaker--Denny 
Hastert told me I'd like him; Denny met with him. And I was impressed 
by him. He's a fellow that had been put in prison by Saddam and, 
interestingly enough, put in prison by us. And he made a decision to 
participate in the government. And he was an articulate person. He 
talked about running the parliament. It was interesting to see a person 
that could have been really bitter talk about the skills he's going to 
need to bring people together to run the parliament. And I found him to 
be a hopeful person.
    They tell me that he wouldn't have taken my phone call a year ago--
I think I might have shared this with you at one point in time--and 
there I was, sitting next to the guy. And I think he enjoyed it as much 
as I did. It was a refreshing moment.
    The incurious White House press corps never asked the obvious 
question: Why had the United States jailed al-Mashhadani? According to 
Sunnis and Shiites at the top levels of government in Iraq, al-
Mashhadani was a member of, or closely associated with, two al-Qaeda-
linked terrorists groups, Ansar Islam and Ansar al-Sunna. The first 
operated until 2003 in a no man's land high in the mountains between 
Iraqi Kurdistan and Iran while the second has been responsible for some 
of the worse terrorist attacks on Iraq's Shiites and Kurds. The Iraqis 
say they gave the Americans specific intelligence on al-Mashhadani's 
affiliations with those groups and his actions in support of 
terrorists.
    None of this seems to have mattered to a president who is as casual 
in his approach to national security as his defense secretary. At the 
same press conference Bush repeated that ``the American people have got 
to understand that Iraq is a part of the war on terror.''--July 12, 
2006

    Senator Boxer. Just this month, this is the President 
speaking, ``The Sunni--I was impressed by the way--by the 
speaker. Denny Hastert told me I'd like him. Denny met with 
him, and I was impressed with him, and I found him to be a 
hopeful person. They tell me that he wouldn't have taken my 
phone call a year ago. I think I might have shared this with 
you at one point in time. And there I was sitting next to the 
guy, and I think he enjoyed it as much as I did. It was a 
refreshing moment.''
    Now, this was a refreshing moment with this particular 
individual, and I'm going to get his quotes in a minute. Here 
it is. This pleasant person, who Denny Hastert liked, who the 
President enjoyed and it was refreshing, said, ``I personally 
think whoever kills an American soldier in defense of Iraq 
should have a statue built for him in that country. We know 
there was a corrupt regime in Saddam,'' he says, ``but a regime 
should be removed by surgery, not by butchering. The U.S. 
occupation is butcher's work under the slogan of democracy and 
human rights and justice.''
    So, this policy in Iraq, which my colleagues on the other 
side--and not all of them; most of them--always equate with the 
central war on terror, has leaders in Iraq who won't condemn 
Hezbollah, and, worse yet, condemn the country that's leading 
the fight against Hezbollah, and call our soldiers 
``butchers.'' And it's no wonder we have a hard time winning 
support around the world, because our words don't mean 
anything.
    Now, Mr. Bolton, this has nothing to do with you. I'm not 
putting this on you. As a matter of fact, I'm saying to you, 
you've got a tough job here. But I don't know how we say that 
``you're with us or against us on the war on terror,'' and then 
we sit quietly by and have a congressional address by someone 
who's--part of his government called our soldiers ``butchers,'' 
19,000 of whom are coming back deeply wounded, a third of whom 
are coming back seeking treatment for mental health problems, 
2,500 will never come back. Our foreign policy is hollow. And 
it just doesn't pass the test.
    And I want to change the subject from Iraq, because I want 
to ask you about Darfur, because I can't pin any of what I said 
on you, and I don't intend to.
    I want to talk to you about Darfur, because I know you 
believe it's a tragedy going on over there, and I'm sure that 
you have said--and I just want to make sure you have said--that 
it is, in fact, a genocide--would you agree with that?
    Ambassador Bolton. I did earlier this morning, yes.
    Senator Boxer. Thank you for that. I think that's very 
important.
    Well, I want you to help me with something, since we 
haven't ever really worked together. Maybe this gives us a 
chance. We heard that you had another engagement, and you 
couldn't go over to an important conference. And I've seen the 
list of who went from other countries. Most of them sent their 
number-one, like you would have been the number-one, or their 
number-two. We sent number-three. But I'll put that aside, 
because I want to tell you that many of us have been calling 
for a special envoy. And Senator Murkowski--Lisa Murkowski and 
I got together and thought--we need emissaries. This would be 
short of an envoy, this would be people who would just care 
about this issue from morning, noon, to night, go around the 
world, get this issue before the world, get countries to step 
up to the plate and give their contributions, help put pressure 
on other countries. It would really help you do your work, 
because, as you said, we're having trouble getting our policy 
through.
    So, quickly let me tell you what we did. We sent a letter 
to the President on May 30. This was a bipartisan letter--Lisa 
Murkowski and myself. ``Genocide in Darfur has resulted in an 
estimated 400,000 deaths, displacement of 2.5 million people. 
We share your view, Mr. President, that America cannot turn 
away from this tragedy. Two of Dr. Martin Luther King's 
children, Bernice King and Martin Luther King III, have 
generously embraced the idea of serving your administration in 
a way that would heighten worldwide awareness of the tragedy, 
compel foreign governments to increase aid, and bring hope to 
those who are suffering. We appreciate Deputy Secretary of 
State Robert Zoellick's tireless efforts to address this 
crisis. It is our hope that Bernice and Martin, as U.S. special 
emissaries, can complement the important work being done.''
    I was so excited with this. So, that was May 30. So, we get 
a letter back several months later. Do you have a copy of that 
letter? Because I put it somewhere. Thank you. On June 13. So, 
that was fine. Three weeks later. Although I had personal 
conversations with people to try and move it ahead. And this is 
what it says, ``On behalf of the President, thank you for 
recommending Bernice King and Martin Luther King for 
appointment as U.S. special emissaries to Darfur. So that we 
have the appropriate background and contact information, please 
have Mr. and Ms. King complete the presidential personnel 
application located at www.whitehouse.gov. We appreciate your 
recommendation. We are always searching for people,'' and so 
on.
    So, I am perplexed at this. It seems like it's being 
treated as if it's just some other application by someone who 
wants to intern at the White House. So, I went up on 
www.whitehouse.gov, and I came back with, you know, 10 pages. 
And I can tell you that Lisa Murkowski and I really wanted this 
to happen, and we were excited about it. Would you help us 
here? Would you see if you can contact Lisa Wright, Assistant 
to the President for Personnel, and see if perhaps we can get a 
little bit of a higher-level interest in what we think--Senator 
Murkowski and I--is a good idea to show the world how important 
it is. Martin Luther King's children, I think, would send a 
very strong signal.
    Ambassador Bolton. Well, I will certainly do that, and also 
talk to the people at State to whom that letter probably should 
have been directed. Obviously, it didn't get to the right 
place. But I appreciate your interest in the subject. And it's 
a serious one. We do take it extremely seriously, and I will 
pursue this letter.
    Senator Boxer. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Coleman. Thanks, Senator Boxer.
    Senator Martinez.
    Senator Martinez. Thank you, sir.
    Ambassador Bolton, welcome back. I'm very proud to have 
staunchly supported your nomination by President Bush, and I 
continue to do so. I'm more reassured now, not only by the need 
for continuity, which I think is an important circumstance, but 
really, more important than that, by what has been your 
performance.
    I think, first of all, you have been a resolute and clear 
spokesperson to advance the President's foreign policy. And, at 
the time, we have only one President, we have only one foreign 
policy. It is this President's foreign policy. And you have 
been an astute and strong advocate for that.
    Second, I also want to commend you for your very strong 
efforts and your performance on the issue of United Nations 
reform. It is, indeed, necessary for the world. We need a 
strong United Nations. And your efforts in that regard, 
incomplete as they are, but ought to be commended for the way 
in which you've handled that.
    And, third, I want to, again, commend you for your 
performance and the way that you've conducted yourself 
personally. I think you've been someone that I think our Nation 
can be proud of in the way in which you have handled yourself. 
And I think many of those who question many things about you 
personally, questions that I didn't share, should be now more 
than laid to rest by what has been, I think, a sterling 
diplomatic performance by you in the time that you've been in 
the United Nations.
    Let me ask you, now, on substance, a couple of questions. 
One is on the issue of the Middle East, that very troubled 
region. And I know that in one of the new things for which 
perhaps some would suggest your confirmation might not be 
appropriate is the issue of United Nations Resolution 1559. 
Perhaps you could enlighten us by a little bit of the history 
of that resolution--when it came about, was it under your 
tenure that it was negotiated, or, if not, what you've done, in 
terms of advancing that, while, at the same time, what 
difficulties are there in the implementation of 1559? In other 
words, is it the blame of the United States Representative to 
the United Nations that that resolution has failed in its 
implementation? Or are there other actors and players who would 
have a greater share of responsibility for its failure in 
implementation over the last year or two?
    Ambassador Bolton. Thank you, Senator. The 1559, as I think 
I mentioned, was adopted by a vote of 9 to 0 to 6--Russia, 
China, and Algeria, which was then a member of Security 
Council, being three of the countries that abstained. So, what 
that indicated was that it passed only very narrowly, but in 
response to the outcry over the assassination of former 
Lebanese Prime Minister Hariri, and the determination of--
expressed in demonstrations in Beirut and elsewhere, that the 
Lebanese people wanted to have a--that wanted to have an 
independent government, independent of Syria, independent 
democratic government.
    The difficulties that have attended the implementation-in-
full of 1559 have been largely because the Government of Syria 
has not complied with the resolution, case after case after 
case. They have withdrawn, almost entirely, their military, as 
1559 required, but there are many other aspects where they've 
not, and it has been a continued subject of our efforts, both 
in the Security Council and elsewhere, to push for 1559 being 
fully complied with. And I would also, there, link Resolution 
1595, which is the--created the Independent International 
Investigatory Commission to help the Lebanese Government 
investigate the Hariri assassination, another situation where 
the Government of Syria has failed to comply fully.
    So that our efforts, both in the Security Council and 
elsewhere, have largely focused on this intransigence on the 
part of Syria, their unwillingness to go ahead, because to do 
so would mean they would have to give up their control over 
Hezbollah. Hezbollah would have to make the choice that it 
would be a legitimate political party, give up its military 
capability, and thus dramatically reduce, if not eliminate, 
Syrian influence inside Lebanon.
    So, to the extent that countries like Iran, in particular, 
continue to support Syria in its intransigence, and to the 
extent that other members of the Perm-5 aren't fully on board, 
that remains a problem.
    But I think this is one of the areas where, incomplete 
though it is, this is a representation of what can be done in 
the Security Council with American leadership and with the 
close cooperation of our allies, particularly France, and also 
with the United Kingdom.
    Senator Martinez. Just one more comment on the Middle East. 
You were also asked about shaping of the Middle East, words 
that were not used by you, but which I'm sure we all share in 
the desire to shape the Middle East. And would it not be 
essential, for there to be a future peace in the Middle East, 
for all the actors and players to recognize Israel's right to 
exist in peace?
    Ambassador Bolton. That's an absolute fundamental. And it 
was on the basis of that acknowledgment, that recognition, that 
Israel was able to achieve peace with both Egypt and Jordan 
over a long number of years. Syrian occupation of Lebanon 
prevented reconciliation with Lebanon, and Syria itself 
remains, at least among those states bordering Israel, the 
principal holdout. But certainly one of the objectives I think 
we should all be seeking here, given the turmoil in southern 
Lebanon, is that we come to a situation where the 
implementation of 1559 and the extension of full control over 
Lebanese territory by a democratic government provides the 
basis on which Lebanon and Israel can reach a peace agreement. 
That would leave us with Syria among the directly-bordering 
countries, but also, obviously, with Iran, which, at a 
distance, remains implacably opposed to Israel, their president 
having recently called for Israel to be wiped off the map.
    But these are all important steps in getting to that 
ultimate objective.
    Senator Martinez. In the interest of my time remaining, I 
want to just simply mention my commendation and congratulations 
to you for your role in the very important resolution of the 
Security Council passed under your leadership condemning North 
Korea, in a 15-to-0 vote, which I think, in today's climate and 
in recent history, to do that, I think, is a major 
accomplishment, and I commend you for your success in that, 
which I think also should be a proud part of your performance 
at the U.N.
    Speak, if you will for me, on the issue of humanitarian 
assistance to the people of Lebanon. We all are saddened by the 
destruction and the human suffering there, as we are by the 
suffering in Israel, as well, particularly in the city of 
Haifa, where we see destruction and death and maiming and 
sadness. How will we collaborate on that? And if you've already 
touched on that, maybe I'll just move on to something else.
    Ambassador Bolton. Well, two things. We have authorized the 
provision of some $30 million in assistance, but, more broadly, 
we're now working in New York, in the Security Council, and in 
the region--Secretary Rice has been leading this, as well--to 
establish conditions under which humanitarian assistance can be 
provided to Lebanon through humanitarian corridors, such as has 
been suggested by the U.N. Secretariat, accepted by Israel, 
obviously accepted by Lebanon, as well. We need to--having 
achieved the political agreement on this, need now to implement 
it, and we're working on that, both in New York and in other 
agencies of the U.S. Government, as well, to get that 
humanitarian assistance in, even as the hostilities continue.
    Senator Martinez. The Human Rights Council of the United 
Nations was reshaped. I know we were not happy with the 
outcome. Can you tell us your vision of what would be an 
appropriate Human Rights Council, what it is that we're trying 
to achieve in a Human Rights Council, and what is the outlook 
for true reforms of this body that could really include an 
agenda that's vigorous and that perhaps does not include in the 
membership some of the very culprits of the most serious human 
rights abuses in the world?
    Ambassador Bolton. Well, it was the failure of the 
resolution, that created this new Human Rights Council, to 
really achieve the central objective that we sought, which was 
reshaping the membership of the council, that led us to vote 
against it. We did not think that the resolution creating the 
new council really did enough to keep some of the worst abusers 
of human rights off the council. And not just the worst 
abusers, but countries that didn't really share the commitment 
we and many other developed countries had to using the Human 
Rights Council as an effective instrument on a country-specific 
basis.
    We did not achieve the objective of getting a requirement 
that members to the council be elected by a two-thirds vote of 
the General Assembly. We did not--we were not able to persuade 
others that it ought to be an automatic disqualification 
against serving on the Human Rights Council for any country 
under Security Council sanctions for human rights violations or 
support for terrorism. We could not persuade a majority of the 
countries to accept even that.
    And I think the consequence of those decisions, and a 
variety of others, meant that the mechanisms for selection of 
members to the new council were not going to be sufficiently 
different from the old commission. That's why we voted against 
it.
    We do--we are continuing to work on human rights. We've 
tried to work, even though not a member of this council, to try 
and make it a success. I've noted in my prepared remarks that 
we're disappointed at the early returns. We're going to 
continue to work, but we've not made a decision, ourselves, 
whether to try and seek election to the new council next year 
or not.
    Senator Martinez. I see my time is up. I just want to thank 
you for your continued desire to serve. And having sat in those 
chairs while members of the Senate come and go, I understand 
what a long morning it can be, so I appreciate your time and 
your willingness to serve our Nation.
    Ambassador Bolton. Thank you, Senator.
    Senator Coleman. Thank you, Senator Martinez.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Welcome, Mr. Ambassador. Did the resolution regarding North 
Korea that Senator Martinez referenced include economic 
sanctions under Chapter VII?
    Ambassador Bolton. Under our definition, not sanctions, as 
directed against the economic activity broadly in North Korea, 
but it did contain two requirements on all member governments, 
that they not cooperate in any way with the--not only the North 
Korean ballistic missile program, but also its nuclear, 
biological, and chemical weapons program--that governments 
neither supply those programs nor procure from those programs. 
That is a form of sanctions, but it was mostly intended not 
for--not to impose economic pressure on North Korea, but to cut 
off those weapons programs from outside assistance.
    Senator Nelson. Did the United States initially try to get 
the Chapter VII sanctions?
    Ambassador Bolton. We did not. Those were basically--those 
provisions, plus the requirement that North Korea suspend all 
of its ballistic missile activity, were the principal 
objectives we started out with. And we achieved those.
    Senator Nelson. Japan, however, was asking for economic 
sanctions, meaning that the resolution did not meet the goals 
that the Japanese initially sought.
    Ambassador Bolton. One of their original thoughts--I mean, 
this was--you have to--I'm sure you do remember, in the July 
5--indeed, during the day on July the 4--our time, July 4; July 
5 in the Pacific--I was on the phone probably a dozen times 
with my Japanese counterpart, trying to share information with 
him about these ballistic missile launches as they took place. 
And he and his government were considering a variety of things, 
as was our Government. So, we looked at a whole range of 
things. When we went in--when we went in----
    It's a little distracting.
    I suppose, Senator, when----
    Senator Nelson. I've seen a lot of things interpose----
    Ambassador Bolton. I'm not responsible for this, I might 
say. I'm not responsible for this. [Laughter.]
    Senator Nelson [continuing]. Interpose between the 
questions and the witnesses, but I've never seen this.
    Ambassador Bolton. This is a form of transparency, I 
suppose. [Laughter.]
    Senator, we--the--being, obviously, serious----
    Senator Nelson. But I'm glad that's not right over here. 
[Laughter.]
    Ambassador Bolton. Well, it's right in the middle. I 
suppose that's the best it could be.
    Senator Coleman. Senator Nelson, we'll have the witness--
we'll have the Ambassador respond to this question, and then 
we'll suspend for a couple of minutes, so we get a sense of 
what's going on here.
    But, Ambassador Bolton, you can finish your response.
    Ambassador Bolton. No, we--it's certainly the case, 
Senator, we considered a number of possible options, and, in 
close consultation with Japan, came to the conclusion that we 
would proceed with a resolution along the lines that they took 
the lead on.
    Senator Nelson. This is not going to distract me, if it's 
all right with you.
    Ambassador Bolton. I'm fine, Senator. [Laughter.]
    Let's go.
    Senator Coleman. As long as we can keep the buckets coming, 
we can----
    Senator Nelson. All right.
    Senator Coleman [continuing]. The hearing can proceed.
    Senator Nelson. Well, those two buckets will catch most of 
it, so let's continue. [Laughter.]
    Going back to the same matter--on July the 14, the day 
before the Security Council acted, you said that the United 
States continued to insist on a resolution under Chapter VII, 
which would have made the sanctions mandatory for the U.N. 
member states.
    Ambassador Bolton. But, Senator, I would just say, before 
we get rained out. [Laughter.]
    The purpose of a Chapter VII resolution is not necessarily 
only sanctions. Chapter VII is the chapter of the U.N. charter 
that deals with the Security Council's special responsibility 
for the maintenance of international peace and security. And 
resolutions under Chapter VII are deemed binding on all 
members.
    That's what we wanted, and it's our judgment that's what we 
achieved, even though there's not a specific reference to 
Chapter VII in the text of the resolution, because you have to 
look at the entire text of a resolution, not necessarily a few 
specific words.
    Senator Nelson. Well, I just want to clarify the record 
here, because on that day you stressed the importance, and I 
quote, ``of a clear, binding Chapter VII resolution. That 
remains our view, and the view of Japan.'' You then went on to 
warn that, quote, ``If there is to be a veto, there comes a 
time when countries have to go into that chamber and raise 
their hand,'' end of quote.
    Do you want to square that with what happened here?
    Ambassador Bolton. Right. The final text of the resolution 
does not include a reference to Chapter VII, as such. There's 
no question about that. But it was our judgment, the judgment 
of the French, the British, the Japanese, and other 
delegations, that, in fact, you don't need to use those precise 
words to get a binding resolution. And that's how we construe 
it, and we made that explanation--we went through that analysis 
in our respective explanations of the vote.
    Senator Nelson. All right.
    Mr. Chairman, I'm going to broach one more subject, and 
then I'll stop. I appreciate the fact that you have been here 
for a long time.
    Two months ago Russia and China blocked action in the U.N. 
against Iran's nuclear program, and in deference to the Russian 
and Chinese concerns, the United States and the European Union 
agreed to give diplomacy another chance, even though Iran has 
clearly been stalling for time.
    Administration officials have stated that Russia and China 
had promised to back some of the limited U.N. measures against 
Iran if Tehran declined to negotiate. You said, and I quote, 
``If the Security Council can't deal with something like the 
Iranian nuclear weapons program, then it's hard to imagine what 
circumstances the U.N. charter contemplated the Council would 
be involved in.'' Everyone, of course, remembers the timeline. 
In early March, the issue was referred to the U.N. Security 
Council by the IAEA. The July 12 deadline for Iran to stop 
enriching uranium came and went with no response. The Iranians 
said that they will respond by August 22.
    Many of us have been calling for Security Council action on 
Iran for a long time, and your work at the U.N. Security 
Council is an integral part of the international effort to end 
Iran's nuclear program. Secretary Rice was able to get the 
Chinese and the Russians to support an international offer of 
incentives and disincentives, but it appears that there isn't 
any progress on a meaningful resolution at the U.N. Security 
Council. This Senator believes that a resolution that asks the 
Iranians to stop enriching uranium, but that has no teeth is 
meaningless.
    You have the reputation as being the tough guy who can 
solve these issues, and yet it seems like the Russians and the 
Chinese are getting their way with you. So, if you could please 
respond--is the U.S. going to settle for a resolution on Iran 
that does not include sanctions under Chapter VII of the U.N. 
charter?
    Ambassador Bolton. Senator, what the foreign ministers of 
the five permanent members and Germany agreed to in Paris a 
couple of weeks ago was a two-step process in the Security 
Council. The first step would be a resolution that would make 
mandatory the requirement that Iran suspend all of its uranium 
enrichment and plutonium reprocessing activities, and give the 
Iranians some period of time--let's say a month--within which 
they had to come into compliance with the resolution. That was 
step one.
    Step two, if the Iranians failed to do that, then the next 
step would be to go to economic sanctions, which we would have 
to discuss at that point.
    We are, I judge, very close to agreement on a resolution 
that would embody the first step. In fact, Tuesday night we had 
agreement among the five permanent representatives in New York. 
Obviously, we had to go back to our capitals to get final 
approval on it, and--but we thought we had it, and it turned 
out, yesterday, we did not. I'm hoping that we can either wrap 
that up today--depending on how long your hearing goes on, we 
might be able to wrap it up today, or certainly Ambassador 
Sanders is continuing to work on it. But I think we're very 
close on that first resolution, the first of the two steps.
    But it is very important that we make it clear to Iran and 
to all U.N. members that that requirement for suspension of 
uranium enrichment activities be binding. And that is our 
intention. That's the intention of the--what we call the EU-3 
countries. And we're very, very firm in that resolve.
    Senator Nelson. I hope that you reach an agreement quickly 
because, in the meantime, Iran continues to reprocess uranium.
    Ambassador Bolton. Well, it's--there's no doubt the 
Iranians, over the last 3 years, have used diplomatic 
negotiations as a cover under which they have advanced their 
mastery over the entire nuclear fuel cycle. And I think that's 
one reason why we do feel a sense of urgency about that, that 
it's important we try and get the maximum pressure we can on 
Iran if they choose not to accept this very generous offer that 
the EU-3 and the rest of us have made to them. It's an 
extremely serious problem. There's just no doubt about it.
    Senator Nelson. Mr. Bolton, I want you to get tough with 
the Chinese and the Russians.
    Ambassador Bolton. I will be pleased to carry out that 
instruction, Senator.
    Senator Nelson. Thank you.
    Senator Coleman. Thank you, Senator Nelson.
    Senator Obama.
    Senator Obama. Thank you, Mr. Chairman.
    Mr. Bolton, sorry for the distraction here.
    Ambassador Bolton. It's coming in my direction, too.
    Senator Obama. I will--I'll try to make my questions brief. 
I know you've been here----
    Senator Nelson. Let's hope it's rainwater and not something 
else. [Laughter in observation of a water leak from the 
ceiling.]
    Senator Obama. Okay, thank you for pointing that out, 
Senator Nelson. [Laughter.]
    With that encouragement, let me proceed.
    You know, last year, Mr. Bolton, we had a hearing in 
October, and we talked a little bit about the use of voluntary 
financing, as opposed to mandatory assessments, as a tool to 
extract cooperation at the U.N. And you mentioned two examples, 
UNPD and UNICEF, as being effective organizations, in part 
because they function as voluntary agencies. And, you know, 
when we start talking about our budget requests, last year they 
had cut funding for these two programs, despite the fact that 
you had pointed out that they were effective because 
voluntary--or voluntarily financed. And you said, and I'm 
quoting here, ``I certainly intend to get into it in the next 
budget cycle. I think it can give us a lot of assistance and 
provide argument for other countries to show that this is not 
simply a charade behind which we want to reduce budgetary 
contributions, but a way in which we want to more sensibly 
contribute to agencies that are effective.''
    I'm looking at the fiscal year 2007 budget request. You've 
been in New York a year, so presumably you've had something----
I just felt something coming down on me. Let me scoot over 
here. [Laughter.]
    Ambassador Bolton. You can come over and sit with me, 
Senator. [Laughter.]
    Senator Obama. Yeah, exactly.
    But here's the thing. This year's budget request seems to 
contain a similar result, which is a cut to UNICEF and UNPD. 
So, I'm wondering if you can explain that and how you're 
thinking about it. And I'm going to move way down here. 
[Laughter.]
    Go ahead.
    Ambassador Bolton. Well--although my last name is Bolton, 
it's spelled ``ton'' and not ``ten.'' I was not director of OMB 
at the time. And, you know, there are a lot of factors that go 
into budget decisions. And it's simply--it's a fact of life, in 
budget decisions, that you can't meet all of your priorities. 
But I would say that the question of assessed, versus 
voluntary, contributions as a mechanism of funding, and of 
possible greater utility to the United States, is still 
something that we're looking at. We have not devoted--we have 
not concluded our review in that regard, in part because we've 
been consumed with the mandate review and the management reform 
processes. But these remain important areas of concern for us.
    Senator Obama. Well, I guess the problem that I have--and 
we had this exchange before--the broader context of the debate 
between mandatory and voluntary dues has to do with the degree 
to which we feel that we are exerting leverage over an 
organization that we think is sometimes dysfunctional and the 
possibility of earmarking, essentially, our dollars to areas 
where we feel we've got some confidence. But isn't it important 
to our diplomatic efforts on the reform--on the U.N. reform 
issue, that we recognize that--well, let me ask the question 
this way. If we are consistently cutting our budget at the same 
time as we are demanding reforms, aren't we, to some degree, 
undermining our leverage precisely at a time when we'd like to 
expand it? It seems to me that it actually hampers or 
hamstrings your ability to gain credibility with the other 
potential partners in reform.
    Ambassador Bolton. Well, I think one of the things that we 
are doing is expanding our voluntary contributions in some 
other areas. For example, in the U.N. Democracy Fund, which is 
a new initiative, an initiative of the President's, we've 
supplied $18 million out of the $49 million that are currently 
in the fund, and we've put up additional money in the area of 
HIV/AIDS and the U.N. AIDS Program, which is essentially 
voluntarily funded. So, the record may not be entirely perfect, 
I grant you that, but, in several critical respects, we have 
increased our voluntary funding along the lines that you 
suggest.
    Senator Obama. Just to follow up on the issue of reform, 
there have been some reports that we have allied diplomats, 
countries that at least say they're interested in reform, that 
would indicate that there are still concerns that you have a 
tendency to produce amendments and demands at the 11th hour, 
pushing to reopen negotiations that have been painfully 
concluded, World Summit outcome development--World Summit 
outcome document, Human Rights Council. And I'm just 
wondering--maybe you've already commented on this, but I'm just 
curious as to why we're getting those reports. Is it your 
assertion that these are simply recalcitrant countries that 
don't want reform or--what do you think accounts for that?--I 
mean, when you've got 30 ambassadors, all of whom say they 
share the U.S. goals of management reform, expressing some 
misgivings about your leadership.
    Ambassador Bolton. Yeah, 30 anonymous ambassadors. You 
know, I did mention, before you came in, that----
    Senator Obama. And I apologize. I haven't been here the 
whole time, so----
    Ambassador Bolton. I understand entirely.
    Senator Obama [continuing]. I don't want to----
    Ambassador Bolton [continuing]. That a number of 
ambassadors came to me after that article appeared and said 
they thought it was outrageous, that they couldn't understand 
why the reporter hadn't talked to them. But I don't--you know, 
I don't think that's the measure. I respect the other 
ambassadors. I deal with them on a professional basis. I think 
they deal with me on a professional basis.
    I would like to just comment on one point, though, and 
that's this notion that--about coming in at the last minute 
with amendments and whatnot. You mentioned the outcome document 
in the--from the September summit. And, you know, that was a 
situation, when I came in, where the United States had been 
pressing a large number of amendments, for quite some time, 
very similar to the amendments that I circulated. But because 
of the way the negotiations were being conducted, those 
amendments were not being accepted. The real change that I made 
was moving away from the so-called facilitator process, where 
you, sort of, submit your amendments and hope the facilitator 
writes them in, to a process of direct international 
negotiation.
    And I'd ask--Mr. Chairman, with your permission, I just 
want to read one paragraph from a letter written to Chairman 
Lugar by Thomas Schweich, who's currently the Principal Deputy 
Assistant Secretary for International Narcotics and Law 
Enforcement Matters. Tom Schweich was at USUN when I arrived, 
on August 1. He's a former chief of staff to Senator John 
Danforth, who was the Permanent Representative before me, and 
he--it's a nice letter. I'm only going to read one paragraph 
that deals with the outcome document.
    Senator Obama. Go ahead.
    Ambassador Bolton. As I say, Schweich was there from--Tom 
Schweich was there from the time Senator Danforth arrived until 
I arrived, and stayed on until he came down to the Department.
    And the letter from Tom Schweich says, and I quote, ``While 
Ambassador Bolton received a good deal of media criticism for 
allegedly trying to,'' quote, ``change the deal,'' close quote, 
``at the last minute with respect to the terms of the outcome 
document drafted for the World Summit on U.N. Reform in 2005, 
this criticism is without merit. In fact, Ambassador Bolton did 
nothing more than make public and transparent a lengthy series 
of objections that the State Department had raised and had been 
negotiating for several months prior to Ambassador Bolton's 
arrival. I had been personally and directly involved in those 
negotiations.''
    So, the--you know, that's where this started with the 
outcome document. You know, some reporters said 400 amendments, 
some reporters said 700. I don't know how many there were, but 
they were essentially elaborations of changes to this document 
that were--had been advocated by the United States long before 
my arrival.
    What I found--the change that I did make was that we 
abandoned the so-called facilitator process, where the 
facilitator listens to all the delegations and takes 
suggestions in, and then does his or her best to reflect what 
they think the direction of the negotiations is going. I felt 
that was inadequate. I did not think the United States was 
getting the best outcome from the facilitator method. And I 
asked, and there was widespread support for, and we did then 
move to a model, direct government-to-government negotiations, 
which is how the final outcome document was ultimately 
produced.
    Senator Obama. Having been there for a year--and here, 
I'm--this is sort of an open-ended question--what do you think 
is the single biggest impediment to the lack of progress that's 
been made, in terms of some of the reforms that have been 
discussed?
    Ambassador Bolton. I think that Paul Volcker really had an 
important insight--and I had mentioned this earlier, but I 
think it bears repeating--when he said to this committee last 
year that he thought that the basic lesson he drew from his 
lengthy investigation into the Oil-for-Food scandal was not 
just the problems that existed in the Oil-for-Food scandal, but 
that the--but that those problems emanated from practices and 
policies deeply embedded in the U.N. itself, and that reform 
required not just addressing the more superficial aspects of 
the Oil-for-Food scandal, but involved addressing more 
fundamental aspects of the U.N., as well. And for him, the 
central--the underlying foundation of that problem was what he 
called the ``culture of inaction.''
    And I think that until we really are able to make progress 
on that, that many of the specific reforms that we propose will 
really not have a lasting difference. They are important to 
pursue. We will continue to pursue them. But when Secretary 
Rice called for a ``lasting revolution of reform''--you know, 
I've joked with people that it's not often you hear a Secretary 
of State call for revolution--but it is important in this 
context. Reform is not something you do on one day, and then 
you say, ``Well, we're finished with that. Do we move on to 
something else?'' You have to have making the organization more 
effective and more efficient a constant priority. And I think 
that is a view I've developed over 25 years of watching and 
participating in U.N.-related matters. And the past year has 
only confirmed that in my mind. I think that's the most 
fundamental obstacle we face, as identified by Paul Volcker.
    Senator Obama. Mr. Chairman, how--am I out of time?
    Senator Coleman. Your time has expired, Senator Obama.
    Senator Obama. Okay. Could you--I know that I'm the last 
guy, and it's raining in here, but can I ask one last question?
    Senator Coleman. Absolutely.
    Senator Obama. Mr. Bolton, sorry to keep you, but I did 
want to ask specifically about the situation in Darfur. And I 
know that somebody else has already asked the question. And let 
me stipulate that the administration has done more than our 
European allies. And this administration's record has shown 
genuine concern for the situation there. Having said that, we 
still see a continuing deterioration of the situation. Bob 
Zoellick's not going to be playing the leadership role that he 
was playing. We don't seem to be making much progress with the 
Chinese, Russians, or Sudanese in standing up a U.N. force. 
Fighting between the main factions has been intensified, and 
there doesn't seem to be any strong follow-up on DPA.
    So, I'm wondering, specifically what is your office doing, 
at this stage, to move us off the status quo, which I fear may 
end up deteriorating even further and resulting in a situation 
that, if we're not already ashamed of what's happening there, 
we'll be even more ashamed of?
    Senator Coleman. This will be the last response.
    Ambassador Bolton. Well, I agree that the Darfur peace 
agreement is in jeopardy. I think it's in jeopardy for a 
variety of reasons having to do with the politics in the 
region, the attitude of the Government of Sudan and a variety 
of other factors. And that, to us, underlines the importance of 
rehatting the African Union force, the AMIS mission, in Sudan 
as rapidly as possible, because if the protections that a new 
U.N. force can provide do not get into place quickly, and if, 
in the interim, however long that interim is, we don't 
strengthen the existing AMIS capabilities, that will increase 
the risk that the DPA will break down. I don't think there's 
any question about that.
    We have faced intransigence on the part of the Government 
of Sudan in--despite decisions by the Council on Peace and 
Security of the African Union, despite repeated decisions, 
despite the decision of the African Union in the Summit 
recently in Banjul, despite commitments made by the Government 
of Sudan previously, they continue to say they will not accept 
a U.N. force in Darfur. That has ripple effects with potential 
troop-contributing countries that worry about the situation 
into which their troops would be deployed. It has ramifications 
in the Council when people are reluctant to move up with the 
kind of expedition that we need to within the Secretariat, and 
how quickly they're able to proceed. It's a situation we worry 
about. My office, the Military Staff Committee Office, the 
uniformed officers who serve at USUN, with support from the 
Pentagon, which has sent up logisticians and planners to help 
out, have been pushing this at--with the greatest possible 
force. But the difficulties remain, and we are quite concerned 
if we don't expedite this, we're going to face difficulty.
    Senator Obama. I know my time is up. I--let me just say 
that I know that you have a lot on your plate. I would like to 
see some sense of urgency and focused attention. We know Sudan 
is going to be recalcitrant and intransigent. And so, precisely 
for that reason, I think it's important that we use some of our 
diplomatic skills and apply them to pressure some of the others 
who are supporting Sudan. And I'm not sure we've used all our 
diplomatic cards on this one.
    Senator Coleman. The Senator's----
    Senator Obama. Thank you----
    Senator Coleman [continuing]. Time has----
    Senator Obama [continuing]. Mr. Chairman.
    Senator Coleman [continuing]. Expired. Thank you.
    Senator Kerry.
    Senator Kerry. Thank you. I know all the comments that have 
been made about the flood here, so I won't make any more.
    I apologize for being delayed. We had a markup in the Small 
Business Committee. As ranking member, I had to be there.
    I heard a few of the questions, from my office, and 
obviously, I don't want to go over territory that's been well 
covered, Mr. Ambassador, so I want to just have a chance to be 
able to pursue a few things with you.
    I did hear, I think, in answer to one question from 
somebody--I think it was from the chair--that your views about 
the U.N. itself have not changed. And so, I'd just be curious 
to, sort of--what are those views, at this point? I mean, there 
was a lot of debate here, as you recall, about what those views 
were, and I'd just be curious to know what conclusions you've 
drawn about the U.N., at this point in time.
    Ambassador Bolton. Well, I think his question was, what did 
I find at the U.N. that I had not expected? And I think my 
response was ``very little,'' because I've studied and worked 
in U.N. matters for 25 years. And I'm sure there are things I 
don't know, but I've worked in the area for a long time.
    My views are, as I said in my opening statement in April of 
last year, that we are committed to a strong and effective 
United Nations; to do that, it requires substantial reform; 
that it can be an effective adjunct of American foreign 
policy--I think it's been demonstrated in a variety of areas 
that we've discussed here today in the context of Lebanon, 
North Korea, and Iran; and that that's why we're exerting the 
efforts that we are to--within the Security Council on a 
variety of substantive policy matters and on the question of 
U.N. reform.
    Senator Kerry. Well, you say that to be effective it 
requires reform. What is the principal reform that is required 
for the U.N. itself to be effective with respect to Iran or 
with respect to North Korea or Lebanon? What reform would make 
a difference to that effectiveness?
    Ambassador Bolton. I'm not sure that reform, as such, would 
have a difference there. That is more a question----
    Senator Kerry. Isn't that the policy?
    Ambassador Bolton [continuing]. In the Security Council 
of--policy--of reach policy agreement among the 15 members of 
the Council, and particularly the Perm-5.
    Senator Kerry. And isn't it fair to say that we're, sort 
of, the odd person out on most of those policies?
    Ambassador Bolton. I wouldn't say that, no.
    Senator Kerry. Well, with respect to North Korea--let's 
look at that for a minute. Russia and the South Koreans were 
unwilling to join us, isn't that correct, with respect to the 
sanction effort? Tough----
    Ambassador Bolton. That's clearly not correct, because they 
did. And, in fact, we worked very closely with the Russians in 
the negotiation, 11 days of very intense negotiation to get 
Resolution 1595, and worked very closely with the Republic of 
Korea's mission to the U.N. to get their agreement to the 
resolution, as well.
    Senator Kerry. Well, I beg to differ with you, Mr. 
Ambassador. They didn't get on board a tough Chapter VII 
resolution, did they? That was our position.
    Ambassador Bolton. They got on board a resolution which is 
binding, as our judgment is binding, under Chapter VII, that's 
correct.
    Senator Kerry. They didn't get on a tough chapter VII 
resolution, did they?
    Ambassador Bolton. Yes, they did.
    Senator Kerry. Chapter VII.
    Ambassador Bolton. They did.
    Senator Kerry. They did?
    Ambassador Bolton. We believe this resolution is binding 
under Chapter VII. It does not contain the words ``Chapter 
VII,'' but our conclusion is, based on the entire wording of 
the resolution, that it imposes binding constraints on North 
Korea, and other----
    Senator Kerry. Well, every----
    Ambassador Bolton [continuing]. And other member 
government--that's the interpretation of Britain, France, and 
Japan, and the other four cosponsors, as well.
    Senator Kerry. Prior to the adoption, speaking to reporters 
on July 6, you said, quote, ``I think it's important that the 
Security Council speak under Chapter VII to make a binding 
resolution.'' Is that correct?
    Ambassador Bolton. That's correct.
    Senator Kerry. Then, on July 14, just a day before they 
acted, you said you continued to insist on a resolution under 
Chapter VII which would make any sanctions mandatory. You 
stressed the importance of a, quote, ``clear, binding Chapter 
VII resolution. That remains our view, and the view of Japan.'' 
You went so far as to warn that ``if there is to be a veto, 
there comes a time when countries have to go into that chamber 
and raise their hand.'' That's not what happened, is it?
    Ambassador Bolton. As I said before, it's our judgment this 
is a mandatory----
    Senator Kerry. Well, it's a judgment----
    Ambassador Bolton [continuing]. Resolution.
    Senator Kerry [continuing]. But it's not the way it's 
viewed by the other parties.
    Ambassador Bolton. It's viewed that way by Japan, England, 
and France.
    Senator Kerry. Well, it's not--the Russians certainly 
aren't prepared to join in it, nor are the----
    Ambassador Bolton. They voted for it.
    Senator Kerry. But apparently not with the same 
understanding. I mean, Assistant Secretary Hill's testimony 
before this committee last week said that the administration's 
strategy on North Korea is shifting from failed negotiations to 
sanctions. And since you don't have Russia, you don't have 
China, and you don't have South Korea on the binding 
resolution, how are you going to do that?
    Ambassador Bolton. I think we do. You know, what it--what 
the resolution says, Senator, is, the Security Council 
demands--that includes Russia and China--the Security Council 
demands that the DPRK suspend all activity related to its 
ballistic missile programs. Demands. And you know what North 
Korea did? You know what they thought of that resolution? They 
sat there in the Council chamber and, after we voted to adopt 
it, they rejected it and got up and walked out of the Council 
chamber. I think that resolution had a clear effect on North 
Korea.
    Senator Kerry. What was the effect?
    Ambassador Bolton. That they understand how isolated they 
are. And you'll note that, as reported in the papers the other 
day, the Government of China has begun to take steps with 
respect to North Korean banking, the--which is consistent with 
operative paragraphs----
    Senator Kerry. But----
    Ambassador Bolton [continuing]. Paragraphs 3 and 4 of the 
resolution that require--``require'' is the word we used--the 
Security Council requires that all U.N. member governments 
cease their procurement from, or supply to, any of North 
Korea's programs relating to ballistic missiles or weapons of 
mass destruction.
    Senator Kerry. Well, let's come back, to be precise, 
because this is a precise world we live in. It is accurate--I 
have the resolution right in front of me--it says ``demands 
that the DPRK suspend all activities related to its ballistic 
missile program.'' But it doesn't impose Chapter VII sanctions.
    Ambassador Bolton. We didn't seek to impose Chapter VII 
sanctions.
    Senator Kerry. Well, how are you going to achieve this if 
you're not going to have sanctions, if you don't have the other 
countries prepared to have the sanctions? The reason you 
don't----
    Ambassador Bolton. Because the first----
    Senator Kerry [continuing]. Have sanctions is, they weren't 
prepared to do it, isn't that correct?
    Ambassador Bolton. No, because that was not part of our 
original resolution. The first step here was to pass this 
resolution, which----
    Senator Kerry. You're telling me they would be prepared to 
impose sanctions?
    Ambassador Bolton [continuing]. Which is--you know, 
Senator, we had consultations with Japan and the United Kingdom 
and France about how to approach this resolution. And, as I 
mentioned earlier today, there were a variety of different 
steps that we could have taken. It was our judgment that the 
best way to proceed was along the lines that are now embodied 
in Resolution 1695. That is certainly not to say that the 
Council might not take other steps in the future. But the steps 
we sought to take, we have now taken, unanimously.
    Senator Kerry. Well, I--you're losing me, a little bit, 
because--I mean, North Korea defied the world's request not to 
test an intercontinental missile. You are the ones who said you 
wanted sanctions, but were unable to get Russia and others to 
sign on to that concept.
    Ambassador Bolton. Senator, we said we wanted what we got.
    Senator Kerry. Well, the most that you seem to want is to 
go back to a Six-Party Talk that isn't in existence.
    Ambassador Bolton. No, no, no, quite the contrary. We said, 
expressly----
    Senator Kerry. Are you prepared to go to bilateral talks?
    Ambassador Bolton. Quite the contrary. We said, expressly, 
that what we wanted from North Korea was not simply a return to 
the Six-Party Talks, but an implementation of the September 
2005 joint statement from the Six-Party Talks, which would mean 
their dismantlement of their nuclear weapons program.
    Senator Kerry. But this has been going on for 5 years, Mr. 
Ambassador.
    Ambassador Bolton. It's the nature of multilateral 
negotiations, Senator.
    Senator Kerry. Why not engage in a bilateral one and get 
the job done? That's what the Clinton administration did.
    Ambassador Bolton. Very poorly, since the North Koreans 
violated the agreed framework----
    Senator Kerry. But they----
    Ambassador Bolton [continuing]. Almost from the time it was 
signed. And I would also say, Senator, that we do have the 
opportunity for bilateral negotiations with North Korea in the 
context of the Six-Party Talks, if North Korea would come back 
to them.
    Senator Kerry. Mr. Ambassador, at the time--Secretary Perry 
has testified before this committee, as well as others--they 
knew that there would be the probability they would try to do 
something outside of the specificity of the agreement, but the 
specificity of the agreement was with respect to the rods and 
the inspections and the television cameras and the reactor 
itself.
    Ambassador Bolton. Senator, the agreed framework requires 
North Korea and South Korea to comply with the Joint North/
South Denuclearization Agreement, which, in turn, provides no 
nuclear weapons programs on the Korean Peninsula. So, it was 
not limited only to the plutonium reprocessing program.
    Senator Kerry. Mr. Ambassador, the bottom line is that no 
plutonium was reprocessed under that agreement. No plutonium 
was reprocessed until the cameras were removed, the inspectors 
were kicked out, the rods were taken out, and now they have 
four times the nuclear weapons they had when you came on watch.
    Ambassador Bolton. Because the North Koreans----
    Senator Kerry. The question here is--I mean, a whole host 
of people have testified before this committee and others--I 
mean, my objection is that--I mean, if you look at the policy--
it's across the board, and we're not going to resolve it here 
now, obviously, I understand that----
    Ambassador Bolton. I guess that's right.
    Senator Kerry [continuing]. But--well, there is another 
good reason to think about this.
    It's hard to pick up the newspaper today, it's hard to talk 
to any leader anywhere in the world, it's hard to travel abroad 
as a Senator and not run headlong into the isolation of the 
United States and the divisions that exist between us and our 
allies on any number of different issues. Now, it is very hard 
to sit here and say that the Six-Party Talks have been a 
success.
    Ambassador Bolton. I don't believe I've said that.
    Senator Kerry. I know. I didn't suggest you have. But what 
I'm trying to get at is the policy foundation itself. Why 
insist on a Six-Party Talk process, which it seems to me never 
joins the fundamental issues between the United States and 
North Korea, which go back a long, long time, over Republican 
and Democratic administrations?
    Ambassador Bolton. I think the reason for that is that the 
disagreement is not fundamentally a bilateral disagreement 
between North Korea and the United States, it's a disagreement 
between North Korea and everybody else about their pursuit of a 
nuclear weapons capability. And the aspect of the Six-Party 
Talks that we think was most important was not negotiating over 
the head of South Korea, which was the consequence of the 
agreed framework, but bringing in all of the regional 
partners--South Korea, Japan, Russia, and China--to address 
this question collectively, since it was in all of our interest 
to do so.
    Senator Kerry. Well, most of the people that I've talked to 
have spent a lot of time in various thoughtful institutions 
thinking about these issues--a career--believe that what North 
Korea wants more than anything is an assurance that the United 
States of America isn't going to have a strategy similar to 
Iraq directed at them. Most people have suggested that if there 
were to be some kind of bilateral discussion to get at the 
issues between the two of us, you'd have far more opportunity 
to get at the nuclear issue than you do through these standoff, 
nonexistent Six-Party Talks that produce nothing over 5\1/2\ 
years. Why is the administration so unwilling to talk to Syria, 
for example--I mean, even to, you know, pursue these issues? It 
doesn't seem as though this non-talk approach is getting you 
very far.
    Ambassador Bolton. Well, first, the Six-Party Talks have 
not been going on for 5\1/2\ years. Second, one of the 
principal reasons----
    Senator Kerry. No, because no talks were going on for the 
first couple of years, and then the Six-Party Talks were a 
cover for not dealing with bilateral talks. I understand.
    Ambassador Bolton. The principal reason that we haven't had 
Six-Party Talks in 10 months is because North Korea won't 
accept China's invitation to come to the talks. But we have 
made it clear to them repeatedly that they could have, and they 
have had, bilateral conversations with the United States in the 
context of the Six-Party Talks. So, the question as to why the 
Six-Party Talks have not proceeded here, I think, lies sparely 
in Pyongyang.
    Senator Kerry. Well, the world and North Korea are getting 
more dangerous as you resist the notion of engaging in any kind 
of bilateral effort as an administration--not you, personally--
--
    Ambassador Bolton. Yeah, but----
    Senator Kerry [continuing]. I guess----
    Ambassador Bolton [continuing]. Senator----
    Senator Kerry [continuing]. But I include----
    Ambassador Bolton [continuing]. Senator, it--really, it's 
hard to understand how you can't look at the notion of 
conducting the bilateral conversations in the Six-Party Talks 
and not say that North Korea has an opportunity to make its 
case to us.
    Senator Kerry. Sir, with all due respect, what I've seen 
work and not work over the course of the years I've been here 
depends on what kind of deal you're willing to make or not make 
and what your fundamental policies are. If you're a leader in 
North Korea looking at the United States, and you've seen the 
United States attack Iraq on presumptions of weapons of mass 
destruction that didn't exist, if you announce a preemptive 
strategy of regime change, if you are pursuing your own new 
nuclear weapons--bunker-busting nuclear weapons--and you're 
sitting in another country, you would have a perception of 
threat that makes you make a certain set of decisions. And 
historically throughout the cold war that drove the United 
States and the then-Soviet Union to escalate and escalate and--
first one did, then the other--in fact--in fact, in every 
single case, we were the first, with the exception of two 
particular weapons systems, to develop a nuclear breakthrough 
first. They followed. Until, ultimately, President Reagan, a 
conservative President, and President Gorbachev, said, ``We're 
going to come down,'' in Reykjavik, ``to no weapons.'' So we 
reversed 50 years of spending money and chasing this thing.
    I would respectfully suggest to you that North Korea is 
sitting there making a set of presumptions. And unless you 
begin to alter some of the underlying foundation of those 
presumptions, you're stuck. The problem is, we're stuck, too, 
as a consequence. And a lot of us feel very, very deeply that, 
you know, the Six-Party Talks have never been real, and never 
been a way of achieving this goal. And as long as we're on this 
course, we're stuck.
    Senator Coleman. The Chair would note that it's been 
extremely generous. Senator from Massachusetts----
    Senator Kerry. No, that's fine.
    Senator Coleman [continuing]. Is the final----
    Senator Kerry. I'm--maybe you'd like to----
    Senator Coleman [continuing]. Is the final witness----
    Senator Kerry [continuing]. Respond to that, Mr. 
Ambassador.
    Ambassador Bolton. Well, I think that the effort that has 
been made is to give North Korea the opportunity to make the 
choice to come out of its isolation, to give up its nuclear 
weapons programs, and to enjoy the kind of life that the people 
in South Korea enjoy. You know, there's a great map, Senator--
I'd be--I'm sure you've seen a copy of it--of the Korean 
Peninsula at night. And South Korea is filled with light. North 
Korea is black. It looks like South Korea is an island. That's 
what that regime has done to its people. We could----
    Senator Kerry. Sir, I know what a terrible----
    Ambassador Bolton [continuing]. We----
    Senator Kerry [continuing]. Regime it is.
    Ambassador Bolton [continuing]. We could give them----
    Senator Kerry. I understand that.
    Ambassador Bolton. We have tried to give them the chance, 
through the Six-Party Talks, to end that isolation. And----
    Senator Kerry. Well, with all----
    Ambassador Bolton [continuing]. As I say, for 10 months, 
they haven't even been willing to go back to Beijing.
    Senator Kerry. I have to tell you something. About 3 years 
ago, or 4 years ago--I can't remember precisely when--the North 
Koreans were casting about here in Washington asking people, 
``Who do we talk to?'' They were looking for a deal. And the 
administration just blanked them. There was no willingness to 
do this. This is pre- going to the Six-Party Talks. Then we get 
to the Six-Party Talks, and we've gone through a series of 
evolutions since then.
    So, with all due respect, a lot of folks think there is a 
different course. You don't. The administration doesn't. But I 
think it's important to talk about it, and I think it's 
important to lay it out there.
    Ambassador Bolton. And we have.
    Senator Kerry. Similarly, on 1559, which called for the 
disarmament of Hezbollah, that was not a priority for the last 
year, and we are where we are.
    Ambassador Bolton. I would disagree. It was not a priority. 
But I'm not sure----
    Senator Kerry. Well, can you tell me what you did at the 
U.N.--to put it on the front-burner agenda?
    Ambassador Bolton. I think, really, at this point, I'd just 
refer you to my earlier testimony, where I talked about a 
number of resolutions and presidential statements that we have 
adopted to put more pressure on Syria, both with respect to 
1559 and 1595, which I think is another quite important 
resolution pursuing the Hariri assassination. And I think that, 
in fact, the issue of Lebanon, generally, is probably the best 
example of U.S. cooperation with France in a matter in the 
Security Council that we've had in recent years.
    Senator Kerry. The--well, again, we can debate, and we're 
not going to here, so I'll let that go.
    Thanks, Mr.----
    Senator Coleman. Thank you, Senator Kerry. The Senate does 
have a tradition of unlimited debate, but we will bring this 
hearing to a close.
    Mr. Ambassador, diplomats have to operate in all sorts of 
environments, all sorts of conditions. You've done that through 
your career. You've obviously demonstrated the capacity to do 
it today.
    We will keep the record open until the close of business 
Friday, July 28.
    With that, this hearing is now adjourned.
    [Whereupon, at 1:10 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
